<html>
<title> - MOVING FORWARD AFTER HURRICANES KATRINA AND RITA</title>
<body><pre>[Senate Hearing 110-1033]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1033
 
                    MOVING FORWARD AFTER HURRICANES 
                            KATRINA AND RITA

=======================================================================

                             FIELD HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                   FEBRUARY 26, 2007--NEW ORLEANS, LA

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
53-826                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d4b3a4bb94b7a1a7a0bcb1b8a4fab7bbb9fa">[email&#160;protected]</a>  

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         CRAIG THOMAS, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 26, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     4
Cardin Hon. Benjamin L., U.S. Senator from the State of Maryland.     5
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     7
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     8
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    10
Landrieu, Hon. Mary, U.S. Senator from the State of Louisiana....    10

                               WITNESSES

Woodley, Paul John, Assistant Secretary of the Army (Civil Works) 
  and Major General Don T. Riley, Director of Civil Works, U.S. 
  Army Corps of Engineers........................................    12
    Prepared statement...........................................    13
    Responses to additional questions from:
        Senator Cardin...........................................    17
        Senator Whitehouse.......................................    18
Greene, Richard, Regional Administrator, Region VI, U.S. 
  Environmental Protection Agency................................    19
    Prepared statement...........................................    20
McDaniel, Mike, Secretary, Louisiana Department of Environmental 
  Quality........................................................    34
    Prepared statement...........................................    36
Nguyen, Vien The, Reverend, Pastor of the Mary Queen of Vietnam 
  Church.........................................................    72
    Prepared statement...........................................    73
Subra, Wilma, Subra Company......................................    92
    Prepared statement...........................................    93
Coffee, Sidney, Chair, Louisiana Coastal Protection & Restoration 

  Authority......................................................   142
    Prepared statement...........................................   144
Twilley, Robert, Director and Wetland Biogeochemistry Professor, 
  Department of Oceanography and Coastal Science, Louisiana State 
  University.....................................................   146
    Prepared statement...........................................   147
Roach, Randy, Mayor, Lake Charles, LA............................   155
    Prepared statement...........................................   156
Jackson, Thomas L., President, Southeast Louisiana Flood 
  Protection Authority-East......................................   158
    Prepared statement...........................................   159

                          ADDITIONAL MATERIAL

Statements:
    Coastal Protection and Restoration Authority of Louisiana....   166
    Louisiana Department of Environmental Quality................   168


            MOVING FORWARD AFTER HURRICANES KATRINA AND RITA

                              ----------                              


                       MONDAY, FEBRUARY 26, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    New Orleans, LA
    The committee met, pursuant to notice, at 10 o'clock a.m. 
at the Louisiana Supreme Court Building, 400 Royal Street, the 
Hon. Barbara Boxer (chairman of the committee) presiding.
    Present: Senators Boxer, Vitter, Isakson, Cardin, 
Klobuchar, Whitehouse, and Landrieu.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer.  This hearing of the Senate Environment and 
Public Works Committee will come to order. First I want to say 
how pleased we are to be here and I want to tell you how we are 
going to proceed before I make my opening statement. And that 
is that we have three panels who we are going to hear from. And 
before they get to testify each of us is going to make an 
opening statement, which will range between 3 and 5 minutes. I 
would urge all of our witnesses not to go over 5 minutes, 
because if you do, I have to do this (indicating), just because 
we want to have time for questions. So that's how we are going 
to proceed now.
    Before our panels we are going to hear from the Hon. Mary 
Landrieu. And then I'm going to ask her to please join us right 
here next to me so that we have Louisiana's two Senators up 
front and center as they should be at this very important 
hearing.
    So good morning everyone, and thank you for joining us at 
the very first field hearing of the Senate Environment and 
Public Works Committee this Congress. And it shows how 
important the subject matter is that we are here.
    As the new chair of this committee I felt it was important 
for our very first field hearing to be here in New Orleans. The 
critical issues we will address today: Hurricane protection, 
wetlands restoration, and management of the massive amounts of 
debris left in the aftermath of Hurricane Katrina and Rita are 
a top priority for this committee and with the continued help 
and terrific leadership of your two Senators we intend to stand 
by the people of New Orleans. You deserve it. This great 
American city, this beautiful State and region continue to need 
our attention and will not be forgotten as long as I sit in 
this chair.
    I want to thank the members of the U.S. Senate who are here 
today in support of this effort. It wasn't easy to get here. We 
had all kinds of weather issues and they stuck with it and I 
just want to say thank you to them.
    And again, I want to recognize my colleagues from Louisiana 
for ensuring that we continue to focus on the needs of this 
hard-hit region. Senator Landrieu asked if I would conduct this 
hearing as quickly as possible at the start of the new Congress 
since our committee is responsible for oversight of the Army 
Corps of Engineers' wetlands and waste disposal. These issues 
continue to have central importance as we move forward in the 
aftermath of the hurricanes.
    Senator Vitter is a member of the Environment and Public 
Works Committee and he has stressed the importance of dealing 
with ongoing challenges in his State, including the problems 
with debris in landfills. He also asked that we hold the 
hearing on this issue and I appreciate his strong interest in 
ensuring that this committee play an active role in addressing 
these matters. And we must, because it is our job.
    And again, as chairman of this committee, I want to assure 
all involved that we will stay focused on what needs to be 
done. Tragedy suffered by this region will be forever fixed in 
our minds. Since arriving last evening, members of this 
committee have traveled to some of the devastated areas, 
including reviewing the damage from the air this morning. 
Although there are many signs of hope, much of the devastation 
from Katrina is still all too clear. A year and a half after 
the storms a lot of work remains.
    Now, we know that there have been serious failures by our 
Government and we must learn from the past. But personally, I 
want to focus on the future. We want to be constructive and we 
want to do what is necessary. One thing I can assure you is 
that Congressional oversight of our Government is back. When 
the Army Corps of Engineers, the EPA or other Federal agencies 
are doing something right, we will commend them. But when they 
are not, we want to know so the problem can be fixed 
cooperatively and in a bipartisan way.
    The levees and flood walls should have protected the people 
of New Orleans but they failed, unleashing tragedy and 
unleashing horror. We now have several studies looking at what 
went wrong, the region lacked a comprehensive and effective 
system to protect it from the kind of storm surges that came 
with Katrina and Rita. As chairman of this committee I'm 
determined that we consider necessary legislation to address 
hurricane protection and restoration as part of the Water 
Resources Development Act and that we do it soon. And I want to 
say that your two Senators are pressing and we are all pressing 
to get this bill done and I commit to you we will get it done 
and we will have it on the floor of the Senate at the end of 
March. I would say we will have it out of the committee at the 
end of March and be pressing for it to be on the floor of the 
Senate from that time forward.
    It has been over 6 years since we had a WRDA bill and 
critical projects such as the Morganza Hurricane Protection 
Project and Louisiana Coastal Area Program need attention now. 
We must commit ourselves to restoring Louisiana's natural 
hurricane protection system, the wetlands. We know that when 
storms pass over warm, open Gulf waters, they strengthen. We 
know we are going to be facing that even more in the future 
with global warming. For centuries the protective wetlands of 
the Louisiana coast blunted the force of countless storms, 
absorbing their energy and softening their impact, but those 
wetlands have been disappearing before our eyes. Today 
Louisiana's Coastal wetlands are only half as wide as they were 
50 years ago. If we fail to restore disappearing wetlands there 
will be no floodwall high enough, no levee big enough and no 
pumps strong enough to protect this city and the coast.
    We also need to address the disposal of tons of debris 
generated by the hurricanes and flooding. We will examine 
concerns about possible risks of release of chemicals from 
these landfills, potential risks of flooding of the landfills, 
about illegal dumping in certain areas of the city.
    Now, we know how much you have suffered here, and the first 
message I want to give you again is a message of hope, that you 
will not be forgotten, that we are working together in a 
bipartisan way to bring justice to this area. And now I would 
turn it to Senator Vitter. Thank you, Senator.
    [The prepared statement of Senator Boxer follows:]

        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California

    Good Morning, and thank you for joining us at the first field 
hearing of the Senate Environment and Public Works Committee in this 
Congress. As the new Chair of this Committee, I felt that it was 
important for our very first field hearing to be here in New Orleans. 
The critical issues we will address today--hurricane protection, 
wetlands restoration and management of the massive amounts of debris 
left in the aftermath of Hurricane Katrina and Rita, are a top priority 
for this Committee.
    This great American city, this beautiful State and region, continue 
to need our attention and will not be forgotten.
    I want to thank the six members of the U.S. Senate who are here 
today in support of this effort. I particularly want to recognize my 
colleagues from Louisiana for ensuring that we continue to focus on the 
needs of this hard hit region.
    Senator Landrieu asked if I would conduct this hearing as quickly 
as possible at the start of the new Congress since our Committee is 
responsible for oversight of the Army Corps of Engineers, wetlands and 
waste disposal--these issues continue to have central importance as we 
move forward in the aftermath of the hurricanes.
    Senator Vitter is a member of the Environment and Public Works 
Committee, and he has stressed the importance of dealing with ongoing 
challenges in his State, including the problems with debris and 
landfills. He asked that we hold a hearing on these issues, and I 
appreciate his strong interest in ensuring that the Committee play an 
active role in addressing these matters.
    As Chairman of this Committee, I want to assure all involved that 
we will stay focused on what needs to be done.
    The tragedy suffered by this region will be forever fixed in our 
minds. Since arriving last evening, members of this Committee have 
traveled to some of the devastated areas, including reviewing the 
damage from the air this morning. Although there are many signs of 
hope, much of the devastation from Katrina is still all too clear. A 
year and a half after the storms, a lot of work remains.
    There have been serious failures by our Government, and we must 
learn from the past. But I want to focus on the future. We want to be 
constructive, and to see what we can do now.
    One thing I can assure you is that Congressional oversight of our 
Government is back. When the Army Corps of Engineers, the Environmental 
Protection Agency, or other Federal agencies are doing something right, 
we will commend them. But when they are not doing their jobs, we want 
to know so the problem can be fixed cooperatively, and in a bipartisan 
way.
    The levees and floodwalls should have protected the people of New 
Orleans. But they failed, unleashing a tragedy and a horror that was to 
some unimaginable, but in fact was foreseeable.
    We now have several studies looking at what went wrong in 
protecting this region. The region lacked a comprehensive and effective 
system to protect it from the kind of storm surges that came with 
Katrina and Rita.
    As Chairman of the Environment and Public Works Committee, I am 
determined that we consider necessary legislation to address hurricane 
protection and restoration as part of the Water Resources Development 
Act and that we do it this year.
    It has been over 6 years since we had a Water Resources Development 
Act, and critical projects such as the Morganza hurricane protection 
project and the Louisiana Coastal Area program need action now.
    We must commit ourselves to restoring Louisiana's natural hurricane 
protection system the wetlands. We know that when storms pass over 
warm, open Gulf waters, they strengthen. For centuries, the protective 
wetlands of the Louisiana coast blunted the force of countless storms, 
absorbing their energy and softening their impact.
    But those wetlands have been disappearing before our eyes. Today, 
Louisiana's coastal wetlands are only half as wide as they were 50 
years ago.
    If we fail to restore Louisiana's disappearing wetlands, there will 
be no floodwall high enough, no levee big enough, and no pumps strong 
enough to protect this city and coast.
    We also need to address the disposal of tons of debris generated by 
the hurricanes and flooding. We will examine concerns about possible 
risks of release of chemicals from these landfills, potential risks of 
flooding of the landfills, and about illegal dumping in certain areas 
of the city.
    I am committed to working with Senators Landrieu and Vitter and the 
members of this Committee to accomplish what is needed for Louisiana 
and the region. Today's hearing is an important step in that process.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you very much, Madame Chair. And I 
want to start by thanking you and the rest of the committee for 
being here and for holding this very important field hearing. 
Many committees in the Congress do field hearings regularly. 
What is so unusual about this is the very significant and broad 
representation we have. We will have seven U.S. Senators here, 
seven percent of the entire U.S. Senate, and I want to thank 
each and every one of you, as I know Mary does, for making the 
trip and being here and seeing things firsthand.
    This committee is enormously important to our recovery on 
the Gulf Coast. When I first came to the Senate, in 2004, I 
came to this committee and was honored to do so then. I'm even 
more honored to be on the committee now and find it even more 
of an important opportunity because of everything we are 
working through with Hurricanes Katrina and Rita.
    This committee oversees every activity of the U.S. Army 
Corps of Engineers, so needless to say, there are so many very 
important issues related to our recovery that are fore square 
before this committee. And in addition, of course, this 
committee oversees environmental issues. So other important 
issues, landfill issues, dumping issues are right before our 
jurisdiction as well.
    Thank you, Madame Chair, again for this hearing. I started 
work on a hearing like this in late 2006 and it really came out 
of some meetings I had in New Orleans East with Father Nguyen 
and many other citizens out there who were particularly 
concerned about the landfill issues that we are going to 
discuss during the hearing. And we began making plans for a 
hearing. And then, Madame Chair, you immediately picked up on 
those plans and expanded them and went forward as soon as you 
became chairman. So I appreciate that and I appreciate your 
bringing this hearing to the New Orleans area, as you said, the 
first field hearing of this committee in the new Congress. I 
think that is very meaningful and very significant.
    Again, we are going to talk a lot today about crucial Corps 
of Engineers' issues and all the Corps activity is in the 
jurisdiction of this committee, coastal restoration first and 
foremost; closing MRGO, which has to happen; reforming and 
improving the processes of the Corps in infusing that process 
with more outside independent scientific expertise; and also 
changing Congressional procedure as it relates to the Corps. 
The vitally important program, Morganza, the Gulf to provide 
some beginning hurricane protection to populated areas to the 
west of here, which right now have virtually none. All of these 
are enormously important programs, priorities that the Corps' 
involved in, and therefore, this committee is involved in it.
    With regard to all of that, my bottom line and my plea, 
which I know the Chairman has heard and agrees with, is very 
simple. All of this moves forward and we have enormous positive 
language and proposals in the WRDA bill which we're currently 
working on. WRDA is W-R-D-A, stands for Water Resources 
Development Act, and it is a major water resources bill that 
moves through this committee. It's long overdue to be passed. 
It should have been passed at least two or three years ago, but 
we really need to get it done now because all of these issues 
are in WRDA and all of these issues can move forward positively 
through WRDA.
    So, Madame Chair, thank you for your commitment on WRDA and 
I certainly want to work with you and the rest of the committee 
to accelerate the process any way we can. We were talking on 
the bus about how we might accelerate that process.
    Finally, again, the genesis of this hearing from my point 
of view was a focus on the very significant landfill issues in 
New Orleans East and the very legitimate concerns of that 
community. I look forward to discussing that in Panels 1 and 2. 
I do think they are very serious issues. I have grave concerns 
about what has gone on and what is going on at the old Gentilly 
landfill and I don't think you need to look any further than 
the front page of today's Times-Picayune to understand some of 
the history that brought us here today. Certainly we'll be 
discussing that in the hearing.
    Thank you, Madame Chair.
    Senator Boxer.  Thank you, Senator. Senators, the clock is 
right over there in front and so I'm going to turn it now to 
Senator Cardin of Maryland who was one of those Senators who 
waited around until very late last night to get here. We so 
appreciate it, Senator.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin.  Well, Senator Boxer, let me thank you very 
much for having this hearing. Let me assure you the time was 
not wasted. Secretary Woodley used that time to give me a 
private tutorial on canals and pumps and levees, so I 
appreciate that very much and I really want to thank you for 
conducting this hearing.
    I wanted to come here to New Orleans. It was not an 
assignment that was looked at as a burden. I wanted to be here. 
I wanted to see firsthand what was happening in New Orleans. 
Senator Landrieu and Senator Vitter both told me that you need 
to be here to see; that you can't just read about it or look at 
the pictures, but you need to come by and see what is happening 
in New Orleans.
    I want to you know as a Senator who represents the people 
of Maryland, we are going to do everything we can to help. We 
want to restore a quality of life to people of this area that 
reflects the commitment of our nation. We also want to learn 
from what happened here. We want to get it right. We also want 
to learn. I represent a State in which water is a major part of 
our life. We live with water in Maryland and we know the beauty 
of it. We also know the danger of it. I want to make sure that 
we learn with what happened in Katrina so that we can take 
steps to protect people so that we can minimize these natural 
disasters.
    Katrina was the worst natural disaster in my lifetime 
affecting the people of our country. It was made worst because 
Governments were not prepared to do what they needed to do at 
all levels and we have to get it better. We have to understand 
what has happened.
    We also understand that the issue deals not just with 
building the levees and the pumps and the canals, but also 
dealing with the buffers, the wetlands. We have to do a better 
job in restoring wetlands in this area.
    I understand that during the course of this hearing we are 
going to lose wetlands that equal several football fields in 
that short period of time, because of the way in which we have 
developed life, the way we have changed the flow of the river, 
the way that we have built buildings. Well, we need now to take 
affirmative steps to improve the wetlands, to improve the 
buffers, so that the great work of our engineers in building 
stronger levees and better designed canals and pumps will be 
also supplemented by protecting the areas from the natural 
buffers that are so important in a storm, or so important just 
to deal with normal flooding conditions that are a way of life 
for people who live on coastal areas.
    So I also wanted to see some of the housing. I was 
disappointed I didn't get here earlier because I had an 
appointment to meet with some people in the Lower Ninth Ward. 
We did by today in the tour to see some of the neighborhoods. 
And I understand the complexities--certainly better now than 
before I got here, the complexities of restoring communities 
and neighborhoods.
    But we have to pay attention in Washington. Neighborhoods 
need our help. People's lives have been literally uprooted. We 
need to find a way to expedite return of some degree of normal 
life to neighborhoods today that still do not have that 
commitment from all of us.
    So, Madame Chair, I thank you for convening this hearing 
and for bringing together the type of witnesses I think that we 
can learn a lot from. This is a very important hearing. I'm 
glad it's our first field hearing so that we can benefit from 
the expertise that's in this room.
    Senator Boxer.  Senator, thank you very much. It's my 
pleasure to call on Senator Isakson of Georgia, who's very 
interested in this hearing and has been a very active member of 
this committee.
    Senator, welcome.
    [The prepared statement of Senator Cardin follows:]

      Statement of Hon. Benjamin L. Cardin, U.S. Senator from the 
                           State of Maryland

    Madam Chair, thank you for holding this field hearing today, here 
in New Orleans. Because we have so many witnesses, so many topics, and 
so little time, I'm going to be brief. I really consider this a 
``hearing'' in the true sense of the term an opportunity for the 
Environment & Public Works Committee to hear from some of the people 
who have been directly affected by the worst natural disaster in our 
Nation's history and who will help the region recover and rebuild.
    I would like to make two brief points. First of all, Katrina was 
the worst natural disaster we have experienced but it's important to 
acknowledge that it didn't have to be. There were failures at all 
levels of Government which others have documented before, during, and 
after the storm hit. These failures from poor design, construction, and 
maintenance of the levees and floodwalls to inadequate evacuation plans 
and resources made a bad situation much worse.
    I bring this up because much of the rhetoric we have heard the past 
few decades has been about tearing Government down. And we allowed that 
to happen: not enough resources, not enough oversight.
    To put it simply and starkly, Katrina grimly illustrated the 
consequences of bad Government and the need for good Government. The 
flooding didn't have to be so extensive, and people didn't have to be 
stranded for days on the roofs of their homes or at the Superdome.
    I think it's time to re-acknowledge that there are certain goods 
and services only Government can provide. Instead of spending all our 
time and effort trying to get rid of Government, let's a find a way to 
make sure it provides those goods and services as effectively and 
efficiently as possible.
    The second point I would make is that we tend to think there's a 
``technological'' solution to all of our problems. That's why I 
appreciate the fact that part of this hearing is devoted to the issue 
of wetland losses and restoration.
    Wetlands provide an excellent natural ``buffer'' system to absorb 
and reduce the impact of storms. But during the course of this hearing, 
wetlands the size of four to five football fields will sink into the 
Gulf of Mexico. Much of that loss is attributable to human activities.
    Protecting New Orleans and the other cities and towns along the 
Gulf Coast from the next big storm isn't just an engineering issue. 
It's not just about bigger, stronger levees and floodwalls. We have to 
stop wetland losses and give this natural buffer system of barrier 
islands, wetlands, grass marshes, and cypress swamps a chance to 
recover.
    Thank you again, Madam Chair, for holding this field hearing. I 
look forward to hearing from our witnesses. We all have an enormous 
task at hand: to help one of America's greatest cities come back, to 
help the entire Gulf Coast come back, and to protect this wonderful 
area and its people from having to endure something as devastating and 
horrific as Hurricane Katrina and its aftermath ever again.

           OPENING STATEMENT OF HON. JOHHNY ISAKSON, 
             U.S. SENATOR FROM THE STATE OF GEORGIA

    Senator Isakson.  Well, thank you. And thanks first of all, 
to your commitment to bring the hearing here. Senator Landrieu 
and Senator Vitter made sure that every one of us in the Senate 
every day understand the plight and the concerns of Louisiana 
and I pay tribute to both of them on the efforts they have made 
on behalf of this great city and your State.
    Like Senator Cardin, I'm delighted to be here. I have 
equity in the city of New Orleans. I paid tuition at Tulane for 
4 years. My oldest son graduated 15 years ago. I have fond 
memories. My wife and I honeymooned at 727 Toulouse Street in 
the Maison De Ville 39 years ago and in my former profession I 
worked closely with Latter and Blum and Gertrude Gardner in the 
real estate business and have talked with those principals 
since the Katrina catastrophe and the following Rita 
catastrophe and understand the great plight and difficulties 
that the real estate industry and the homeowners in this region 
and this particular city have had.
    So as ranking member of the Transportation and 
Infrastructure Subcommittee, I'm especially glad to be here 
today and I pledge at the outset my hardest effort and best 
effort to accelerate the Federal, State and local partnership 
in the reconstruction of this great city and this region. I'm 
delighted to be in the city today and I'm anxious to hear from 
the Corps both on the immediate reaction to the hurricane 
response operation and their ongoing reconstruction efforts in 
the New Orleans area. I'm equally interested in Senator 
Vitter's statements with regard to Gentilly landfill.
    But most importantly of all, I'm proud to be here as a part 
of a committee that wants to do everything it can to help this 
great city, this State and this region recover from a great 
catastrophe. I yield back to the Chair.
    Senator Boxer.  Thank you, Senator, for you eloquent words. 
It's my pleasure to call on Senator Klobuchar of Minnesota and 
we're just thrilled she's on the committee.
    [The prepared statement of Senator Isakson follows:]

        Statement of Hon. Johnny Isakson, U.S. Senator from the 
                            State of Georgia

    Thank you Madam Chairman, and Senator Vitter. I appreciate the 
opportunity to participate in today's hearing, the latest in a series 
of oversight hearings conducted by this Committee since the devastation 
caused by hurricanes Katrina and Rita. New Orleans is a very special 
city to many Americans, and also to me personally. My wife Dianne and I 
honeymooned here 38 years ago, and my son John is a graduate of Tulane 
University. New Orleans holds a special place in my family's hearts. 
I'll be brief in my opening remarks so that we can get to our 
witnesses, except to say the following.
    Given this Committee's jurisdiction over the Civil Works mission of 
the Army Corps of Engineers, and given my position as the Ranking 
Member on the Transportation and Infrastructure Subcommittee, I am 
especially interested in hearing from the Corps regarding their 
hurricane response operations and their ongoing reconstruction and 
restoration efforts in the New Orleans area. I pledge to do all I can 
to work with my colleagues on this Committee and in the Senate to 
provide the proper oversight of the Corps, and resources to the Corps, 
to ensure that they fulfill their obligations to the people of New 
Orleans, LS, and the Gulf Coast.
    I am also interested in hearing from our witnesses regarding 
disaster debris management and removal. This issue is, in my mind, 
equally critical to facilitate the recovery here in New Orleans. As we 
saw today at the Gentilly Landfill, the types and amounts of debris 
generated by the storms is just staggering. We need to be sure that the 
manner in which we handle these wastes does not pose a threat to human 
health or the health of the environment here in New Orleans and 
Louisiana.
    Thank you again Senator Boxer and Senator Vitter, and I yield back 
the balance of my time.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar.  Thank you. Thank you, Madame Chair. And 
I want to extend a special thanks to you for holding this 
hearing here as well as Senator Landrieu and Senator Vitter for 
hosting us here. I can tell you from being on the Senate floor, 
both of them are constantly have these issue up front and 
center. I don't think there is a Senator that they haven't 
talked to about this and you should know that about them.
    I wasn't in the Senate when this area was struck by 
Hurricane Katrina and Rita, but I can tell you what I felt as a 
citizen of the State of Minnesota and that's what the rest of 
this country felt, which was sadness and despair over the 
tragedy and the horror and then a disappointment in our 
failings as a Government, failed policies that contributed to 
the disaster, and a failed response that exacerbated it. Then 
there was the pride and the pluck in the spirit of the people 
of New Orleans in how you responded to this. And actually there 
is a friend out there, Brad Cousins, who was my aide in the 
DA's office for many years and he had gone to college at Tulane 
and then he was going to law school and he could have gone to 
any law school across the country. And after Katrina hit he 
wanted to go to Tulane and he came back here as a member of the 
first class that got together after Katrina. And that's the 
kind of pride and pluck that I'm talking about and he was a 
Minnesota.
    Finally, I think we all felt a deep obligation to help, to 
do our part to make sure that we restore this vital region. As 
the other Senators have noted, we spent last night and today 
looking at the devastation, seeing some of the good that has 
been done, but also seeing the work that needs to be done and I 
can tell you Minnesota has a connection to New Orleans. As you 
know, the mighty Mississippi starts in Minnesota. You can 
actually walk across it. Lake Itasca is something all kids in 
Minnesota--it's obligatory, you go up and say you walked across 
the Mississippi River. But more than that, we have a connection 
in that our commerce comes down this river and the entire 
country has really counted on the Mississippi and its Gulf 
Outlet as a vital channel of commerce.
    I see us as stakeholders in a strong and thriving Port of 
New Orleans and coastal region. Just for one example, the 
farmers in our State ship hundreds of millions of bushels of 
crops on barges to Louisiana Gulf ports and ultimately to the 
world beyond. Without thriving coastal wetlands and a vibrant 
chain of barrier islands, Louisiana's systems of port, which 
handles more tonnage than any other port in the country, would 
be left unprotected and in the path of future storms.
    Secondly, as stakeholders we have a collective 
responsibility to make sure that the money spent to restore the 
ecosystem and to rebuild and protect the communities is wisely 
spent. This means to me a number of things. It means a 
coherent, integrated plan for this entire region, not a 
piecemeal collection of assorted projects so that we can get 
our best return on our investment.
    My background is as a prosecutor. I remember when we tried 
to do things regionally and statewide with our criminal justice 
system. We wanted to get one set complaint that we would use 
and I still remember a local police chief from a small 
jurisdiction saying: I can't do that. I just bought new file 
cabinets. They wouldn't fit. We have to go beyond that as we 
work together as a State and as a country to look at this 
integrated plan. It also means putting science before politics 
so that we are spending our money on projects that are 
ecologically and economically sound.
    And finally, it means exercising real oversight in asking 
the tough questions so that we in Congress make sure that the 
taxpayers' hard-earned money is being spent well.
    I look forward to hearing today about the progress so far 
and the challenges ahead and I look forward to a bipartisan 
effort to find creative and lasting solutions. Thank you.
    Senator Boxer. Senator, thank you so much. And now we will 
hear from the Senator from Rhode Island, another Senator who 
waited for hours and hours in the snow yesterday in Washington. 
We are just so delighted he's here. Senator Whitehouse of Rhode 
Island.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madame Chairman. I had the 
chance to share in the Cardin tutorial, so it was not wasted 
time. As a lawyer who has practiced for many years, as a 
private lawyer and as a prosecutor, I want to let you know how 
pleased I am that the Supreme Court has let us use their room. 
It's a great thrill to sit here as a Justice would and I want 
to express our appreciation to Chief Justice Calogero and 
Justice Kimball, who are here, for their courtesy in having us 
use this great place.
    As a Senator from Rhode Island I share a very active 
concern about the effect of natural disasters, particularly 
hurricanes on our State. Many of you know that we are 
repeatedly struck with hurricanes. The most famous was the 
legendary hurricane in 1938, which was enormously destructive. 
And with the buildup that has happened since then if an event 
like that were to occur, it is not difficult for me to 
transplant the images that I saw this morning, looking out the 
window of those Blackhawk helicopters, to my home State, so I 
think I can speak for all of us when I say you have our full 
attention. And it's been inspiring to see the signs of 
determination and resiliency as Louisiana and New Orleans have 
sprung back. Certainly that energetic spirit was on energetic 
display last night in the French Quarter as we passed through. 
But there clearly is also a lot of work to be done. And as I 
see the places that have not yet recovered and transplant those 
images to my home State, to Rhode Island, it becomes very, very 
clear to me why in our Democratic caucus, when we have the 
chance to sit together as Democrats and talk with each other, 
why Senator Landrieu is so relentless and so passionate and so 
persistent on this subject.
    I mean, from the news coverage you know it's real, but when 
you come down here, you see it even more clearly. So I look 
forward to these hearings and I thank you, Madame Chair.
    Senator Boxer.  Thank you, so much. And now it's a great 
honor to call on the Senior Senator from Louisiana, Senator 
Landrieu, whose been a driving force along with Senator Vitter 
in focusing our attention on what has happened here. Senator, 
welcome. And we hope when you finish, you will take your little 
name plate and come on and join me right here.

           OPENING STATEMENT OF HON. MARY LANDRIEU, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Landrieu. Thank you, Madame Chair. Let me begin by 
reiterating how grateful we are that you chose Louisiana for 
your first field hearing. For the New Orleans region, for all 
of south Louisiana, and for our future, that choice is one that 
we will always be grateful for. The fact that six of your 
members showed up for this committee is also very significant 
and that three members who have only been in the Senate less 
than two and a half months chose this as one of their first 
trips when you were asked to go hundreds of places. Senator 
Vitter and I cannot tell you how grateful we are that you said 
yes and that you waited for 6 hours snowbound and still made 
the trip is even more commendable.
    I want to thank the Court for allowing us to continue to 
use this space, which is quite dignified, for the subjects that 
we discuss here, which is life and death and the future of this 
region and the contributions that this region has made over 
many, many decades and centuries to the growth and development 
of the greatest nation on earth. So we appreciate the dignity 
of this room and the fact that Justices Calogero and Kimball 
continue to give us their space. I hope it's not impeding on 
their workload, but they seem to be handling it very well and 
we appreciate that. Very briefly, Madame Chair, I hope that we 
can cover three very important pieces today and develop a 
stronger Congressional record on three major points: One, to 
more fully grasp the cost and scope of the disaster that 
occurred here and the challenges that still remain in 
coordinating the levee system and coastal restoration system 
and internal pumping system that has to work together, 
coordinated and integrated for this region and for south 
Louisiana to remain safe and secure. It is very difficult for 
people outside, even for us that have lived here our whole 
life, to understand the interworkings of the levee system, the 
wetland system and pumping system to keep this area dry and to 
keep it safe. But as we flew on the helicopter this morning and 
we looked out and shared some thoughts, I said: It's hard to 
find a beach anywhere around here because we aren't on a beach. 
We are not on the Gulf. We were founded and protected by miles 
and miles of wetland with a great levee system that we have 
simply failed to sustain and keep up, and as a result, billions 
of dollars of damage have occurred.
    In your opening statement, Senator, I don't have to 
convince you of this because your opening statement reflected 
your significant grasp of this situation. That's why I'm so 
thrilled in your leadership for this committee and coming from 
Sacramento, a major capital city of a major State, you 
understand the challenges that also may occur to your own City 
of Sacramento.
    Secondly, the importance of the passage of the WRDA bill it 
is crucial. Louisiana has 20 percent of all the projects in 
that bill. I would like to say because our delegation is strong 
and we are determined, but it's also because we have most of 
the water in the country. Since it's a water bill. We have a 
lot of water projects. It's been stuck for 7 years. We have to 
unstuck it--unstick it, move it forward and get the WRDA bill 
passed from the Morganza to the Gulf, which is a new 
authorization, that's been struggling for 20 years for its full 
authorization and a Golden Meadow levee system and others that 
need to move forward. We are very appreciative.
    Thirdly, the Congressional record should reflect after this 
hearing the tremendous strides that the State of Louisiana has 
made. Sometimes it's overlooked that this State has already 
passed a Constitutional amendment to dedicate the new monies 
that we will receive from the great 37 1/2 percent share of 
offshore oil and gas revenues that will be dedicated, as 
Senator Klobuchar said, not to piecemeal, but to a long range 
project. The consolidation of our levee boards has occurred. 
The framing of the LCA, Louisiana Coastal Authority, has been 
framed. New appointments have been made and our team is ready 
to go, to work with you to build a system that will never fail 
the people of this city and region or the people of this 
country again.
    And, finally these landfill issues are extremely important, 
but to put this in perspective, we generate about 350,000 tons 
of waste a year. Katrina left us with 22 million tons to deal 
with. 350,000 on a regular year. 22 million tons of debris. 
Larger than anything the country has ever experienced. So 
obviously there are challenges. We want to work with the 
neighborhoods, work with the communities, and with this 
committee's leadership, I'm sure we'll find the solution.
    Thank you, Madame Chair. And I will join you at the dais.
    Senator Boxer. Thank you, Senator, so much and we would ask 
now that the Panel 1 come up here, which is John Paul Woodley, 
Assistant Secretary of the Army, Major General Don T. Riley, 
Director of Civil Works, U.S. Army Corps of Engineers, and 
Richard Greene, Regional Administrator, Region 6, U.S. 
Environmental Protection Agency.
    Gentlemen, thank you so much and thank you for arranging 
this very important helicopter tour that we took this morning. 
Every minute that we've been together, whether it was on the 
ground last night, looking at the latest addition to safety, 
which is that incredible series of pumps and the gate. It's the 
17th Street bridge, is that where we were? Canal, yes. You have 
been just very, very helpful.
    So, General, are you all going to make opening statements? 
How are we going to work this?
    Mr. Woodley. No, Senator. I will make one statement on 
behalf of the Army.
    Senator Boxer. Thank you. Go ahead, sir.

STATEMENT OF JOHN PAUL WOODLEY, ASSISTANT SECRETARY OF THE ARMY 
                         (CIVIL WORKS)

    Mr. Woodley. I'm John Paul Woodley and I'm the Assistant 
Secretary of the Army for Civil Works and I'm accompanied here 
by Major General Don Riley, Director of Civil Works of the Army 
Corps of Engineers. We have submitted a joint detailed written 
statement to the committee and so I will be very brief. I want 
to say, Senator, that the Corps of Engineers is very important 
for the City of New Orleans and has been for many generations. 
The reason for that is very simple. The reason is that New 
Orleans is very important to the Nation. I'm very proud of the 
work that the Corps of Engineers has undertaken to date both in 
response to the catastrophe and in rebuilding the protected 
works. But I'm also mindful of the many challenges that lie 
ahead.
    This hearing is very important and I want to express our 
profound gratitude to you and to all the Senators who have 
attended to draw attention to this issue and to move forward in 
working together. There is no place for rancor. There is no 
place for demagoguery. There is only room here for 
understanding and analyzing our issues, the difficulties that 
we face, and arriving together at strategies to meet them. So 
thank you very much for the opportunity to present testimony 
today.
    Senator Boxer. Okay. I will start off with questions, and 
then I will turn to Senator Vitter, and we are going to try to 
keep the questions--I thought you were going to speak for 
everybody?
    Mr. Woodley. Well, only for the Army. The EPA----
    Senator Boxer. Mr. Greene.
    Mr. Greene. Mr. Woodley is represented by a very 
distinguished representative.
    Senator Boxer.  That's okay. I was confused. This is our 
EPA, how could I forget?
    [The prepared statement of Mr. Woodley follows:]

         Statement of John Paul Woodley, Assistant Sectretary 
                       of the Army (Civil Works)

                              INTRODUCTION

    Madam Chair and other members of the committee, I am John Paul 
Woodley, Jr., Assistant Secretary of the Army (Civil Works). Attending 
this hearing with me is Major General Don Riley, Director, Civil Works, 
for the U.S. Army Corps of Engineers. Thank you for the opportunity to 
be here today to discuss the hurricane response operations and the 
ongoing reconstruction and restoration efforts by the U.S. Army Corps 
of Engineers in the New Orleans area. As you know, the New Orleans 
Hurricane Protection System was extensively damaged during Hurricane 
Katrina. The Corps has completed repairs on 225 miles of the system. 
However, due to the significant changes in the coastal environment, and 
geological, and other changes that have occurred over many decades, the 
system does not provide the level of risk reduction envisioned when it 
was first authorized. We are working actively to address this concern 
and are also pursuing ways to improve upon the existing Hurricane 
Protection System.
    My testimony will focus on the Hurricane Protection System 
Restoration, Ecosystem Restoration, and the debris removal mission.
             hurricane protection system restoration status
    The Hurricane Protection System for the greater New Orleans 
metropolitan area consists of a series of levees, floodwalls, gates, 
armoring and pump stations.
    Design and construction activities are focusing on building the 
system to the level of risk reduction envisioned when it was first 
authorized, while implementing further improvements where appropriate. 
The designs themselves are being accomplished through a combination of 
contracts with private industry and the Corps of Engineers. All designs 
are then vetted through the independent technical review process. 
Furthermore, we will continue to assess and improve designs throughout 
the construction process.
    Generally, the Corps is working to reduce the risk of flood damage 
in the greater New Orleans metropolitan area from a storm with a one 
percent chance of occurring in any one year, which is known 
colloquially as a 100-year storm. To determine the impact of such a 
storm, we assembled a group of national and international experts to 
advance modeling techniques to determine both surge and wave heights by 
storm frequency for the area within the existing Hurricane Protection 
System. This is a progressive advancement encouraged by the American 
Society of Civil Engineers (ASCE) and the National Research Council. We 
are using this information in designing levees and floodwalls to reduce 
the risk of flood damage from such a storm.
    The FY 2008 Budget, released earlier this month, recommends, as 
part of an FY 2007 Supplemental appropriations package, enactment of a 
statutory provision to authorize the Secretary of the Army to 
reallocate up to $1.3 billion of the emergency supplemental 
appropriations that were provided in FY 2006, but that remain 
unobligated. The proposed reallocation will enable the Corps to apply 
this funding to those measures that will best improve the near-term, 
overall level of risk reduction in the greater New Orleans metropolitan 
area. It will enable the Corps to complete higher priority work sooner, 
in concert with similar work in other areas.
    The estimate of the cost of the work necessary to accomplish our 
work is expected to increase as a result of various engineering 
forensic investigations and assessments, a review of new storm surge 
data from the Interagency Performance Evaluation Task Force Risk and 
Consequence study currently underway, increased material costs, and 
other factors. Updated, actionable re-estimates will not be available 
until this summer.
    While the Corps is moving forward with design and with refining 
cost-estimates for future work, we continue to make progress on ongoing 
work. The Corps has recently awarded contracts to furnish 11 additional 
pumps at the 17th Street Canal and eight additional pumps at London 
Avenue and to construct the pump platforms and install the pumps. The 
addition of these pumps will increase capacity at 17th Street to 
approximately 7,600 cubic feet per second (cfs) and increase capacity 
at London Avenue to approximately 5,000 cfs. These reflect increased 
capabilities based upon the Interagency Performance Evaluation Task 
force (IPET) modeling for the city's 10-year design storm. This 
increased pumping capacity will be in place by August, 2007. While the 
work at the outfall canals is not yet complete, by June 1, 2007, we 
will have increased pumping capacity at 17th Street from 4,060 cfs to 
5,200 cfs. Pumping capacities at Orleans Avenue and London Avenue 
Canals will remain at 2,200 cfs and 2,800 cfs, respectively, on June 1, 
2007.
    Additionally, the Corps has completed upgrading the manually 
operated gates to mechanical operation. The mechanically operated gates 
provide storm surge protection at the outfall canals when a major storm 
is approaching. The temporary pumps in the outfall canals will provide 
interior drainage capability comparable to conditions that existed 
during major storms prior to Hurricane Katrina. We continue to prepare 
for the expected spring rains and the next hurricane season.

                          RESTORATION EFFORTS

    We are engaged on several fronts with respect to ecosystem 
restoration in coastal Louisiana. These activities are now conducted 
under various authorities. A key challenge that we face is finding a 
way to integrate all of these activities. If our strategy for restoring 
the ecosystem is to be successful, we will also need to ensure that our 
efforts to improve the level of risk reduction from future hurricanes 
in Louisiana are compatible with the long-term needs of the ecosystem.

                     MISSISSIPPI RIVER GULF OUTLET

    Since Hurricane Katrina, the Corps of Engineers has been involved 
in a number of simultaneous efforts located on or near the Mississippi 
River Gulf Outlet (MRGO). These efforts include emergency levee 
repairs, ecosystem restoration projects, and development of a proposed 
plan for de-authorizing deep draft navigation. Using some of the funds 
that the Congress appropriated in Public Law 109-234 (the fourth 
emergency supplemental appropriations act of 2006), we have been 
working on options to restore and protect critical coastal wetlands 
along MRGO, as well as ways to design structures for saltwater 
intrusion and storm surge prevention. Work is now underway to protect 
critical wetlands buffering some of the levee systems in the MRGO area. 
This work will help maintain important natural wave buffers and 
ecological habitats in the Lake Borgne estuary located east of New 
Orleans and in St. Bernard Parish. Residents of the area depend on 
these wetlands for storm damage reduction, recreation and commercial 
fishing activities. Our work also includes preparing a proposed plan 
for de-authorizing deep draft navigation on the MRGO. In December we 
submitted an Interim Report to Congress, which explored the future of 
navigation and addressed storm damage reduction and wetlands 
restoration in the channel area.

                         ECOSYSTEM RESTORATION

    The fourth emergency supplemental appropriations act of 2006 
provided $20.2 million to reduce the risk of storm damage to the 
greater New Orleans metropolitan area by restoring the surrounding 
wetlands through measures to begin to reverse wetland losses in areas 
affected by navigation, oil and gas, and other channels and through 
modification of the Caernarvon Freshwater Diversion structure or its 
operations.
    The landbridge in Barataria Basin is subsiding and eroding at an 
alarming rate. This land loss threatens not only fish and wildlife 
habitat but also oil and gas infrastructure and numerous communities, 
including Barataria, Lafitte, and the west bank of Orleans and 
Jefferson Parishes. Without the landbridge, the basin would be 
subjected to greater intrusion from the Gulf of Mexico, including 
hurricane storm surge. To restore the fragile marsh, Federal and State 
agencies partnering under the Coastal Wetlands Planning Protection and 
Restoration Act of 1990 (CWPPRA) developed a series of complementary 
projects, each rebuilding or protecting a different piece of the 
landbridge. When completed, these projects will rebuild and protect 
more than 5,000 acres of wetlands. We are also looking at other options 
for ecosystem restoration in the vicinity of the landbridge.
    The Corps is evaluating options for improving the performance of 
the Caernarvon Freshwater Diversion Project. The alternatives under 
consideration include modifications of its operation and/or 
combinations of channel restoration, increased sediment delivery, and 
marsh creation.

       COASTAL WETLANDS PLANNING, PROTECTION AND RESTORATION ACT

    The CWPPRA program was authorized in 1990. The CWPPRA program is 
available only for restoration work in the State of Louisiana. The 
Federal Government finances 85 percent of the program's costs through 
the Sport Fisheries and Boating Trust Fund, and the State covers the 
other 15 percent of the costs.
    CWPPRA provides targeted funds for planning and implementing cost-
effective projects that create, protect, restore and enhance wetlands 
in coastal Louisiana. There are 143 projects in the program which will 
create, protect, or restore over 120,000 acres of wetlands in coastal 
Louisiana. Project impacts range in size from nine acres to 36,121 
acres. The types of projects include freshwater and sediment diversion, 
outfall management, dredged material/marsh creation, shoreline 
protection, sediment and nutrient trapping, hydrologic restoration, 
marsh management, barrier island restoration, and vegetation planting. 
Currently, 70 projects have been completed, another 18 are under 
construction, and 55 are in some stage of planning or design. Under 
this Act, the principal Federal wetlands agencies and the State use a 
competitive process for allocating funds to potential wetlands 
restoration projects. They try to select the best individual projects 
on the merits, but lack an overall strategy to identify integrated 
groups of projects that could yield greater environmental benefits by 
acting in concert on a watershed basis.

              LOUISIANA COASTAL AREA ECOSYSTEM RESTORATION

    Given the magnitude of Louisiana's coastal land loss and the extent 
of the associated ecosystem degradation, it is apparent that a more 
systematic approach would be the best way to restore natural processes. 
Larger-scale projects to benefit the ecosystem are needed. The barrier 
islands and coastal marshes of Louisiana also provide a natural buffer 
against some storm surges, and are a critical element of any overall 
strategy for reducing the risk of storm damage to the urban centers of 
the coast.
    The Corps, in collaboration with the State of Louisiana, Federal 
and State agencies, and other stakeholders, has developed a Louisiana 
Coastal Area (LCA) Plan. This plan builds upon progress made under 
CWPPRA and is intended to guide the next phase of the restoration 
effort. The LCA plan is a near-term, 10-year plan of studies, projects, 
and program elements, with a total cost of $1.9 billion. We are 
currently undertaking investigations and plans to implement some of the 
proposed restoration features, and are working to address some of the 
key scientific uncertainties and engineering challenges associated with 
coastal restoration.
    However, we believe that the Congress should not authorize the LCA 
plan through a conventional authorization. To reduce taxpayer costs and 
make better use of the available funds for restoring coastal Louisiana 
wetlands, the Administration has urged the Congress instead to enact a 
broad authorization covering all studies, construction, and science 
work that would support the wetlands restoration effort, including the 
measures now undertaken under CWPPRA, without regard to the specific 
projects and funding allocations envisioned in the LCA plan.
    The kind of authorization that we have recommended will ensure that 
the coastal Louisiana restoration effort will be able to adapt and 
evolve as needed based on the best available science. Also, the Corps 
selected and formulated the projects proposed in its 10-year plan 
principally to address ecological benefits. While the program should 
retain its current ecological focus, it needs to establish priorities 
based on a full array of the potential benefits. This will require 
identifying opportunities where changes to the size, design objectives, 
or location of wetlands projects would advance ecosystem as well as 
storm damage reduction objectives.

                   COASTAL PROTECTION AND RESTORATION

    The Corps began its Louisiana Coastal Protection and Restoration 
(LACPR) study in 2005. We are considering a full range of flood and 
storm damage reduction and coastal restoration measures, including 
those that could reduce the risk of damage from a ``Category 5'' storm. 
Potential measures are being developed based on extensive stakeholder 
involvement efforts with the State, resource agencies, Nongovernmental 
Organizations, academia, and the public. These measures will be 
integrated into alternatives, with the objective of developing an 
overall plan to improve the existing coastal restoration and protection 
system. We are using a risk-based approach to evaluate alternatives for 
risk reduction to people, property and coastal landscape stabilization 
and performance for design levels ranging from the stage-frequencies 
that could be expected during a 100-year storm to those that might 
occur during a much more severe storm. Our analysis will focus more 
extensively on uncertainty and will include consideration of relative 
sea level rise, redevelopment rates, and storm intensity and frequency. 
A preliminary draft report was submitted to Congress in July 2006.
    As you can see, we have a wide range of programs and studies 
underway to reduce the risk of flood and storm damage, protect and 
rebuild the coastal wetlands, or both. As we go forward, particularly 
with the LACPR study, we will need to keep in mind the importance of 
integrating these dual, complementary objectives in a way that will 
promote a long-term, sustainable vision for the coast.

                             DEBRIS REMOVAL

    Hurricanes Katrina and Rita created catastrophic devastation 
throughout the Gulf region. In the State of Louisiana, some 60 million 
cubic yards of debris were strewn throughout 21 parishes covering 
almost 15,000 square miles. In order to maintain compliance at Federal, 
State, and local levels for debris management, the Corps coordinated 
extensively with Federal, State and local agencies, for debris removal 
planning and execution.

                     WASTE SEGREGATION AND DISPOSAL

    From the outset of the response, the corps applied rigorous 
protocols for segregation, collection, processing, staging, recycling, 
and disposal of hurricane generated waste to sustain compliance with 
environmental laws and regulations. Specific waste streams, which 
require special handling, included municipal solid waste, vegetative 
debris, construction and demolition debris, small motorized equipment, 
asbestos containing materials, electronic waste, household hazardous 
waste, white goods and tires.
    Robust quality control and quality assurance programs were followed 
throughout operations to assure the appropriate disposition of waste. 
The Corps employed quality assurance personnel to monitor segregation, 
collection and disposal of hurricane debris. Contracts for debris 
removal required execution of quality control plans to assure the 
application of waste disposal protocols. The Federal Emergency 
Management Agency (FEMA) and the State of Louisiana employed monitors 
to augment the Corps' quality assurance practices. The Environmental 
Protection Agency (EPA) and the Occupational Safety and Health 
Administration (OSHA) provided field oversight to address public health 
and worker protection needs respectively. Additionally, we brought our 
own team of auditors to assist in monitoring the work.
    Special care was exercised to ensure the proper handling and 
disposal of Resource Conservation and Recovery Act (RCRA) Subtitle C 
hazardous waste and household hazardous waste that is often commingled 
with debris. The EPA established and managed the operation of a 
hazardous waste processing center in eastern New Orleans for handling 
and disposal of hazardous waste until November 2006, when the operation 
of the site was turned over to the Corps. Approximately 5 million units 
of household hazardous waste have been processed through the site since 
the commencement of operations.

                               LANDFILLS

    To date, 48 landfills have been used for disposal of hurricane 
Katrina generated waste and 21 have been used for hurricane Rita 
generated waste. Presently, there are nine active landfills. The 
permitting of landfills for receipt of hurricane generated debris falls 
under the jurisdiction of the Louisiana Department of Environmental 
Quality. The Corps does not engage in a direct contractual relationship 
with permitted landfills, but reimburses our prime contractors for 
tipping fees charged for waste disposal. Contractors have the 
discretion to direct hurricane waste to any of the properly permitted 
landfills to optimize the efficiency of their debris removal 
operations. The New Orleans area was served by four landfill 
facilities; Chef Menteur, Gentilly, Riverbirch, and the Highway 90 
construction and demolition (C&D) landfills. Chef Menteur was an 
Enhanced Type III landfill that was permitted to accept C&D and non-
regulated, asbestos containing material (ACM). The Chef Menteur 
landfill was opened from April 13 to August 15, 2006. Riverbirch is a 
Type I & II landfill that is National Emissions Standards for Hazardous 
Air Pollutions (NESHAP) compliant and can accept regulated ACM (RACM), 
as well as other types of residential debris. Highway 90 is a Type III 
landfill that can accept C&D and non-regulated ACM. Gentilly is a Type 
III landfill that can accept residential C&D and non-regulated ACM. The 
Gentilly landfill is best situated to accept the hurricane debris from 
the city of New Orleans, excluding RACM, due to its proximity to the 
waste stream.

                           GENTILLY LANDFILL

    The Old Gentilly Landfill (Gentilly Landfill) is located in an 
industrial corridor in eastern New Orleans. The facility is owned by 
the City of New Orleans and operated by Amid Metro Partnership, LLC. 
Commencing in the 1960's, the Gentilly Landfill operated as a municipal 
landfill for solid waste generated in and around the City of New 
Orleans. The facility stopped accepting waste around 1986. The City 
applied for a permit in June of 2002, to reopen as a Type III Landfill 
to be constructed over the closed, municipal landfill. The Louisiana 
Department of Environmental Quality (LDEQ) issued a Standard Solid 
Waste Type III Permit on December 28, 2004. In response to Hurricane 
Katrina, LDEQ issued a Declaration of Emergency and Administrative 
Order dated August 30, 2005, and subsequent amendments, which 
authorized the disposal of uncontaminated construction and demolition 
debris at permitted Type III landfills. On September 29, 2005, LDEQ 
issued a Commencement Order to the City authorizing the disposal of 
hurricane debris at the Gentilly Landfill.
    Corps contractors started using the facility on October 2, 2005, 
initially receiving an average daily quantity of 20,000 to 25,000 cubic 
yards (CY) of C&D material during the first month. The operation 
quickly ramped up to a daily average of 40,000 to 50,000 CY over the 
next two months. On October 31, 2005, the Louisiana Environmental 
Action Network (LEAN) filed a Petition for Judicial Review of the 
Commencement Order citing concerns related to environmental 
sustainability and structural stability of the landfill which is in 
close proximity of the MRGO hurricane protection levee. LDEQ and LEAN 
entered into a Consent Judgment on March 16, 2006, which resulted in 
establishment of a daily limit of 19,000 CY pending issuance by LDEQ of 
a decisional document addressing concerns raised by LEAN. FEMA 
subsequently directed the Corps to limit daily quantities to 10,000 CY 
at the end of February and further curtailed the daily quantities to 
5,000 CY in March 2006. LDEQ issued their decisional document on August 
28, 2006, which substantially addressed issues raised by LEAN. FEMA 
responded by relaxing the daily quantity limits. At present, the limit 
has been set at 15,000 CY per day.
    This concludes my testimony. Madam Chair, again, thank you for 
allowing me to testify on the ongoing efforts of the Corps of Engineers 
in the New Orleans area. I will be happy to answer any questions you or 
the other Members may have.

                                 ______
                                 
      Responses by John Paul Woodley to Additional Questions from 
                             Senator Cardin

    Question 1. Certainly we will need a stronger inner line of 
defenses around population centers, but I am concerned that the Corps 
is focused too narrowly on physical structures and not enough on 
nature's speed bumps: - wetlands and coastal barrier islands. What 
assurances can you give the Committee, and more importantly to the 
people of Louisiana, that you have the right balance in your plans for 
a sustainable future for the Gulf Coast?
    Response. The Interagency Performance Evaluation Task Force (IPET) 
risk assessment for New Orleans included a new and technically robust 
process to estimate the future hurricane threat to New Orleans and the 
Gulf Coast. Scientists from the Corps, FEMA, NOAA, academia and 
industry, developed this process. It was determined early on that using 
historical data would not accurately project the future hurricane 
environment that the Gulf faces.
    The new method, the Joint Probability Method--Optimal Sampling, 
uses a range of potential hurricanes that range from relatively common 
events to very rare events to represent the future hazard. The storms 
are of a variety of intensities and sizes and follow a variety of 
tracks. They incorporate the latest knowledge of climate dynamics, 
including cycles of more intense and more frequent storms. The process 
also incorporates the latest information on hurricane behavior and the 
relationships between hurricane characteristics and surge generation 
potential. The hurricanes drive the most advanced surge and wave models 
to generate knowledge of the surge and wave conditions that might occur 
for any location around the region. The hazard is, as such, not the 
storms, but the probability of experiencing levels of surge and waves 
by location. This is much more sophisticated and relevant information 
for assessing the potential performance of hurricane protection 
measures and to understand how to increase protection and reduce risk.
    Sea level rises can be incorporated into this approach with regard 
to the total water levels that the protection structures face. Just as 
the normal tidal cycles are factored into the water surface elevations, 
so can long-term sea level rises. The sea level rise projections are 
based on the best knowledge to date and can be adjusted as methods and 
information improve. Sea level rise and subsidence have both been 
factored into the 100-year structure designs to help ensure that they 
will be effective for the future, not just at the time of construction.

    Question 2. I am from Maryland and am familiar with the 
difficulties of large-scale ecosystem protection in a heavily populated 
region. Restoring the Chesapeake Bay has been a difficult undertaking, 
as I know that Secretary Woodley understands from his time in Virginia. 
But two of the strengths of the Chesapeake Bay restoration effort have 
been its reliance on good science and its willingness to integrate 
multiple objectives in a coherent fashion. Secretary Woodley, is the 
Corps relying on the entire scientific community in developing its 
plans, and, if so, can you describe that collaboration?
    Response. Yes, the Corps is relying on the collaboration of an 
extremely large and diverse group of scientists. For example, the 
report prepared by the Interagency Performance Evaluation Task Force 
(IPET) is the result of an intense performance evaluation of the New 
Orleans and Southeast Louisiana Hurricane Protection System during 
Hurricane Katrina. The IPET is a distinguished group of Government, 
academic, and private sector scientists and engineers who dedicated 
themselves to this task from shortly after Katrina struck through the 
publication of this report. The IPET was created by the Chief of 
Engineers, U.S. Army Corps of Engineers, and the group's work was peer 
reviewed on a weekly basis by a distinguished external review panel of 
the American Society of Civil Engineers and independently reviewed by 
the National Research Council Committee on New Orleans Regional 
Hurricane Protection Projects. The IPET applied some of the most 
sophisticated capabilities available in civil engineering to understand 
what happened during
    Katrina and why. Their purpose was not just new knowledge, but 
application of that knowledge to the repair and reconstitution of 
protection in New Orleans as well as improvement to engineering 
practice and policies. The results of much of the IPET work are largely 
already in the ground, having been transferred and applied prior to the 
formal completion of this report.

                                 ______
                                 
      Responses by John Paul Woodley to Additional Questions from 
                           Senator Whitehouse

    Question 1. You testified that you are in the process of rebuilding 
at least parts of New Orleans's levee system to a hundred-year storm 
level. To what degree have you included the possible rise in sea level 
attributable to global warming in your projections of a hundred-year 
storm event? How has global warming been factored into the hundred-
year-event calculation?
    Response. Sea level rises can be incorporated into the Joint 
Probability Method that the Corps is using to model potential future 
hazards, with regard to the total water levels that the protection 
structures face. Just as the normal tidal cycles are factored into the 
water surface elevations, so can long-term sea level rises. The sea 
level rise projections are based on the best knowledge to date and can 
be adjusted as methods and information improve. All Federal levees in 
the New Orleans area are being designed for 100-year protection and 
incorporate factors related to subsidence and sea rises. Project 
designs often include changes such as performing several lifts in order 
to maintain the authorized degree of protection. In fact, construction 
of the lifts occurs at intervals throughout the project life.

    Question 2. Ordinarily, for major public works projects, a 
``critical path'' document is prepared that lays out priorities and the 
scope of work. You indicated to me during the hearing that this 
material exists, but that all stakeholders in the rebuilding effort 
have not yet signed onto the plan. Please provide a copy (or, if 
publicly available, please identify the location) of the critical path 
document and specify your efforts in soliciting support from affected 
parties.
    Response. The Hurricane Storm Damage Reduction System (HSDRS) is 
comprised of over 250 projects (or system components) ranging from 
storm-proofing pump houses to levee armoring to floodgate construction. 
Because of the number of components, diversity in engineering 
solutions, and vast scope of work required to complete the system 
protection, there is not one critical path document. However, each 
project does have a critical path method (CPM) schedule. We are 
currently reviewing these schedules to ensure they can be executed to 
produce the 100-year protection system authorized by the U.S. Congress. 
This involves reviewing interactions among schedules and ensuring 
sufficient construction resources are available at the scheduled time.

STATEMENT OF RICHARD GREENE, REGIONAL ADMINISTRATOR, REGION VI, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Greene. Good morning, Madame Chair and members of the 
committee. I'm Richard Greene, Regional Administrator for the 
Environmental Protective Agency. I appreciate the opportunity 
to share a brief summary of my more thorough opening comments 
that we have filed with you that deals with EPA's response to 
Hurricanes Katrina and Rita.
    While our mission under the National Response Plan is to 
deal with environmental impacts and remove threats to human 
health and safety in the storm-damaged communities, I cannot 
begin to tell you how much our hearts have gone out to the 
people who have suffered and continue to suffer as a result of 
these disasters. We are profoundly moved by the loss of life 
and the realization that thousands of countless lives of people 
have changed forever. At the same time we are reminded on a 
daily basis of the incomparable human spirit on display here 
and throughout the Gulf area.
    When the people of EPA first arrived in New Orleans our 
priority became that of helping to rescue approximately 800 
men, women and children from rooftops, out of attics and trees 
and wherever else they were stranded. After that, we got on 
with our mission and at the peak of our activities the number 
of EPA employees and contractors assisting with our response 
efforts exceeded 1,400 in Louisiana alone.
    In reviewing what we have done it is difficult for even 
some of us to relate to the magnitude of our work. The 
resuscitation of the numbers and of things we have done and the 
network of local, State and Federal partners is detailed in my 
written statement so I won't repeat them here. Needless to say, 
they exceed anything this agency has ever done before. Our 
successes include the following: The collection and recycling 
of major appliances and electronic goods, the collection and 
disposal of 5 million containers of hazardous waste, the 
restoration of drinking water and wastewater systems, the 
collection and analysis of thousands of floodwater sediments 
and soil samples, the cleanup of schools and other public 
facilities, the cleanup of major oil spills, assistance to the 
State in developing safe solid waste management and disposal 
practices, including unprecedented monitoring of landfill 
operations, the assessment of all Superfund sites to insure 
that the remedies remain secure and protective, the 
distribution of millions of public information fliers, 
brochures and advisories throughout the area, the development 
of an extensive website so that people can understand the 
conditions in their own neighborhoods. And this is but a 
partialness of the things that we have done and are doing.
    We continued today first to support the demolition and 
proper disposal of debris from what may turn out to be as many 
as 50,000 structures, most of them homes in this part of the 
State. And we are fully engaged as well with recovery projects 
in coastal Louisiana, in the restoration of drinking water and 
wastewater treatment systems, in facilitating the redevelopment 
of neighborhoods through our Brown Fields programs, in support 
of the Louisiana Recovery Authority, and in efforts to stop 
illegal dumping and much more.
    In closing I would like to read a short excerpt from a 
memorandum I sent only 4 months after Katrina hit to a member 
of the Inspector General's team who was evaluating our work 
here. And I'm quoting: ``It should be emphasized that EPA is 
responding to the largest national disaster in history. There 
is no precedent for what we are doing and our actions are 
charting the course for response to disasters of this type 
should they occur again. Any standard review of our actions is 
not possible, because there is no standard for what we are 
doing. The employees of EPA and our contractors have conducted 
themselves in an exemplary manner, working around the clock in 
heretofore unimaginable conditions that often have placed them 
at risk for their own safety for the sole purposes of bringing 
help and assistance to people in need.''
    Thank you again for the opportunity to participate today. I 
look forward to whatever questions you may have.
    [The prepared statement of Mr. Greene follows:]

 Statement of Richard Greene, Regional Administrator, Region VI, U.S. 
                    Environmental Protection Agency

                              INTRODUCTION

    Good morning, Madam Chairman and members of the Committee. My name 
is Richard Greene. I serve as the Regional Administrator at the U.S. 
Environmental Protection Agency (EPA), Region 6, in Dallas, Texas. I 
appreciate the opportunity to provide you with an update on EPA's 
response to Hurricanes Katrina and Rita.
    T he magnitude of the damage from these hurricanes presented 
significant challenges for EPA and our partners at the Federal, State, 
and local levels. EPA has long-standing and positive relationships with 
the Federal Emergency Management Agency (FEMA), the U.S. Army Corps of 
Engineers (USACE), the U.S. Coast Guard and other Federal agencies, as 
well as our partners in State and local governments. As with other 
Federal agencies, our involvement is facilitated through the National 
Response Plan (NRP). We believe that these relationships provided the 
basis for an effective response to the most destructive natural 
disaster in the history of the United States.

                  EARLY RESPONSE FOR HURRICANE KATRINA

    Beginning on August 25, 2005, EPA sent emergency response managers 
to the FEMA National Response Coordination Center and State Emergency 
Operations Centers to prepare for Hurricane Katrina to make landfall. 
When EPA arrived in New Orleans, it was clear that saving lives was the 
first priority. EPA responded to FEMA's request for assistance and 
helped rescue approximately 800 evacuees. EPA sent additional response 
personnel to the affected areas as soon as travel into the region was 
possible. At the peak of activities, the number of EPA employees and 
contractors assisting with recovery efforts exceeded 1,400 in 
Louisiana. We joined responders in addressing urgent rescue needs by 
putting over sixty environmental monitoring watercrafts to work as 
search and rescue vessels. Our field employees and contractors, mostly 
environmental experts equipped to address oil and hazardous substances 
releases, joined fire fighters, police, and other first responders and 
rescued nearly 800 people in Louisiana.

                      EPA ROLE IN FEDERAL RESPONSE

    Under the NRP, EPA is the Coordinator and Primary Agency for the 
Emergency Support Function (ESF) #10, which addresses oil and hazardous 
materials. Specifically, our primary activities under this support 
function include: efforts to detect, identify, contain, clean up or 
dispose of oil or hazardous materials; removal of drums and other bulk 
containers; collection of hazardous materials from households; 
monitoring of debris disposal; air and water quality monitoring and 
sampling; and protection of natural resources.
    USACE is the lead Federal agency for the ESF #3, which addresses 
public works and engineering, including solid waste debris removal. EPA 
helped support the USACE by assisting in the location of disposal 
sites, providing safety guidance for areas affected by hazardous
    materials, assisting in the management of contaminated debris, and 
by coordinating or providing assessments, data, expertise, technical 
assistance, and monitoring. As prescribed by the NRP, EPA also provides 
support to other agencies for a number of other Emergency Support 
functions.

                          HAZARDOUS MATERIALS

    EPA's primary responsibility was the collection and proper handling 
of hazardous materials. EPA provided technical advice and assistance, 
facilitated the recycling of more than 940,000 electronic goods. EPA 
carried out a highly effective program, in conjunction with the USACE, 
the States, and the local communities to collect and properly dispose 
of over five million containers of household hazardous materials in 
Regions 4 and 6. We also assisted in the proper handling and recycling 
of more than 380,000 large appliances. As part of this effort, EPA 
assisted the USACE by separating hazardous materials from non-hazardous 
debris for proper disposal.

                       DEMOLITION AND SOLID WASTE

    FEMA is the primary agency for assistance under the Stafford Act 
Public Assistance Program which provides supplemental Federal disaster 
grant assistance for debris removal and disposal. The USACE offers 
state and local governments support in contracting for these services 
and for demolition services after local authorities have obtained any 
required waivers and clearances. To assist the FEMA and the USACE, EPA 
provided training for local parishes in Louisiana and contractors on 
Federal asbestos clean-up requirements. EPA also assisted by monitoring 
activities at over 2,300 demolition sites to help the State ensure 
compliance with the regulations.
    Under Federal law, the permitting and regulation of solid waste is 
primarily a State responsibility. EPA has promulgated criteria to 
assist States in defining safe solid waste management and disposal 
practices. During the response, EPA worked closely with Louisiana to 
develop ``best practices'' and protocols for solid waste landfills to 
screen out hazardous materials, and route them to appropriately 
designed and permitted hazardous waste landfills for proper disposal. 
To assist the Louisiana Department of Environmental Quality (LDEQ), EPA 
provided observers to monitor solid waste landfills around New Orleans 
to ensure that disposal practices conformed to the established 
protocols. EPA also established temporary air monitoring locations to 
replace the State's damaged air monitoring network.

            SAMPLING AND MONITORING ANALYSES AND ACTIVITIES

    In addition to our efforts related to the disposal and/or recycling 
of hazardous and solid wastes, EPA used a remote sensing aircraft, 
known as ASPECT, to locate chemical spills that needed emergency 
response to protect water quality, and air quality. Additionally, EPA's 
mobile laboratory, known as the Trace Atmospheric Gas Analyzer (TAGA), 
conducted real-time air sampling in neighborhoods and near known 
spills. EPA also conducted more than 400,000 laboratory analyses of 
water, floodwater, sediment, and air samples. The analyses were made 
available on the Internet along with an interpretation of the results 
and recommendations.
    To help ensure that drinking water and wastewater systems were 
properly functioning, EPA assessed over 4000 water systems; provided 
technical and engineering assistance in evaluating damaged 
infrastructure for both drinking and wastewater systems; distributed 
testing kits to private well owners and helped them evaluate the 
condition of their drinking water wells; and reviewed over 100 
restoration projects proposed by parish governments. To further help
    communities, EPA assisted in emergency efforts to bring clean 
drinking water back to the affected areas through monitoring of about 
3,500 potable water trucks.
    To address floodwaters and sediment, EPA assisted in collecting and 
evaluating more than 400 floodwater samples; 1,600 sediment samples; 
and almost 700 soil samples which were sent to the Agency for Toxic 
Substances and Disease Registry (ATSDR) for analysis. The plans for 
sampling flood water and sediments underwent an extensive peer review 
process, including a review by EPA's Science Advisory Board (SAB). The 
SAB agreed that the sampling could help determine the potential for 
acute effects from short-term exposure to flood water and sediment. 
Sampling data were provided to ATSDR and to State and local health 
officials who used them to make decisions and issue advisories to the 
public, response workers and other Federal and State agencies.

                   OIL SPILLS AND HAZARDOUS RELEASES

    With respect to oil spills and hazardous releases, EPA responded to 
70 emergency situations that presented an immediate threat to human 
health and the environment, including chemical spills, fires, and other 
situations. EPA, and the LDEQ, with assistance by the U.S. Coast Guard, 
conducted assessments at hundreds of chemical and petrochemical 
facilities and more than 900 public and private schools to determine 
damage by the hurricane. As a result of these assessments, EPA 
identified six major spills in the New Orleans area resulting in 
releases of over seven million gallons of oil. The largest inland spill 
occurred at Murphy Oil in St. Bernard Parish, where a 10.5 million-
gallon storage tank had moved off its platform and spilled about one 
million gallons of oil that affected over a 3 to 5 square mile area. 
Murphy Oil is now conducting a clean up of the area with EPA and LDEQ 
providing oversight. Over 2,700 houses and businesses have been cleaned 
of oil on the exterior and more than 1,200 houses have had oil cleaned 
from the interior.
    To further track potential hazardous releases, EPA, working 
together with state health and environmental agencies, conducted 
assessments of the seventeen Superfund sites located in Louisiana that 
were potentially affected by Hurricanes Katrina and Rita to ensure that 
the remedies remained protective.

              ENVIRONMENTAL JUSTICE AND COMMUNITY OUTREACH

    To address the unique needs of New Orleans, EPA reached out to 
assist diverse communities devastated by the impacts of the hurricanes. 
EPA met with the United Houma Nation and local community groups; 
facilitated meetings between State officials and members of the 
Vietnamese Community near the Chef Menteur landfill; created an 
Environmental Justice Interagency Taskforce (EJIT) to bring together 
local, State, and Federal agencies, universities, and community groups, 
to exchange information and to address community concerns; and 
identified full-time staff to address community concerns.
    EPA also convened the National Environmental Justice Advisory 
Council (NEJAC) to provide recommendations on how EPA can better 
respond to environmental justice concerns related to natural disasters. 
EPA is implementing several recommendations of the EJIT and NEJAC, such 
as adding to the Liaison Officer position in the Incident Command 
structure the responsibility to identify, highlight, and address 
environmental justice issues and concerns.
    Throughout the response, EPA shared information and sampling 
results with the community through press releases, radio public service 
announcements, handouts and flyers, and electronically on EPA's web 
site. EPA also attended community meetings, visited churches and 
employers, dropped off flyers at post offices, municipal buildings, and 
local retailers - and stood at check points delivering information to returning residents. In total, EPA distributed over 3.8 million flyers to people living and working in Louisiana.

                          COOPERATIVE PROJECTS

    EPA is assisting the State of Louisiana through the Coastal 
Wetlands Planning, Protection, and Restoration Act (CWPPRA) program, 
EPA has a long history of successful coastal restoration projects, 
including barrier island restoration in coastal Louisiana. Barrier 
islands are the first line of defense against hurricane storm surge. 
The $13 million Timbalier Island restoration project was completed in 
June 2005 and provided over 273 acres of vegetated dune and marsh, 
which withstood the Katrina and Rita storm surges. The $10 million New 
Cut Dune and Marsh Project to rebuild another barrier island is 
underway.

                               CONCLUSION

    As the State of Louisiana moves forward in the aftermath of 
Hurricane Katrina, EPA will continue to assist the State by conducting 
air monitoring, collecting hazardous materials from households, 
observing landfill and demolition activities, overseeing the Murphy Oil 
cleanup; and assisting with drinking water and wastewater issues. EPA 
will continue to work with our Federal, State, and local government 
partners to address the nation's preparedness for future catastrophic 
events, such as Hurricane Katrina.
    At this time, I welcome any questions you may have.

    Senator Boxer. And now, I understand General Riley to not 
have a statement, but you are there to answer questions, so I 
will proceed with the questions. We will keep them to 5 minutes 
of questions and we won't be able to do a second round.
    Mr. Woodley, you testified that the corps is currently 
studying the closure of the MRGO to deep draft navigation. 
understand that was the task given to you by the Congress. MRGO 
has seen a steady decline in tonnage and traffic. Both Senators 
have spoken with all of us at length about this. The 
overwhelming sentiment of the experts is that MRGO should be 
closed completely. So my question is: Do you support the 
closure and rehabilitation of MRGO and should language to 
permanently close MRGO and rehabilitate the area be included in 
WRDA?
    Mr. Woodley. Yes, Senator, the detailed study that would 
support that decision-making process is underway. The 
preliminary indication that we have, however, is that the 
Mississippi River Gulf Outlet is no longer economical.
    Senator Boxer. Okay.
    Mr. Woodley. I would say that although ordinarily our 
recommendations would await the determination of the final 
report, I can advise you of our preliminary indications which 
are a matter of record.
    Senator Boxer. Thank you for you succinct answer to this. 
Would it help you to have this language that the Congress would 
pass to permanently close MRGO and rehabilitate the area, and 
get some language in this year's WRDA bill; would it be 
helpful?
    Mr. Woodley. I would say that my impression is that that 
would be justified language.
    Senator Boxer. Well, we will work with you on the language.
    Mr. Woodley. Precisely what the details of the 
recommendation of how exactly we should go about it, should 
await the final study.
    Senator Boxer. When will the final study be ready?
    Mr. Woodley. We will be prepared to present that in 
December.
    Senator Boxer. We will talk to you about some interim 
language.
    Mr. Woodley, the administration wants to reprogram $1.3 
billion in appropriated funds from critical hurricane flood 
protection projects in Louisiana to other hurricane and flood 
protection projects in Louisiana. And what we are a little 
concerned about is, or at least I am, will the administration 
commit that if the reprogramming occurs that the full amounts 
to complete the project? From which the funds are taken will be 
restored when the cash flow is needed to those projects?
    Mr. Woodley. Yes, Madam Chairman, that is entirely our 
intention. Our difficulty is that we are not able today to 
provide the committee with a detailed cost estimate of the 
additional work that will have to be done. I intend to be 
prepared to do so, however, this summer.
    Senator Boxer. The important thing for me, and I know the 
Senators here and all the Senators, is if funds are taken from 
one project for a cash flow purpose, we want to make sure that 
you are committed and the administration is committed to 
getting those funds back for those programs when they are ready 
for the funds. We don't want half-built projects.
    Mr. Woodley. I will say, Madam Chair, that the 
reprogramming is entirely within the work that we have 
undertaken to provide hundred-year protection for the--
protection against what we will term a hundred-year storm for 
the metropolitan area of New Orleans, and so, while that has 
historically been regarded as a collection of different 
projects, my intent is to manage those projects as a single 
project. So I would not characterize it as reprogramming from a 
project in Louisiana to another project in Louisiana. This is 
in my view a reprogramming within the project we have 
undertaken to protect metropolitan New Orleans against the 
threat of catastrophic inundation.
    Senator Boxer.  I'm just making a point that there will be 
reprogramming away from certain projects. That's a fact of 
life. And I just want to make sure that when those programs--
when those projects are ready for the funding, we don't have to 
go back and have these two Senators have to go beg for more 
funding. I'm assuming that you are agreeing with us that at the 
end of the day the funding will be there even though you are 
refunding?
    Mr. Woodley. That is right.
    Senator Boxer.  Okay. That's fine. My last question, 
because my time is running out, is to Mr. Greene. What is EPA 
doing to address the big problem of illegal dumping? How have 
you responded to the State's request for help to fight this 
program--this problem?
    Mr. Greene. We are very concerned about illegal dumping. It 
is a threat to the community and we are working closely with 
State and local officials to assist them in monitoring and law 
enforcement efforts to bring that under control.
    Senator Boxer. So you are working with the State, and you 
feel you are doing everything you can do here?
    Mr. Greene. We have our criminal investigation division 
working with local law enforcement authorities. We are 
providing monitoring cameras, visual inspections from the 
ground, and other forms of assistance.
    Senator Boxer. Okay. Thank you. Senator Vitter.
    Senator Vitter. Thank you, Madame Chair. Secretary Woodley, 
thank you for being here and thank you for all of the Corps' 
continuing work. I want to go back to a few of the issues the 
Chair has touched upon. One is closing MRGO. First of all, very 
recently you all issued a new work program with regard to the 
$75 million we have already provided for restoration, and that 
was largely out of discussions I had with folks in the Corps to 
use that money to much more aggressively and quickly move to 
closure. And I want to publicly thank you for that new plan, 
because I think it's a vast improvement and is moving toward 
closure a lot more aggressively.
    Now, as you can guess, I want to keep pushing very 
aggressively in that direction. If the Congress changed the 
requested date of your study from December to June of this 
year, could and would the Corps redouble its efforts to 
finalize the recommendations which you gave us a preview of so 
we can get on with it?
    Mr. Woodley. Senator, I can certainly say that we would do 
everything possible to do that. And that I would have to ask 
the persons involved in the study as to whether any part of it 
was--things simply take a certain period of time in order to 
accomplish.
    An example of that would be sometimes we have to give 30 
days' notice of a public hearing. You can't give 30 days' 
notice in 10 days. And so that type of thing may be a problem, 
but I think----
    Senator Vitter. I would ask you to start those discussions 
in the Corps, because I'm going to be promoting that.
    Mr. Woodley. Yes, sir.
    Senator Vitter. I think your testimony sort of confirms 
that we all know where we are headed. So my attitude is we 
might as well get there before the next big event instead of 
after. I know you share that sense of urgency.
    Mr. Woodley. Yes, sir.
    Senator Vitter. I also want to touch on this $1.3 billion 
moving-funds-around issue. I have obviously made my views known 
on all that. I have a real hesitation with robbing Peter to pay 
Paul. The Chair said, and was very persistent in asking you, 
will we have funds at the end of the day for those other 
projects.
    Madame Chair, my concern is how long that day is, and 
because it could be a reasonable period of time or it could 
stretch these projects out into the future unreasonably. What I 
have proposed is getting an additional $1.3 billion at least 
this budget in order to fund those vital west bank projects 
without robbing from the east bank projects. What is the--apart 
from the OMB sort of number crunchers who don't want any dollar 
figures to go up, what is the possible objection to that if at 
the same time you are giving additional language that gives you 
flexibility to move money around within the region to do 
whatever work is tee'd up to be done?
    Mr. Woodley. My only objection would be that if that is an 
action that would take place in the course of the normal budget 
cycle, and under which an appropriation act would not be passed 
until later in the year, it will delay our issuance of 
contracts. Our request is for an immediate emergency action to 
prevent our having to delay issuance of contracts that are 
ready to proceed.
    Senator Vitter. But this proposal that was made by the 
administration to move the money is in the context of the new 
proposed budget, so that's on the same timeline I'm talking 
about.
    Mr. Woodley. I did not think so, Senator. It was presented 
at the same time but it was presented in a different context, 
which would allow the Appropriation Committees to act on it 
more swiftly, and that is our request to them.
    Senator Vitter. Could not the appropriation committees do 
what I'm talking about along the same timeline?
    Mr. Woodley. Absolutely. They certainly could, Senator.
    Senator Vitter. Thank you. I want to also underscore the 
importance of pumping capacity at the outfall of canals. That's 
a continuing concern that we all have, I know you share it, 
that it's very important.
    And now, quickly, just a few questions, Mr. Greene, because 
I'm very concerned about this landfill issue. As I understand 
the EPA's position, you have largely deferred on these landfill 
issues to the Louisiana DEQ; is that correct?
    Mr. Greene. Thank you, Senator. We are very much aware of 
the concern in the community and our responsibility to ensure 
safe and proper operation of the State-authorized landfills. 
You and Senator Landrieu have both discussed that with me 
personally, so I know of your long concern, your ongoing 
concern. And we are doing everything that we can within our 
jurisdiction to maintain very close supervision of these 
operations; in fact, supervision like this has never been done 
before anywhere.
    Senator Vitter. Well, as I understand your main attitude, 
you have largely deferred the decisions to the State level 
because C&D-type debris, which is what we are talking about, is 
generally regulated there. My concern is that the State, in 
fact, is using an expanded definition of C&D, not a normal 
definition under emergency orders, and that contains things 
like asbestos-containing material. So, in fact, aren't you 
perhaps deferring or passing the buck inappropriately, since we 
are not talking about traditional C&D, we are talking about 
other stuff including asbestos-containing materials?
    Mr. Greene. Senator, a very close supervision of the 
separation of hazardous materials at the site of the pickup and 
its origin is the best way to ensure that does not go to the 
wrong kind of landfill. And then the close supervision of what 
is deposited in the landfill is further a check and balance 
including the instruction to remove any improper items from 
that landfill.
    Senator Vitter. But it is acknowledged by everyone, 
including the Louisiana DEQ, that asbestos-containing material, 
other similar material outside the normal scope of C&D is going 
to that landfill, correct?
    Mr. Greene. Well, to the extent that it is allowed to go to 
that landfill because it was not regulated asbestos material 
and it was already lying on the ground and considered to be C&D 
waste. But even unregulated asbestos material is being handled 
in an appropriate manner and taken to enhanced areas within the 
landfill, zones in the landfill that are designed to receive 
that kind of waste. Such maaterial, which has been hopefully 
wrapped and protected further, is then buried, which is what 
you would like to see happen to asbestos in a safe manner to 
keep it out of the atmosphere.
    Senator Vitter. We will get into this more in Panel 2, but 
I have a real concern in doing that in an unlined landfill when 
we could be bringing it to lined landfills for the same or less 
cost in the region.
    As you know, the old Gentilly site was an illegal dump that 
was closed down. The capping process hasn't been completed, 
berming process hasn't been completed, corners have been cut 
under emergency order of Louisiana DEQ. And I honestly think it 
is bad policy being promoted locally by politics and money and 
not considerations o the public good. So I would urge the U.S. 
EPA to renew and heighten its supervision.
    Mr. Greene. Thank you, Senator. We share your concerns. Our 
twice-a-week inspections and extensive reports that are written 
and review of the records in the operations will continue and 
we will work hard to insure that those operations are proper 
and protective of human health.
    Senator Boxer.  I want to just remind Senators, if they can 
possibly keep to the five minutes, if you can, and we will 
leave the record open, Senator, for a week so that you can get 
more detailed questions to all of our witnesses. I know I have 
some myself.
    Senator Landrieu.
    Senator Landrieu. Thank you. There are many important 
issues at this hearing and our time is short but I've got to 
get back to this $1.3 billion, General Riley, because not only 
is it a significant amount of money that we are depending on to 
continue to build projects on the east bank and west bank, and 
as I said, protect this entire region but I want to pursue 
this.
    You have testified, Secretary Woodley, that it's your 
intention find an additional $1.3 billion. But is it in your 
mind, on the minds of the administration, to request an 
additional $1.3 billion either through the supplemental, which 
we are considering now, or are we just going to borrow $1.3 
from one set of projects and then hope someday in the future 
the money will come.
    And, General Riley, what have you been told about an 
additional $1.3 billion in supplemental, if anything?
    Mr. Riley. Ma'am, what I have been told by the 
Administration and meetings in the White House is the president 
is committed to fully funding the 100-year-level protection 
through the normal budgeting process. What we have right now is 
four and a half billion dollars----
    Senator Landrieu. In the normal budgeting process or the 
supplemental?
    Mr. Riley. Through the budgeting process.
    Senator Landrieu. So not through the supplemental?
    Mr. Riley. The reappropriation request is through the 
supplemental. We have four and a half billion dollars that is 
unobligated so there is funding there now to proceed.
    Senator Boxer. This is for the record, the committee knows 
this well, but for the record. If this additional $1.3 is added 
to the supplemental then I will support it because it's 
emergency funding and it's not counted anything against in the 
budget. If it has to go through the regular budget process, we 
have to find $1.3 billion projects from somebody else, take it 
away from them and use it for ours. And in these days, those 
days are over with, so I want to go firmly on the record that 
we will fund this through the supplemental appropriations 
process, not through the regular process because otherwise we 
will never get the money. And I'm going to take the President 
at his word when he stood at Jackson Barracks and said he would 
fund it.
    And I would like to go on record now, Madame Chair, that we 
will fund it through the supplemental.
    No. 2, you mentioned in your testimony, General Riley, that 
you believe that we should move to a more independent way of 
funding over time this major project that we have underway, 
which could exceed $30 billion in scope. As the Chairman said, 
a combination of levees, wetlands, pumping systems, all 
integrated to support navigation, oil and gas protection, the 
running of the port that gets the goods from Minnesota and gets 
it out to the rest of the world. What exactly is the Corps 
proposing so that we can, for the first time in the history of 
this country, act this way and not give people false hope?
    Mr. Riley. Well, ma'am, of course, we haven't completed our 
proposal, but what we are looking for is not only to design it 
as a system but to build it as a system and operate it as a 
system. As you know with that large amount of funding over a 
long period of time, there is a lot of uncertainty out there. 
We have to have the flexibility with the State partners to 
adjust as we move along and if it's appropriated in pieces of 
projects then we don't have that flexibility. We would ask for 
not only to build it as a system but appropriate it as a 
system, and I defer to the Secretary for clarification of that.
    Senator Landrieu. Very quickly, do you have anything to 
add?
    Mr. Woodley. I will say this, Senator, that I believe you 
will find that when we are prepared to present this as an 
entire package that our request will actually exceed an 
additional $1.3 billion.
    Senator Landrieu. I can promise you it's going to be a lot 
more than $1.3 billion. This project over time is going to be 
north of $30 billion, which is why we had to secure a new and 
substantial revenue stream as well as making within this 
committee's jurisdiction a more expedited and coordinated 
process. I hope for the record that you all are working closely 
with the parishes on their internal pumping capacity, because 
as we flew over those canals this morning, obviously if you 
close canals to keep storm surge out but you don't have the 
pumping capacity adjusted correctly, all you are doing is going 
to flood Jefferson and Orleans and Plaquemines and St. Bernard 
from rainwater. And then finally, if EPA could--real quickly, 
why was the decision made that X amount of debris could be 
taken to a landfill that FEMA approved and then the Environment 
and Public Works approved a different amount? And who has 
jurisdiction over deciding in a catastrophe? Does EPA control 
or FEMA control?
    Mr. Greene. Senator, the landfill operations that we are 
talking about are all under the State jurisdiction and they are 
managed and operated by the State. And our role is oversight 
and review and support for what they are doing. And I think 
your question has to do with the various changes that have 
occurred and the amount of waste that has been allowed to go 
particularly to the Gentilly landfill. And that number has 
changed based on events. And there was even a legal action that 
resulted in a resolution of how much the limit should be and 
then the Corps got some instructions from FEMA about limiting 
their use, so those numbers have changed over time.
    Senator Landrieu. It's very important, Madame Chair, and I 
will take 30 seconds, for us in a catastrophe when we are 
dealing with this kind of waste to, first of all, clarify who's 
the final authority. Is it the local EPW, is it the Federal EPA 
or does FEMA get to regulate volumes based on what they choose 
to reimburse or not? And the record from what I have read is 
unclear and this committee could go a long way in helping us 
figure that out. Thank you.
    Senator Boxer. Thank you. Before I call on Senator Isakson, 
I want to make a point here, General Riley. I know you mean 
nothing but well here, but the fact is a typical level for a 
construction account for the entire country is $2 billion in a 
year. So if you think it's going to be easy in the regular 
appropriations now to increase a $2 billion authorization by 
$1.3 billion, it's just not in the realm of possible. So what 
you need to do is consider what these Senators are saying about 
restoring this in the emergency supplemental or people around 
here are going to be very skeptical. And that's the last thing 
that we need is to have skeptical people saying: Well, just go 
to regular appropriations process when, in fact, it would mean 
essentially almost doubling the amount and it's just very tough 
to do that. And I wish we could do that, but it just doesn't 
happen in a year when everyone says we have to reduce deficit.
    Senator Isakson. Thank you, Madame Chair. General Riley, 
first of all I want to commend you, after watching or seeing 
17th Street Canal project, the gates, lifts, pumps, all the 
construction, you have demonstrated great capacity in a 
relatively short period of time, I think in 13 months you told 
us last night. Secondly, there is someone who will testify 
later who begs the question and you are not going to be around 
to answer it so I thought I would ask it because it helps me to 
understand. Mr. Thomas Jackson in his printed testimony says 
the drainage canals throughout St. Bernard Parish are clogged 
with swamp grass that floated into homes and drainage canals by 
the hurricane. The grass is blocking the drainage canals and 
breaking rakes at pumping stations and continuous pleas from 
their executive director to you to clean that up have gone 
unanswered. Are you all getting those pleas and where does your 
responsibility begin and where does maintenance responsibility 
end?
    Mr. Riley. Yes. Certainly we listen to those pleas, and 
when we get them we work with FEMA. That type of work in a 
standard emergency would come under a mission from FEMA to us. 
As it affects the flooding capacity or flood fighting then we 
are directly under our authority, and we can act on that. We 
will work very closely with them to determine where the best 
authority lies and then to work with the problem.
    Senator Isakson. But in non-emergency times, when FEMA is 
not around, the Corps has certain responsibilities in terms of 
the levees and the canals. But so, too, does local authority. 
Is maintenance of things like debris pretty much a local 
responsibility?
    Mr. Riley. Yes, sir, that's correct. As we turn over any 
system to the local authority. So interior drainage canals, 
that's by the Sewerage and Water Board.
    Senator Isakson. It is a Federal-local partnership?
    Mr. Riley. Yes, sir.
    Senator Isakson. Mrs. Woodley, in the staff prepared 
remarks according to what we learned last night at the IMAX 
theater and all the education we got, it took 5,000 years for 
the Mississippi Delta to develop primarily from the overflow of 
the Mississippi River. And then when we began to restrict that 
by building the levees. Since that period of time we have lost 
1.2 million acres of land and we estimate might lose 500 square 
miles in the next 50 years. As we are reconstructing the levees 
and as we are putting in the pumping systems, what are we doing 
to accelerate the natural assets to reconstruct or renew those 
wetlands?
    Mr. Woodley. Senator, that is an effort that was ongoing in 
partnership with the State of Louisiana and in partnership also 
with many, many interested persons from around the country to 
find out the ways in which we can use the resource of the 
Mississippi River, the fresh water that it represents, the 
sediment and silt that it carries and begin to use that to 
fight against this loss of wetlands along the Louisiana coast. 
And s it is another matter, as Madam Chair knows, that is 
awaiting your decision under the Water Resource Development 
Act.
    Senator Isakson. How much time do I have left?
    Senator Boxer. You have a minute 24.
    Senator Isakson. Just real quickly, Mr. Greene. I 
understand at the Gentilly landfill there is not a leachate 
collector or lining system?
    Mr. Greene. Well, the Gentilly landfill operation currently 
is being conducted on top of the cap for the old landfill that 
was closed underneath it, so that cap provides the protective 
barrier for the new waste that's going in there.
    Senator Isakson. Is it impermeable or does it have 
collector system?
    Mr. Greene. It meets the minimum requirements and beyond of 
the C&D landfill base.
    Senator Isakson. I expect from flying over that area this 
morning, the water table is pretty high around that landfill; 
is that correct?
    Mr. Greene. Well, I don't know the height of the water 
table, Senator, but the monitoring wells and close supervision 
and the testing that has been done and continues to be done 
addresses all those kinds of questions.
    Senator Isakson. Thank you, sir. Thank you, Madame 
Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Cardin. Thank you, Madame Chair.
    I was listening on the exchange of the $1.3 billion and I 
serve on the budget committee in addition to the Environment 
and Public Works committee. I think it raises two concerns. I 
understand the Senator's concerns about the fact that $1.3 
billion was appropriated through supplemental emergency 
appropriations for the tragedies in this region. But when you 
reprogram it, it seems to me that you are also allowing 
emergency funds to be used for other purposes, which is not 
really what the budget act was all about. So I think it's not 
only an issue that may very well be of concern to where that 
money comes back to these projects, but whether, in fact, this 
is the right way in which to show offsets if this money is 
going to be used for other Corps' programs.
    Mr. Woodley. Senator, that should be very clear. The money 
is being used for other matters that were also funded in the 
supplemental but for which the funding in the supplemental was 
inadequate and which are now of a higher priority, that is to 
say because we can use the funds at this time.
    Senator Cardin. I understand that.
    Mr. Woodley. It's not a question--we have no question of 
changing the funding from a matter that was funded in the 
emergency supplemental to something that was not funded in the 
emergency supplemental. That is, we have no concept of doing 
such a thing as that.
    Senator Cardin. Well, I would caution that when you have 
offsets, a different standard is used in evaluating whether it 
truly is an emergency request or not. There have been a lot of 
issues included in the supplemental that have not been as 
strict as they should because it's not subject to offsets.
    I think the main point here is whether New Orleans is going 
to get the money it needs and I agree with my colleagues that 
it's going to be difficult, if not impossible, to get that 
through the normal appropriation process, and I think that's 
the major focus, but I would also say it could cause a problem 
as to proper budgeting. We will take a look at that.
    Let me get back to the point that Senator Isakson mentioned 
about the erosion of our wetlands and the natural buffers to 
the problems of flooding in this area, the speed bumps, so to 
speak. We were impressed by that as we flew over today. I just 
want to know whether we have a game plan here? I understand you 
are waiting for us to act, but is there a game plan? Are we 
trying to stop the erosion? Are we trying to increas the amount 
of wetlands? What is our objective here? We have an objective 
as far as the levees are concerned. We want to ge to hundred-
year flood protection. Do we have an objective as to what we 
are trying to achieve as far as the wetlands are concerned, 
General Riley?
    Mr. Riley. We do have objectives and we are not in all 
cases waiting on Congress. We have the Breaux Act in place and 
those are small scale demonstration projects which are proving 
very fruitful. We have the LCA study, Louisiana Coastal 
Authority, that is awaiting authorization. And we also--you 
have authorized and appropriated funds for the Coastal 
Louisiana Protection Study, which is more of an umbrella study 
to look at the integration of coastal wetland restoration as 
well as hurricane protection and flood damage. So that's our 
objective and the objective as far as it pertains to coastal 
wetland restoration is to immediately do what we can to stop 
the erosion and then to begin where we can, with the State and 
all the local partners, begin to restore some of those wetlands 
that have been lost. We have a pretty clear vision about where 
we want to head with that.
    Mr. Woodley. Senator--before we leave the topic, let me say 
that I fully take your point and understand your point and the 
other Senators' with respect to the mechanism that we use for 
funding, and I will say that the decision to seek another, seek 
this additional funding through another supplemental is a 
decision that would be made with the higher levels, with the 
executive branch in consultation with the leaders of the 
Congress as appropriate. I can only speak to the the 
methodology, whether supplemental--I certainly agree with the 
point that a supplemental offers many advantages. Whether it's 
some other mechanism, that is not my decision. I know what I 
will be advocating for, but that's another thing. I can testify 
to the Administration's commitment to seek the funding at the 
appropriate time to move forward on this vital work. We do not 
intend--in fact, the movement of funding is intended to 
accelerate the work, not intended to retard any other work, so 
that is----
    Senator Cardin. Madame Chairman, I know my time is expired. 
I know we need to move on. I just hope on the funding issues, I 
hope you can get more specifics as to objectives on the 
wetlands restoration. I think that's critically important that 
we have that.
    Senator Boxer. Thank you. I agree, Senator Cardin.
    Senator Klobuchar.
    Senator Klobuchar. You know, when I think back of what so 
many lived through and we saw the images on TV of the people 
stranded on the roofs and so many poor and I always thought of 
these as sort of a mirror on the leadership of this country and 
now how we proceed from here is going to be a mirror on the 
leadership of people up here as well as all of you and so, in 
your testimony, Secretary, when you talked about how the key 
challenge that we have here is to integrate all the activities 
into a coherent, comprehensive plan. And we talked about----
    Senator Landrieu talked to General Riley about the way this 
is funded and some of this is how Congress has behaved over the 
years. Some of this is because some of the local issues and 
people not getting together. But I heard the other day that the 
way the Corps makes its decisions on priorities is based on 
whether or not they enhance the value of the land. Is that 
correct?
    Mr. Woodley. In the past, in a flood control arena it's not 
so much to enhance the value of the land as the value of the 
property that would be damaged in the event of inundation 
balanced against the cost of the protection.
    Senator Klobuchar. So it's a cost benefit analysis? Does it 
consider the value of human life?
    Mr. Woodley. It does not. And let me say that the work we 
are undertaking for New Orleans is not being analyzed on a cost 
benefit basis.
    Senator Klobuchar. Do you think that should be done 
differently?
    Mr. Woodley. I believe that we are desperately in need of 
reform in the way that we justify flood damage reduction works 
across the country, yes, I do.
    Senator Klobuchar. The September 2006 GAO report found that 
the Corps is proceeding with over $7 billion of interim repairs 
and construction without a comprehensive strategy and 
implementation plan to insure that these various efforts are 
appropriately coordinated and integrated and talked about a 
piecemeal approach. And again, we talked about the fact that 
this is a number of factors, some in your control, some outside 
of your control. But could you tell me how you think we can fix 
this?
    Mr. Woodley. I believe that we have come a long way toward 
fixing that already, Senator. I think we have a plan now to 
reach the hundred-year protection level. Going beyond that, we 
have an authorized study to determine the feasibility of 
providing higher levels of protection. And so what we don't 
have is all of the information in place that would allow us to 
present this plan as a fully coordinated and fully informed 
plan to the Congress. But we have a timeline and a schedule to 
achieve that and I believe that that is on track and is 
imminent.
    Senator Klobuchar. What do you see as the mistakes in the 
past about how Congress has funded those things, both and you 
General Riley, and how we should change things?
    Mr. Riley. Ma'am, if I could take the first part of that. I 
think what we saw is how we, in the emergency supplemental 
right after the storm, appropriated certain pieces and certain 
projects. We now see that we should have asked for a system not 
only designed in the plan that approached through authorization 
and appropriation, so the $1.3 billion appropriation request is 
a first attempt to let us take a look at the system and raise 
the system up to a level of protection together across the 
board rather than the piecemeal approach.
    So where we are proceeding with the higher levels of 
protection past 100-year is a very comprehensive, systematic 
approach integrating all the structural and non-structural 
solutions. And we will present then a comprehensive plan for 
that.
    Senator Klobuchar. Anything, Secretary Woodley?
    Mr. Woodley. The history of the planning process within the 
Corps of Engineers has been that it has been very much project 
specific. It has been limited in geographical scope, and then 
in this area and in others the different pieces have proceeded 
at different rates in part because of the controversy 
surrounding certain parts of the system, but also because, in 
part because of the different abilities of local partners and 
local sponsors to provide their share of the funding. Very 
important process, very important principle of civil works in 
the Corps of Engineers is that, generally speaking, we will 
proceed in partnership with a local authority and on behalf--on 
a basis of cost share with the Federal paying 65 or perhaps 75 
percent, the local contributing 35 to 25 percent. And that is a 
very important principle. That was established in the 1986 
Water Resource Development Act, and it has reaped many benefits 
because of the way it integrates the local interest and the 
local needs into the national system. However, Senator, it has 
all the vices of its virtues.
    Senator Klobuchar. I see.
    Mr. Woodley. And our effort now must be to find out ways to 
reform that system while maintaining its virtues and mitigating 
its vices.
    Senator Klobuchar. We look forward to the second panel to 
hear about the way--the need to coordinate better the local 
with the Federal, so thank you.
    Senator Boxer. Senator Whitehouse.
    Senator Whitehouse. In a significant public works project, 
a dam or a bridge or power plant or something like that, there 
is ordinarily a critical path diagram that lays out the order 
of priorities and timing of the key elements of the project. 
Given all that's happened and how many different moving parts 
there are, is there such a thing for the hurricane recovery and 
where would I go to see it?
    Mr. Woodley. Yes, sir, we could give that to you.
    Senator Whitehouse. What does it look like? Give me a 
preview of coming attractions.
    Mr. Riley. Sir, if I could take that one. Of course, 
there's the staff right behind me working here, the Task Force 
Hope in the district. We have the rudimentary pieces of that 
over time because of all the pieces that come on that. The 
critical path really is the permanent pump stations at the lake 
right now. Those would take the longest duration. Not the most 
critical, because there is a temporary fix in place that 
doesn't quite yet have the pumping capacity yet. But that's the 
essential critical fact. The next thing closest to that would 
be gates at the inner harbor. As you flew over that today, you 
saw repair of the levees and the flood walls, but there are 
other flood walls that are lower than authorized. So the best 
way is to close the navigable gates at either end of the inner 
harbor. So those are the two things that would take the longest 
time.
    Senator Whitehouse. But there is a critical path analysis 
that all of the major players and stakeholders are aware of and 
have bought into at this stage?
    Mr. Riley. No. I can't guarantee that, Senator.
    Senator Whitehouse. Which part?
    Mr. Riley. We have work to do to partner with all of the 
stakeholders to make sure they are part of it.
    Senator Whitehouse. The bought into part is the part that's 
not accurate about my hypothesis?
    Mr. Riley. That's correct.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thanks, Senator. Thank you. Here is the 
thing. I think you have heard from all of us in our different 
approaches that we still all believe there is an emergency 
here. Now, if $1.3 billion worth of projects was an emergency 
to do, it's still an emergency to do. So for you to sit here 
and say go to the regular appropriations process for $1.3 
billion that you deem to be an emergency already says either it 
was an emergency, it was not when you declared it so, which we 
know it was, we all know that, or you are just shrinking back 
for some reason that may deal with taking on OMV or whatever it 
is. We would hope and urge and request that you let us know, 
honest to God, what you need because otherwise, we are not 
going to be successful.
    So I think the message from all of us here is, please, tell 
us what you need to get this job done. Don't sugarcoat it. 
Shake off any bureaucracy because we are still in an emergency. 
When we fly over this city and we see the things that we saw 
and narrated by your two Senators here with emotion and feeling 
as only they could bring to it, we believe there is still an 
emergency here. So that's really our message to all of you and 
we will follow up with questions.
    We thank you very much. We are going to move to Panel 2. We 
are going to then go to 3-minute rounds of questions because we 
are, in fact, running a little bit late. It's surprising that 
Senators have a hard time keeping it to just a few minutes, but 
that's a fact.
    So we call on Panel 2. Mike McDaniel, Secretary of the 
Louisiana Department of Environmental Quality, Father Vien 
Nguyen of Mary Queen of Vietnam Church and Wilma Subra for the 
Subra Company. And we will hold our questions to 3 minutes and 
we welcome you and will hold your statements to 5 minutes.
    Welcome. And unless you have come up with a another plan, I 
was planning to start with Mr. McDaniel, is that all right, and 
move our way down the panel.
    Mr. McDaniel, please proceed and the clock is over there. 
We will inform you when your 5 minutes are up.

STATEMENT OF MIKE McDANIEL, SECRETARY, LOUISIANA DEPARTMENT OF 
                     ENVIRONMENTAL QUALITY

    Mr. McDaniel. Thank you, Madame Chair. I'm Mike McDaniel, 
secretary of the Louisiana Department of Environmental Quality. 
My testimony today is going to be necessarily condensed, 
however we have provided the committee with additional written 
testimony and supplementary exhibits, which will be helpful to 
those interested in learning more about LDEQ's activities in 
response to the hurricanes as well as lessons learned from our 
experience.
    The LDEQ's responsibility under the Louisiana Emergency 
Operations Plan are limited primarily to what we call ESF10, 
which is oil spill, hazardous materials and radiation. However, 
as detailed in my written testimony, the department responded 
to a broad range of needs immediately following the storms, 
including search and rescue, reconnaissance damage and 
environmental threats assessment, environmental sampling and 
assessment, hazardous and radioactive materials management and, 
of course, debris management.
    Hurricanes Katrina and Rita left in their wake over 62 
million cubic yards of debris. In addition to vegetative debris 
and demolished structures, there were around 150,000 flood-
damaged homes, around 350,000 abandoned vehicles, and about 
60,000 abandoned vessels to be dealt with.
    In accordance with National Emergency Response Plans the 
U.S. Army Corps of Engineers has been assigned primary 
responsibility for the management of debris from the 
hurricanes. Although the LDEQ has no directly-assigned 
responsibilities for debris management under this plan, we do 
have statutory responsibilities for the regulation of solid 
waste and protection of the environment.
    From the onset we have worked with the corps providing 
technical and regulatory assistance from their debris mission 
activities. Perhaps our most important roles have included 
working in conjunction with local Governments to identify and 
approve sites for debris management and to approve or provide 
oversight to see that the debris is handled and disposed of in 
an expeditious and environmentally sound manner.
    It is important to note that LDEQ does not direct waste to 
any disposal facility. With the exception of the slow pace of 
demolition of flood-damaged structures, the cleanup and 
disposition of hurricane debris has gone reasonably well. The 
debris cleanup and disposal in the Rita-impacted portions of 
the State are essentially complete. Cleanup and disposal in the 
Katrina-impacted areas is about 80 percent complete with the 
remaining debris associated primarily with the demolition and 
disposal of flood-damaged structures. At least 30,000 homes in 
both St. Bernard and Orleans Parishes have been identified for 
demolition and disposal. This number could potentially 
increase.
    The pace of the demolition is tied primarily to 
authorizations provided by locals Governments. Although not 
within its defined missions in the State plan, LDEQ volunteered 
to manage the contract for recovery, remediation and recycling 
of vehicles and boats. There have been some challenging issues, 
but we presently expect these efforts to be complete in August 
of this year.
    Although the debris mission has gone reasonably well it has 
not been without some challenges for LDEQ. Perhaps generating 
the most attention were the department's approval of the 
Gentilly and Chef Menteur sites for landfill disposal of 
hurricane-generated construction and demolition debris. The 
LDEQ's decision to approve these facilities was based on a 
thorough evaluation of the need for, suitability of and 
proximity of these facilities to the hardest hit areas. Both of 
these sites have previously gone through technical evaluation 
and permitting process prior to the hurricanes. The rationale 
for use of these facilities is detailed in the decisional 
records included in the written testimony we have provided.
    The concern about hazardous or prohibited materials being 
introduced into these sites have been addressed by an 
unprecedented program of oversight and inspection, which is 
also detailed in our written materials.
    Finally, I would like to briefly share with you some 
lessons learned. I will provide examples of what went well, 
what needs to be improved and conclude with recommendations for 
you to consider in preparation for the next disaster.
    Unified command center instant management team 
collaboration and coordination worked exceedingly well for 
those local, State and Federal agencies dealing with the 
environmental issues following the storms. I think it could be 
a good national model. It was an efficient and effective means 
to address issues overlapping multiple jurisdictions. 
Additionally, I don't think we could have asked for better 
working relationships than those we enjoyed with EPA Region 6 
and the members of the Corps of Engineers debris management 
team.
    On the other hand the relationship with FEMA was mixed. At 
times they were responsive and helpful, however, for the most 
part they were slow to act and inconsistent in their decisions. 
Most frustrating to us was their intrusion into the debris 
management arena, ignoring the findings of DEQ and EPA, 
independently commissioning outside contractors for studies and 
redirecting waste disposal by imposing funding restriction. 
This confusion responsibility needs to be addressed at the 
Federal level.
    There were a number of issues concerning regulatory 
flexibility during emergency response and recovery.
    Senator Boxer. Sorry, sir. I'm going to have to ask you to 
complete that thought. Complete that thought and then move on.
    Mr. McDaniel. May I complete with a request?
    Senator Boxer. Yes, please.
    Mr. McDaniel. That is, after having gone through the 
experiences we have gone through here, the one thing I would 
ask that you consider is putting together some kind of Federal 
playbook that provides the guidance in waste management and 
regulatory flexibility and other matters so that the next poor 
souls that have to deal with this have a head start.
    Senator Boxer. Thank you very much, Mr. McDaniel.
    Reverend, welcome.
    [The prepared statement of Mr. McDaniel follows:]

    Statement of Mike McDaniel, Secretary, Louisiana Department of 
                         Environmental Quality

                            I. INTRODUCTION

    The Louisiana Department of Environmental Quality (LDEQ) appears 
before the United States Senate Environment and Public Works Committee 
to provide testimony regarding response actions taken in the aftermath 
of Hurricanes Katrina and Rita to protect public health, safety, and 
welfare, and the environment, with emphasis on hurricane debris 
management.
    The testimony below will briefly describe the devastation caused by 
these hurricanes; provide a summary of the response actions taken by 
the LDEQ working in coordination with its federal, state, and local 
government partners to protect the public health, safety, and welfare 
and the environment; provide an overview of LDEQ's responsibilities for 
tasks (with particular emphasis on the debris management mission); 
describe the collaborative process utilized by debris mission partners 
to authorize debris management sites; and provide a detailed 
explanation of the basis for LDEQ authorizations for two specific 
sites, the Gentilly and Chef Menteur Landfills, to receive hurricane 
related construction and demolition (C&D) debris.
    Based on lessons learned from the combined Katrina and Rita 
disasters, the LDEQ will also describe events and processes that worked 
well and those that did not and make recommendations for plans and 
actions that are needed to address future disasters in an 
environmentally sound and efficient manner. Finally, the LDEQ will 
explain its plans to address the hurricane related increased illegal 
dumping that continues to prevent proper solid waste disposal in the 
New Orleans metropolitan area as it struggles to recover from these two 
hurricanes, and request resources to address illegal dumping resulting 
from this disaster.

                             II. BACKGROUND

A. Hurricane Katrina
    On August 29, 2005, Hurricane Katrina struck the Louisiana gulf 
coast, causing widespread damage within 25 Louisiana parishes. 
Hurricane Katrina has proven itself to be the largest and most costly 
disaster to date in American history.
B. Hurricane Rita
    On September 23 and 24, 2005, Hurricane Rita struck Louisiana, 
causing widespread damage to an additional ten parishes in the 
southwest portion of the state, and in addition causing further damage 
within a number of the same parishes devastated by Hurricane Katrina, 
notably the City of New Orleans, and Jefferson, Plaquemines, St. 
Bernard, and St. Tammany Parishes.
C. Impacts
    The devastation caused on the Louisiana-Mississippi Gulf Coast by 
Hurricanes Katrina and Rita in August and September of 2005 cannot be 
adequately described in words. Statistics are useful but do not convey 
the experience of living through the violence of the storms and then, 
for survivors, the revelations of the aftermath. Many people's feelings 
mirrored the devastation of the natural and manmade environment around 
them--an environment ravaged by wind and water. More than 1,400 
Louisiana residents lost their lives due to Hurricane Katrina, its 
approach caused the first mandatory evacuation in New Orleans' history, 
and it caused $1.3 million persons to leave their homes in south 
Louisiana. More than 200,000 Louisiana residents are still displaced.
    While the damage done by the floodwaters was extensive, the weight 
of the water also caused damage. The two hurricanes poured 480 billion 
pounds of water into the city, resulting in about 80 percent of New 
Orleans being submerged for almost a month. The city's infrastructure, 
including hundreds of miles of underground utilities--electric, gas, 
water, drainage, cable, and phone lines--was damaged by the water's 
weight as, simply stated, portions of the city collapsed. Entire areas 
were pushed even further below sea level.
    Altogether, these storms combined to generate over 62 million cubic 
yards of debris, enough to fill the Louisiana Superdome more than 10 
times.
    To address the unprecedented level of disaster caused by Hurricanes 
Katrina and Rita, a coalition of federal, state and local agencies 
formed under the National Incident Management System's Incident Command 
structure to respond to the emergencies. The LDEQ participated in 
numerous operations in responding to the disasters. Although LDEQ has 
no directly assigned responsibilities for debris management under the 
state's Emergency Operating Plan, the LDEQ does have statutory 
responsibilities for the regulation of solid waste and protection of 
the environment. From the onset, the LDEQ has been engaged extensively 
with the United States Army Corps of Engineers (Corps) providing 
technical and regulatory assistance for their debris mission 
activities. Perhaps the LDEQ's most important roles have included the 
identification and approval of sites for handling and disposal of 
debris and to provide oversight to see that the debris is handled and 
disposed of in an environmentally safe manner.
    Although recovery continues for the New Orleans metropolitan area, 
as of January 19, 2007, the United States Department of Homeland 
Security, Federal Emergency Management Agency (FEMA) reported that it 
had spent more than $30 billion in federal funds on response and 
recovery activities related to Hurricanes Katrina and Rita.
D. Expectations
    For those members of Federal, State, and local Government called 
into action, the public's expectations of government was a primary 
consideration. With regard to the enormous amount of hurricane 
generated debris blocking roadways, downing power lines, and damaging 
buildings, preventing the return to normalcy, the public expected that 
the debris would be removed quickly and safely so that recovery could 
begin. Hurricane Katrina has led to the largest clean-up in U.S. 
history so far.
    Faced with such a situation, all levels of Government expect to 
work together within the incident command and emergency response 
structure to hammer out a coordinated plan of response that provides 
for the efficient removal and management of the hurricane generated 
debris and that is protective of human health, safety, and the 
environment.
E. Government Response to the Hurricanes
    Preceding landfall of Hurricanes Katrina and Rita, Louisiana 
Governor Kathleen Babineaux Blanco issued declarations of emergency on 
August 26 and September 20, 2005, respectively, due to the imminent 
threat of high winds, torrential rain, flooding, damage to private and 
public property, and risk to the safety and security of the citizens of 
Louisiana. In the aftermath of each hurricane, the Governor extended 
the state of emergency due to the extreme damage caused and the 
continuing disaster and emergency conditions in the affected areas.
    The Federal Government responded similarly, with presidential and 
FEMA declarations of emergency. On August 29, 2005, in response to 
Hurricane Katrina, FEMA issued a Disaster Declaration covering south 
Louisiana. On September 21, 2005, the President of the United States 
declared that an emergency existed in the State of Louisiana and 
authorized FEMA to mobilize and provide equipment and resources 
necessary to alleviate its impacts in response to Hurricane Rita.
F. LDEQ Emergency Response Activities
    Consistent with the National Response Plan and the National 
Incident Management System, Louisiana's Office of Homeland Security and 
Emergency Preparedness (now GOHSEP) has a detailed Emergency Operations 
Plan. In this plan, LDEQ's responsibilities are contained primarily in 
Environmental Support Function 10 (ESF-10)--Oil Spill, Hazardous 
Materials and Radiation. LDEQ plays a support role in oil spills, but 
provides personnel and resources in the oversight of spill mitigation. 
LDEQ plays a support role in hazardous materials management. The 
Louisiana State Police has primary responsibility in this function 
during the emergency phase; however, LDEQ is responsible for the 
collection, removal, waste classification, transportation, and disposal 
of the hazardous disaster debris and wastes. LDEQ has primary 
responsibility for managing radiation issues.
    LDEQ began assembling an Incident Management Team (IMT) at the LDEQ 
Headquarters, Galvez Building immediately following Katrina's landfall. 
A Unified Command Center (UCC) was established to house and support the 
IMT. In addition to LDEQ, the UCC contained representatives from the 
United States Environmental Protection Agency (EPA), Texas Commission 
on Environmental Quality, Corps, US Coast Guard, National Oceanic and 
Atmospheric Agency, US Geological Survey, Louisiana Oil Spill 
Coordinators Office, Louisiana Department of Health and Hospitals, and 
local governments.
    Although the LDEQ's responsibilities under Louisiana's Emergency 
Response Operations Plan are limited primarily to ESF-10--Oil Spill, 
Hazardous Materials and Radiation, the LDEQ responded to a broad range 
of needs immediately following the storms including:

     Search and rescue--Teaming with the Louisiana Sheriff's 
Association, LDEQ employees aided in the rescue of approximately 480 
people from the area impacted by Hurricane Katrina.
     Reconnaissance, damage and environmental threats assessment 
including: industrial sites, oil spills, wastewater treatment plants, 
rail cars, barges, radioactive materials locations, drinking water 
sources and intakes, underground storage tanks, ruptured pipelines, 
superfund sites, access routes, and photo documentation. Aerial 
reconnaissance was used to provide an initial evaluation of the status 
of industrial sites, water and wastewater treatment plants, rail cars, 
ships, barges, radioactive material locations, National Priority List 
(Superfund), and known hazardous materials sites. In addition to high 
resolution aerial photography and satellite imagery, also utilized were 
the EPA ASPECT aircraft, the Department of Energy's airborne radiation 
detectors and a helicopter mounted HAWK camera. Hazards such as oil 
spills and gas releases were photo documented and potential access 
routes were evaluated to assist first responders and for follow-up 
ground assessments.
     As facilities and sites became accessible, ground assessments 
were made of all potential sources and known releases of hazardous 
materials. Drinking water sources were evaluated for contamination and 
the operational status of water and wastewater treatment plants were 
determined. In many cases multiple visits to sites were made in order 
to ascertain that potential hazards had been secured. For example, 383 
visits were made to 258 radiation source licensees in order to verify 
that all of the radiation sources had been secured. To date, more than 
6,000 damage assessments have been made.
     Environmental Sampling and Assessment: with EPA and other 
partners, thousands of environmental samples were collected including 
floodwaters, Lake Pontchartrain and surrounding coastal areas, 
Mississippi River, sediment and soils, seafood, and air quality. Over a 
million individual analyses were performed and data and health risk 
assessments presented to the public on EPA and LDEQ websites.
     Hazardous Materials Management--With valuable assistance and 
resources provided by EPA, over 22.4 million of pounds of hazardous 
materials were collected and removed from waste streams for proper 
treatment and disposal. Over a million white goods such as 
refrigerators, 956,000 electronic goods, and 250,000 small engines were 
collected and sent to be recycled. Over 4 million orphan containers--
many containing hazardous materials- were collected and processed for 
recycling or disposal. Over 110 school laboratories were cleared of 
hazardous materials.
     Debris Management--The LDEQ has no assigned role in ESF-3, Public 
Works and Engineering, which addresses storm debris management. 
However, it does have statutory responsibilities for the regulation of 
solid waste and protection of the environment and has been engaged 
extensively with the Corps, the Federal agency providing assistance to 
the state in storm debris cleanup and disposal. LDEQ's principal role 
in the Corps' debris mission has been to identify suitable sites for 
handling and disposal of storm debris and to provide technical 
assistance with debris management issues. Surveillance and enforcement 
activities related to storm debris management fall under LDEQ's 
statutory responsibilities. In addition, the LDEQ is playing a major 
role in the removal and disposition of 350,000 flooded and abandoned 
vehicles and more than 60,000 abandoned vessels.

    The LDEQ also provided assistance in other assigned areas such as 
ESF-11, Agriculture, in the disposal of animal carcasses, and ESF13, 
Public Safety and Security, by providing security for its own first 
responders during search and rescue activities. The LDEQ also 
incorporated the management and disposal of unwanted ammunition, 
firearms, and explosives as part of the ESF-10 debris mission; these 
were not handled by law enforcement.
G. Environmental Sampling and Reporting of Results
    It is important to recognize that the basic premise of both the 
National Response Plan and the National Incident Management System is 
that incidents are generally handled at the lowest jurisdictional level 
possible. However, when both local and state resources and capabilities 
are overwhelmed, states may request federal assistance. Given the 
circumstances following Hurricanes Katrina and Rita, LDEQ requested 
assistance from the EPA to help with several tasks related to 
management and disposition of hazardous materials and with 
environmental sampling and assessment.
            1. Soil/sediment
    Beginning in September 2005, LDEQ and the EPA along with other 
federal and state partners conducted a comprehensive investigation to 
characterize any potential environmental effects to the parishes that 
were flooded by up to 10 feet of water from Lake Pontchartrain and the 
Mississippi River Gulf Outlet (MRGO). Since early September 2005, the 
agencies have collected approximately 2000 sediment and soil samples in 
Jefferson, Orleans, Plaquemines, and St. Bernard Parishes in four 
discrete phases. Most of these samples were analyzed for over 200 
metals and organic chemicals.
    As each phase of sampling was completed, the results were compared 
to conservative health-based screening levels for residential exposure 
developed by EPA and LDEQ. Summaries and general assessments of the 
data were developed by EPA and LDEQ with input from the Centers for 
Disease Control.
    (CDC), the Agency for Toxic Substances and Disease Registry 
(ATSDR), the Louisiana Department of Health and Hospitals (LDHH), and 
FEMA.
    The sample results indicate that the sediments left behind by the 
flooding from the hurricanes are not expected to cause any adverse 
health impacts to individuals, including children. A few localized 
areas were re-assessed due to elevated levels of arsenic, lead, 
benzo(a)pyrene, and diesel oil range organic petroleum chemicals. The 
results of these re-assessments indicated that: 1) the highest 
concentrations of arsenic were likely associated with herbicides used 
at or near golf courses; 2) benzo(a)pyrene was found in a 1 acre 
section of the Agriculture Street Landfill Superfund site and will be 
addressed as the Housing Authority of New Orleans finalizes plans for 
badly damaged town homes in the area: 3) diesel and oil range organic 
chemicals are diminishing over time and are now below residential 
levels; and 4) the elevated levels of lead detected in samples 
collected by EPA are not the result of the hurricane. The lead results 
by EPA are comparable to the historical concentrations of lead in New 
Orleans soil found in studies conducted by local university researchers 
before the hurricanes.
            2. Surface water
    LDEQ worked with EPA, the United States Geological Survey (USGS), 
the Louisiana Department of Agriculture and Forestry (LDAF), and the 
Lake Pontchartrain Basin Foundation to monitor the quality of flood and 
surface waters in the Hurricane Katrina impact area. From September 
2005 through March 2006, a total of 62,989 quality control and sample 
results have been produced, recorded and evaluated to date for 
Hurricane Katrina. This represents 497 sampling events from 64 sites 
sampled. Results for organic compounds and metals were mostly non-
detect.
    Of the over 40,000 results for organic compounds analyzed, only two 
exceeded non-drinking water human health criteria. Of the approximately 
1,984 analytical results for metals, only 3 exceeded chronic aquatic 
life standards. Most impacts observed were a result of the hurricane 
and not a result of the pump down of floodwaters into Lake 
Pontchartrain. The quantity of floodwaters pumped from the New Orleans 
area into Lake Pontchartrain was estimated to be less than 5.0 percent 
of the lake's volume. The analytical data clearly shows that Lake 
Pontchartrain water quality was largely unaffected by the pumping of 
floodwaters from New Orleans.
            3. Biota
    Along with initial concerns about the health of Lake Pontchartrain 
came fears regarding the quality of the seafood found there. The 
results of sampling of flood waters and ambient Lake Pontchartrain 
waters helped mitigate these fears, revealing no chemicals above levels 
of concern. However, with added prudence, the DEQ and the United States 
Food and Drug Administration (USFDA) embarked upon a 5-week effort to 
sample and analyze tissues from commercially and recreationally 
important finfish and shellfish species. The USFDA laboratories 
analyzed 416 tissue samples for a wide variety of chemicals. The 
results confirmed that the seafood in Lake Pontchartrain is healthy and 
edible.
    The analytical data showed that no advisory against seafood 
consumption was warranted. As an added precaution, fish and shellfish 
tissue will be sampled over the next 2-5 years to confirm the absence 
of chemical contamination in Lake Pontchartrain seafood. In addition, 
the USEPA and NOAA Fisheries have conducted offshore and near shore 
fish and shellfish tissue sampling in the Gulf of Mexico and found no 
contaminants at levels of concern. This is an important issue in the 
recovery of Louisiana, demonstrating and supporting the safety of the 
seafood, and therefore the viability of the seafood industry, as the 
seafood industry infrastructure (fishing vessels, docks, ice houses, 
processors, restaurants) struggles to overcome the physical impacts of 
Hurricane Katrina.
            4. Air
    In order to evaluate air quality while pre-Katrina air monitoring 
stations were being re-established, LDEQ collected twenty-three grab 
air sample canisters in the Katrina affected area. All samples were 
analyzed for a total of 59 target volatile organic analytes (VOC). In 
addition, a Photochemical Assessment Monitoring Stations (PAMS) 
hydrocarbon analysis was performed to quantify total non-methane 
hydrocarbons and identify 56 common hydrocarbon species. The majority 
of the grab samples had reported VOC concentrations at or slightly 
above normal ambient background levels. All of the detected VOC 
concentrations were well below the Louisiana ambient air standards and 
the ATSDR Minimal Risk Levels (MRL).
    EPA conducted air sampling in New Orleans and the surrounding areas 
following Katrina. The EPA Trace Atmospheric Gas Analyzer (TAGA) 
results indicated that there were elevated concentrations of benzene in 
the area affected by the release from Murphy Oil (Chalmette) shortly 
after the storm. The TAGA is a self-contained mobile laboratory capable 
of continuous, real-time sampling and analysis. It can detect chemicals 
in the low parts per billion levels of outdoor air or emissions from 
various environmental sources. Subsequent air sampling in this region 
indicates that benzene concentrations have decreased and are now below 
screening levels. Sampling in other areas indicated that the chemical 
concentrations present in the air were below ATSDR screening levels. 
EPA also collected several sets/rounds of total particulate samples in 
Orleans and St. Bernard Parishes. This data indicates that the 
particulate concentrations were well below the level of health concern 
for Particulate Matter (PM<INF>10</INF>).
    In November 2005, DEQ prepared a report on air toxics based upon 
data collected from the established Kenner air monitoring site. A total 
of 47 samples were collected and analyzed on the 24-hour sampler 
between September 11, 2005 and November 13, 2005. The most abundant 
compounds found in these samples were propane, ethane, acetone, 
isopentane, toluene and n-butane. All of these compounds were detected 
within the normal concentration range for an urban area. The general 
profile of compounds detected was very typical of an area dominated by 
mobile source emissions. The total hydrocarbon reading averaged 147 
ppbC which is slightly below the normal range for an urban area. None 
of the average concentrations for any of the targeted VOCs were above 
the annual average Louisiana Ambient Air Standards, nor were any of the 
individual sample concentrations above the 8 hour ambient air 
standards.
H. LDEQ Emergency Orders
    On Sunday, August 28, 2005, LDEQ Secretary Mike D. McDaniel, Ph.D., 
convened a special meeting of his staff to discuss preparations for the 
hurricane. One of the outcomes of that meeting was a Declaration of 
Emergency and Administrative Order (emergency order), which the 
Secretary signed on August 30, 2005 to address the emergency conditions 
and measures deemed necessary in the wake of Hurricane Katrina to 
prevent irreparable damage to the environment and serious threat to 
life or safety throughout the designated emergency areas. Considering 
post-landfall conditions, a nearly identical emergency order was issued 
on September 27, 2005 in response to Hurricane Rita.
    These emergency orders have been revised and reissued every sixty 
days based on additional information and changing conditions; they are 
still in effect in the most severely affected areas. Each order 
contained certain measures specifically authorized by the LDEQ and 
determined necessary to respond to the emergency. Exhibits 1 and 2 
contain the latest two versions of the Hurricane Katrina emergency 
order; the Hurricane Rita orders are very similar.\1\
---------------------------------------------------------------------------
    \1\All orders addressing Hurricanes Katrina and Rita are available 
on the LDEQ website at http://www.deq.louisiana.gov/portal/
Default.aspx?tabid=2570.
---------------------------------------------------------------------------
    The LDEQ has a duty under the Louisiana Constitution to strike an 
appropriate balance between protection of the environment and economic, 
social, and other factors, consistent with the health, safety, and 
welfare of the people. The emergency orders have been an important part 
of LDEQ's fulfillment of that duty in the aftermath of Hurricanes 
Katrina and Rita. LDEQ's goal and expectation has been that the 
emergency orders would provide the information and regulatory 
flexibility to allow debris management and other recovery-related 
activities to occur as quickly as possible and in an environmentally 
sound manner.
            1. Purpose of emergency orders
    The emergency orders serve the dual purposes of:

     providing regulatory flexibility essential to the hurricane 
recovery efforts, as allowed under the Louisiana Environmental Quality 
Act (see, e.g., La. R. S. 30:2033), and
     providing useful information to the public about Louisiana's 
environmental laws and regulations.

            2. Regulatory flexibility
    The regulatory flexibility provided by the emergency orders 
consisted primarily of the temporary relaxation of procedural 
requirements for activities in the defined Emergency Areas, in order to 
expedite the restoration of important services and the removal of the 
enormous volume of hurricane debris. The emergency orders did not allow 
any activity that would endanger human health or the environment, and 
the orders had very little effect on substantive requirements, such as 
the limitations on effluent discharges to waters of the state. The 
orders generally required such standards as would a permit but did not 
require the time associated with the administrative process of 
obtaining a permit.
    It was immediately necessary to provide regulatory flexibility to 
allow water discharges for necessary services and activities, such as 
potable water treatment, sanitary discharges where systems had been 
damaged, temporary housing locations, and temporary gasoline dispensing 
locations. The affected public needed safe drinking water, functioning 
sanitary facilities, and adequate shelter. Fuel was needed for first 
responders in the first days and weeks; fuel was also needed by the 
public, e.g., to operate generators on a continuing basis during 
widespread power outages. Regulatory flexibility was provided by 
managing such discharges in a manner protective of human health and the 
environment, as follows:

     Allowing the discharge of wastewaters associated with potable 
water treatment systems in the emergency areas, without a permit, and 
without first submitting a notice of intent to LDEQ. All such 
discharges were required to comply with the substantive limitations on 
effluent pollutant parameters set forth in the permit that is normally 
required for such discharges and the operator was required to monitor 
and report analytical information in compliance with the regulations. 
The authority granted by this provision enabled the timely operation of 
portable drinking water treatment facilities in areas with no other 
source of safe drinking water.

     Allowing the discharge of gray water (domestic wastewater from 
all sources except toilets) within the emergency areas, without a 
permit. All such discharges were required to comply with the 
substantive limitations on effluent pollutant parameters set forth in 
the permit that is normally required for such discharges and the 
operator was required to monitor and report analytical information in 
compliance with the regulations. This provision facilitated the 
location of temporary housing for displaced hurricane victims.
     Allowing the discharge of storm water runoff by the Corps from 
construction activities related to response activities in the emergency 
areas. This allowed the Corps to take immediate action wherever needed, 
such as repairs to the levee system.

    The LDEQ made these water discharges possible through issuance of 
emergency orders. The emergency orders provided standards and 
limitations, including effluent standards required by the Clean Water 
Act Amendments. The Secretary determined that there was greater 
potential for harm to the public health, safety, and welfare and to the 
environment from the delay of discharge of the wastewaters addressed in 
the orders until a permit could be issued. The orders represented the 
most prudent way of addressing immediate environmental problems created 
by the hurricanes while still providing protection for human health and 
the environment. Protective substantive limits and reporting 
requirements were imposed; only administrative processes associated 
with permits were curtailed by the orders.
    It was also necessary to provide regulatory flexibility to manage 
the vast amounts of debris generated by the hurricanes in an efficient 
and environmentally sound manner. The emergency orders provided this 
flexibility in the following terms with regard to solid waste disposal 
facilities (landfills):

     Allowing landfills to handle a greater volume of waste per day 
than current permits allowed. Permit limits on volume are based on 
normal conditions; they do not anticipate, and are not appropriate for, 
addressing debris management needs of the worst natural disaster in the 
nation's history.
     Expanding the scope of the Louisiana definition of C&D debris to 
include items not provided for in the LDEQ's solid waste regulations.

    See Exhibit 3, LAC 33:VII.115. Appendix D of the Emergency 
Declarations and Orders listed material to be considered as C&D debris:

    1. Nonhazardous waste generally considered not water-soluble, 
including but not limited to metal, concrete, brick, asphalt, roofing 
materials, sheet rock, plaster, lumber from a construction or 
demolition project, and other building or structural materials;
    2. Furniture, carpet, and painted or stained lumber contained in 
the demolished buildings;
    3. The incidental commingling of construction and demolition debris 
with non-friable asbestos-contaminated waste. (i.e., incidental non-
friable asbestos-contaminated debris that cannot be extracted from the 
demolition debris); and
    4. Yard waste and other vegetative matter.

    Under ordinary circumstances, LDEQ regulations (unlike federal 
requirements) prohibit the disposal of the previously listed items in 
landfills that are permitted only for C&D debris. The rationale for the 
LDEQ regulations' prohibition is that furniture, carpet, yard waste, 
etc., under ordinary circumstances, are frequently mixed with household 
garbage containing putrescible waste, for which C&D landfills are not 
designed. In the aftermath of the hurricanes, in contrast, the wastes 
listed above are usually mixed with non-putrescible C&D debris, and 
segregation of the waste types is simply not practical. A determination 
was made by LDEQ, in consultation with EPA, that these items could be 
disposed of in a C&D landfill with no threat to the environment or 
human health. As noted above, flexibility extended to the difference 
between state and federal regulations. No federal regulation or 
standard was violated by granting this flexibility.
    In addition, the emergency orders provided for other debris 
management processes, by existing C&D facilities as well as new, 
temporary debris staging and disposal sites:

     Allowing site-specific authorization by LDEQ for disposal in an 
``enhanced'' C&D debris landfill of construction and demolition debris 
generated from residential structures of four units or less that are 
subject to a government-ordered demolition, and that are assumed to 
contain potential asbestos-containing waste material. In order to 
accept such wastes, a C&D landfill must comply with special 
requirements set forth in the emergency orders that ensure the 
protection of workers and the public from asbestos emissions, such as 
perimeter air monitoring, disposal of asbestos-containing material in 
dedicated areas separate from non-asbestos containing C&D waste, 
prohibition of visible emissions, daily cover and warning signs. 
Enhanced C&D landfill requirements meet or exceed federal requirements 
for disposal of asbestos waste.
     Allowing the discharging of wastewaters from C&D landfills 
without a permit, provided that the discharges meet certain limitations 
on effluent pollutant parameters, and provided that the operator 
monitors and reports analytical information in compliance with the 
regulations.
     Allowing management of uncontaminated debris at unpermitted 
temporary staging areas.
     Allowing site-specific authorizations for temporary storage, 
chipping, grinding, and burning of hurricane-generated vegetative 
debris at staging areas.
     Allowing local governments to burn hurricane generated vegetative 
debris such as trees, leaves, vines, twigs, branches, grass, without 
prior notice to LDEQ.
     Allowing the commencement of emergency demolition or emergency 
cleanup of asbestos-containing material resulting from the hurricanes, 
without prior notification to LDEQ.

    Although the emergency orders expanded the scope of C&D debris for 
hurricane generated debris, the material otherwise included is not 
considered to be a threat to the environment and is consistent with 
minimum federal requirements. In addition, it is not feasible during 
emergency conditions to follow normal administrative permitting 
processes that usually take in excess of 6 months.
    The emergency orders also allowed repairs to permitted solid waste 
management facilities, as necessary to restore essential services and 
the functionality of storm water management and leachate collection 
systems damaged by the hurricane, without prior notice to LDEQ. This 
provision was necessary to ensure that there was as little impact as 
possible to the environment from existing facilities that may have been 
damaged by the storms.
    The orders also provided flexibility and information for other 
regulated facilities, such as those with underground storage tanks. 
Requirements for release detection, corrosion protection, and inventory 
control applicable to owners and operators of underground storage tanks 
were temporarily suspended, during the time that the tank system was 
not accessible due to conditions resulting from the hurricanes. 
However, the emergency orders also required an emergency evaluation of 
the tank system before returning it to service, according to the 
protocol set forth in the emergency orders.
2. Public information
    The public information function of the emergency orders included, 
among other things:

     Guidance to assist operators of sanitary wastewater treatment 
systems in start up and operation.
     Guidelines for temporary housing sites, including requirements 
relating to sanitary wastewater treatment and discharge, storm water 
discharges associated with construction, household waste collection and 
recycling, and site closure.
     Guidance for compliance with the Louisiana Emission Standards for 
Hazardous Air Pollutants, as they relate to asbestos, during demolition 
and renovation activities.

    Since the issuance of the first emergency order after Hurricane 
Katrina, LDEQ has continued to revise the emergency orders in response 
to new information and changing conditions For example, LDEQ has 
recently eliminated several parishes from the Emergency Areas to which 
each emergency order applies. These changes are in response to the 
recovery progress that has been made in many areas.

                     III. HURRICANE DEBRIS MISSION

A. Overview of Debris Mission
    The hurricanes left more than 62 million cubic yards of debris, 
millions of orphan drums and containers of unknown origin and content; 
over 350,000 flooded and abandoned cars; over 60,000 flooded, damaged, 
and/or abandoned vessels; over one million units of white goods; over 
956,000 units of electronic goods; and 140,000 to 160,000 flooded 
homes.
    The removal and proper management of debris after these two 
hurricanes was and continues to be a critical element of the recovery 
efforts. Without debris removal, there can be little rebuilding and 
repopulating. All types of debris, household contents, houses, cars, 
vessels, trees, white goods, electronics and more must be removed and 
properly disposed of in order for citizens to return to their homes and 
businesses. Although more than 12,000 storm damaged houses have been 
demolished, it is estimated that about 30,000 additional homes remain 
to be demolished and disposed.
    As of January 19, 2007, the Corps had removed 26,428,074 cubic 
yards of debris under a FEMA-funded mission assignment. This includes 
debris from demolition activities.
    As of February 14, 2007, more than 51 million cubic yards of debris 
has been removed. Of this amount, 22.4 million pounds of hazardous and 
industrial waste were recovered and properly disposed. In addition, 
more than one million units of white goods and more than 956,000 units 
of electronic goods have been recovered and recycled.
    Other information provided in chart form below summarizes the 
debris mission progress to date and the work still to be accomplished. 
This chart includes all debris removed pursuant to any FEMA-funded 
mission, not just the debris removed by the Corps.

[GRAPHIC] [TIFF OMITTED] T3826.067


[GRAPHIC] [TIFF OMITTED] T3826.068


B. Debris Mission Task Force
    Following landfall of Hurricane Katrina, the LDEQ joined forces 
with other federal, state, and local agencies for the purpose of 
orchestrating and implementing a plan for the management of the then 
estimated more than 55 million cubic yards of debris. Designated as 
``Debris Operations'', these agencies met daily, sometimes meeting two 
or three times a day as sub-committees, to address planning needs, 
actual and potential legal issues, agency authority and resources, and 
to organize which agencies would be responsible for particular tasks in 
the overall mission. For example, one of the subcommittees was charged 
with the development of a checklist and/or flow diagram to be used as a 
tool by state and local government entities to assist them in making a 
decision on the condemnation and demolition of public and private 
buildings and residences.
    It was clear that the debris mission's scope would require the 
expertise and resources of all agencies to handle the amount of 
hurricane debris in an efficient and environmentally sound manner. The 
following agencies worked in collaboration to identify the debris 
management mission; develop the process to authorize debris management 
sites; and provide guidance to local government, clean up contractors, 
and the public:

     City of New Orleans
     St. Bernard Parish
     GOHSEP
     LDEQ
     Louisiana Department of Transportation and Development
     LDAF
     Louisiana Department of Wildlife and Fisheries
     CDC
     EPA and its contractor START
     United States Federal Emergency Management Agency (Congressional, 
Debris, Office of General Counsel, Safety, Infrastructure)
     Corps and its contractors: Phillips and Jordan, ECC, and CERES 
Environmental
     United States Coast Guard
     United States Department of Agriculture
     National Disaster Medical Service/ Disaster Mortuary
     United States Natural Resources Conservation Service (USDA-NRCS)
     United States Department of Homeland Security, Office of 
Inspector General, Office of Audits

C. Debris Management Plan
    The intent of the debris management plan, to be developed by the 
debris mission task force, was:
        [T]o formalize a process that will enable the State of 
        Louisiana, [the Corps], and [FEMA] to comprehensively manage 
        funding for large scale and complex debris clearances. The plan 
        was also to address the responsibilities of the various 
        Federal, State and local governmental agencies to control the 
        removal and disposal project for the designated parishes.
    The purpose of the plan was to furnish local governments with basic 
information on hurricane debris management within the scope of 
effective environmental management. Local governments were 
understandably unable to use normal non-emergency resources and 
processes to manage the unprecedented amount of hurricane debris. The 
plan was also designed to ensure that debris management projects met 
requirements of the Stafford Act, its regulations, and all applicable 
environmental laws; assist the state and parishes with contracting and 
contract monitoring as necessary; and to the extent possible, avoid 
eligibility, contractual, and environmental problems.
    The group recognized that the plan should be considered a starting 
point, with recommendations for a regional disaster debris management 
plan requiring the approval of all Government agencies before the final 
plan could be implemented.
            1. Process for approval of debris management sites
    Based on its jurisdiction over solid waste regulation, the LDEQ was 
tasked with developing a process to identify and approve hurricane 
debris management sites. It did this in consultation with its debris 
mission partners, particularly the Corps and EPA. As early as September 
28, 2005, the LDEQ had prepared a Debris Management Plan, which was 
subsequently revised. See Exhibit 5. The plan was provided to the task 
force members for review, and finalized by LDEQ in consultation with 
these same debris mission partners.
    While the LDEQ's jurisdiction over solid waste extends to 
determining need (capacity) and suitability of facilities, it does not 
include the authority to direct waste to be disposed in any particular 
facility. In addition, it is LDEQ's policy that no staff member shall 
direct or refer business to any individual or entity.
    Based on the plan, local government and LDEQ were responsible for 
identifying and approving appropriate staging, processing and disposal 
sites for hurricane generated debris. All sites used for staging or 
disposal of hurricane generated debris that did not already possess a 
valid LDEQ permit were initiated by receipt of a request from a parish 
or other local government authority; the request included 
identification of potential sites and the type of activity to be 
performed at each location. See Exhibit 6, the initial request form. 
The LDEQ evaluated several different types of potential sites: debris 
management sites for staging of different types of hurricane generated 
debris; chipping, burning, and grinding of wood waste; and disposal of 
C&D. Following this process, approximately 400 sites were approved for 
this purpose.
    Site evaluation began with a visit to the site by an LDEQ 
representative, and a representative of one or more of its debris 
mission partners, the Corps, and/or FEMA. Each site was assessed based 
on the criteria sheet provided by FEMA. See Exhibit 7, Emergency Debris 
Management Site Certification Form. The criteria was discussed and 
adapted as needed to fit the variations presented by each site and 
local needs.
    For C&D/wood waste disposal, the LDEQ supplemented these criteria 
by requiring individualized site suitability analyses by an LDEQ 
engineer or geologist using visual observations, test pits, soil 
borings, or any other available methods/information. Soils with low 
permeability and groundwater classification were the key criteria for 
site approval. In the event that soils did not meet geological 
requirements, the location was either denied or additional 
requirements, such as installation of a clay liner, were imposed. This 
site analysis process was designed to be as close to that of the actual 
analysis required for C&D disposal sites without the delay associated 
with strict compliance with the procedural and/or administrative 
regulations to obtain a permit.
    All sites were and are required to be operated in accordance with a 
written operational plan approved by LDEQ. Furthermore, all sites are 
required to be closed in accordance with the technical requirements of 
the pertinent regulations.
    With the exception of the slow pace of demolition of flood damaged 
structures, the clean up and disposition of hurricane debris has gone 
reasonably well. The debris cleanup and disposal in the Rita impacted 
portions of the state are essentially complete. Accordingly, the C&D 
disposal sites authorized by the Emergency Declarations and Orders in 
this area will shortly cease accepting waste and begin closure 
procedures. According to FEMA, as of February 9, 2007, cleanup and 
disposal in the Katrina impacted area is 75 percent complete, with the 
remaining debris associated primarily with the demolition and disposal 
of flood damaged structures. It is estimated that about 30,000 
structures in both St. Bernard and Orleans Parishes will have to be 
demolished and disposed of. The pace of the demolitions is tied 
primarily to authorizations provided by local governments. FEMA also 
estimates that the Hurricane Rita debris mission is 96.4 percent 
complete.
LDEQ Authorizations for the Gentilly and Chef Menteur Landfills
    The emergency orders applied to all permitted solid waste disposal 
facilities (landfills), including the Gentilly solid waste disposal 
facility, which, at the time of Hurricane Katrina, had already received 
its LDEQ permit. In addition, the emergency orders were used to 
authorize operation of unpermitted C&D landfills; Chef Menteur was a 
prime candidate for such authorization due to a number of factors, 
which are set forth in more detail below.
            1. Gentilly Landfill
    The City of New Orleans submitted a permit application to LDEQ in 
June 2002 to construct and operate the Gentilly Landfill for the 
disposal of C&D debris and wood waste. On December 28, 2004, a permit 
to construct and operate the Gentilly Landfill was issued by LDEQ. 
Thus, at the time of Hurricane Katrina, the Gentilly Landfill was 
permitted and was in the process of completing required tasks necessary 
under the terms of the permit before it could receive its order to 
commence operations.
    The 2004 permit for the Gentilly Landfill authorized the 
construction of a landfill over a previously closed municipal landfill. 
This ``piggyback'' concept has been used before in Louisiana and other 
parts of the country. The goal of this technique is to fully maximize 
the utilization of an area that has already been utilized for disposal 
of waste, thus preserving green space. Using the ``piggyback'' concept, 
the existing cover system over the closed landfill acts as a liner 
system for the new landfill on top.
    The Louisiana Solid Waste Regulations require C&D landfills to be 
constructed over an area with low permeability of soils. The existing 
cover system of the closed municipal landfill at Gentilly Landfill 
meets this requirement.
    In accordance with the LDEQ regulations, a public notice of the 
draft permit was published inviting public comment. The LDEQ did not 
receive any public comment during the public comment period that 
placement of waste on top of the closed landfill would cause any 
adverse environmental impact. The LDEQ issued the final permit on 
December 28, 2004.
    Before the facility had completed minor permit requirements (e.g., 
the installation of a fence around the facility) necessary to receive 
an order authorizing commencement of operation pursuant to LAC 
33:VII.509.C.(4), Hurricane Katrina struck Louisiana. On September 29, 
2005, after Hurricane Rita had swept through the state, adding its 
devastation to that of Katrina, the LDEQ issued an order authorizing 
commencement of operations at the Gentilly Landfill Exhibit 10. In the 
aftermath of the destruction of these two storms, the LDEQ had 
determined that the facility was sufficiently complete to commence 
operation and was a necessary component of the recovery efforts for the 
New Orleans metropolitan area.
    A later decisional document, Exhibit 15, issued by LDEQ on January 
20, 2006, sets out the factors weighed in the decision to utilize the 
Gentilly Landfill site to receive hurricane generated C&D debris.
    a. Need and suitability determination of Gentilly Landfill to 
receive hurricane C&D debris
    The decision to use Gentilly Landfill to receive hurricane 
generated C&D debris was based on the need for the facility and its 
suitability to receive such debris. The LDEQ determined that massive 
amounts of debris had been generated by the two storms. The LDEQ also 
anticipated that the damage caused by flooding would result in 
generation of additional demolition debris. The Corps' initial 
estimates were that 55 million cubic yards of debris had been generated 
by the storms in southeast Louisiana. At that time, an estimated 
140,000-160,000 homes in southeast Louisiana received flood damage.
    Following receipt of a request from local government to use 
Gentilly Landfill to receive hurricane C&D debris, the LDEQ issued an 
order authorizing commencement of operation for the Gentilly Landfill 
on September 29, 2005. Following issuance of this order, public 
concerns over the use of the facility were raised. In response to these 
public concerns, LDEQ required groundwater and soil samples to be 
collected. These samples, as well as data from the city's groundwater 
monitoring plan, showed no adverse environmental impact from the old 
landfill.
    After evaluating these concerns, the LDEQ issued its decisional 
document, Exhibit 15, that responded to these concerns and therein 
authorized the continued operation of the facility and revoked the 
Order Authorizing Commencement of Operation issued September 29, 2005. 
The decisional document provided the reasoning and rationale for the 
decision to continue to authorize the Gentilly Landfill. Specifically, 
in its decisional document, the LDEQ noted that previously, during the 
initial review of the LDEQ permit application, several borings were 
drilled through the waste in the underlying landfill to determine the 
suitability of constructing a C&D landfill above the old municipal 
landfill. The data, once analyzed, indicated that waste had undergone 
biodegradation, likely attributable to the partial closure and aerobic 
conditions in the old municipal landfill. The decisional document also 
reflects that as part of the collaborative site assessment process, on 
November 11, 2005, EPA conducted a separate assessment and found no 
concerns regarding groundwater or any other contamination concerns.
    Two other locations were considered as alternatives prior to 
authorizing the use of Gentilly Landfill: Recovery 1 and Amid. The 
decisional document sets forth that Recovery 1 was rejected due to 
concerns related to its existing height, landfill stability, and 
imposition of additional loads. The available area was smaller than 20 
acres and consequently would not provide sufficient air space for the 
large capacity of debris to be disposed. It was further determined that 
Amid, an existing C&D landfill, had only three months of air space 
remaining, and was therefore also inadequate for the debris generated 
in the area.
    The LDEQ noted that the Gentilly site met all of the technical 
requirements for a Type III C&D Landfill, as demonstrated by the 
issuance of the permit in December 2004. In addition, the Gentilly site 
is in close proximity to the hurricane devastated areas and therefore 
to the bulk of the hurricane generated debris. Further, the Gentilly 
Landfill site is located in a remote location, and except for some 
industrial development, is relatively undeveloped. See Figure 1 below. 
Due to the remoteness of the location, waste haulers can readily access 
roads to the landfill. For all these reasons, the Gentilly site was the 
preferred alternative.

[GRAPHIC] [TIFF OMITTED] T3826.069

    The decisional document details further alternatives considered by 
LDEQ based on concerns raised by opponents to the use of the Gentilly 
Landfill. Existing landfills in Jefferson Parish, specifically 
Riverbirch and Highway 90 Landfills were also considered by LDEQ.
    Riverbirch is a Type I & II landfill used for disposal of 
industrial solid waste and residential or commercial solid waste. It is 
generally more expensive to dispose of waste at a Type I/II facility, 
due to the additional regulatory requirements for these landfills, 
including liners and leachate collection systems. These additional 
requirements are unnecessary for landfills receiving C&D debris, so 
placing C&D debris in a Type III landfill is a more efficient use of 
landfill capacity and resources for this relatively benign type of 
waste, thus reserving the Type I and II landfills' disposal capacity 
for industrial and municipal solid waste, respectively.
    The Highway 90 Type III facility located in Jefferson Parish was 
then (and is currently still) accepting hurricane generated C&D debris, 
and was subject to the same design requirements and standards as the 
Gentilly Landfill. However, the LDEQ determined that Highway 90 alone 
could not efficiently process the unprecedented amount of hurricane C&D 
debris to be disposed. The LDEQ decision to authorize Gentilly 
Landfill's immediate use in addition to that of Highway 90 recognized 
that use of Highway 90 included a number of transportation and other 
safety considerations: increased distance, traffic congestion, longer 
transport time, and the ability of the facility to safely process such 
a large daily volume of debris. See Figure 2 below. Waste transporters 
reported that they could haul four or five trips per day to Gentilly as 
opposed to two trips per day to Jefferson Parish disposal facilities.

[GRAPHIC] [TIFF OMITTED] T3826.070


    The legend and graphics in Figure 3 below show the distance in 
miles to Gentilly and to the facilities in the vicinity.

[GRAPHIC] [TIFF OMITTED] T3826.071


    In addition, as a result of the increased distance and travel time 
for hauling 75,000 cubic yards of C&D debris to Highway 90, as compared 
with the Gentilly Landfill, waste haulers' truck emissions of volatile 
organic compounds, nitrogen oxides, carbon monoxide, particulate 
matter, sulfate, and ammonia would increase by nearly 300 percent, 
using EPA's MOBILE6 emissions model.
    b. Decisional process with public input
    Although the decisional document issued by the LDEQ on January 20, 
2006 addressed concerns and opposition to the use of Gentilly Landfill 
that had been expressed at that time, the LDEQ revised and reissued the 
decisional document on August 28, 2006 to provide additional 
information and precautionary measures to address continuing public 
concern. Notice of the August 28th decisional document for public 
review and comment was provided to the public; see Exhibits 27 and 29. 
An LDEQ Administrative Order was issued that same date (Exhibit 28), 
limiting the weekly gate rate to 280,000 cubic yards and daily rate to 
50,000 cubic yards, and requiring inclinometer and visual readings to 
confirm landfill stability, application of waste in lifts less than 25 
feet, and implementation of the ground and surface water monitoring 
plans previously submitted.
    Previously, on October 31, 2005, the Louisiana Environmental Action 
Network (LEAN) filed suit challenging the LDEQ order to commence which 
authorized the operation of Gentilly Landfill for disposal of hurricane 
generated C&D debris. The parties entered into a consent judgment. 
Issuance and public notice of the revised decisional document, along 
with issuance of the administrative order on August 28, 2006, met the 
terms of the consent judgment.
    The revised decisional document noted that Gentilly Landfill had 
submitted a groundwater monitoring plan on July 7, 2006 (as required by 
the LDEQ's prior Administrative Order dated April 3, 2006, Exhibit 19). 
The plan, reviewed and approved by the LDEQ, provided for the placement 
of monitoring wells around the perimeter of the landfill to provide 
early warnings of potential relevant chemical changes in groundwater 
quality at the facility. The LDEQ further documented its analysis of 
the pathways of groundwater discharge to any surface water bodies, also 
based on public concerns.
    Finally, also in response to public concern, the LDEQ contracted 
with a third party investigator to evaluate the slope stability of the 
final landfill elevation to determine what effect, if any, the landfill 
would have on the MRGO levee. The investigation included soil borings 
and analysis of the subsurface soils. The investigation concluded that 
the operation of the Gentilly Landfill would have no adverse affect on 
the MRGO levee. Notwithstanding the findings and conclusions of this 
investigation, the LDEQ required the installation of inclinometers to 
monitor any movement in subsurface soils, to provide sufficient 
advanced warning to avoid any remote potential that this landfill could 
impact the MRGO levee.
    The public comment period for the revised decisional document 
closed on January 18, 2007, and the LDEQ is currently evaluating all 
public comments received to determine if additional revisions to the 
decisional document are necessary or advisable.
            2. Chef Menteur Landfill
    Prior to Hurricane Katrina, the Chef Menteur facility had undergone 
full LDEQ permit review for a Type III C&D disposal facility. The 
permit was not granted because the conditional use permit required by 
LDEQ regulation was denied by the New Orleans City Council on March 20, 
1997.
    On February 14, 2006, the Mayor of New Orleans submitted a request 
for the use of the Chef Menteur facility as a disposal site for 
hurricane generated C&D debris; see Exhibit 16. After a careful 
examination of scientific and/or engineering considerations, sound 
reasoning, and a proper evaluation of practical alternatives, including 
the information gathered in site assessment using the collaborative 
process, the LDEQ issued site authorization on April 13, 2006, Exhibit 
20, and a decisional document on April 26, 2006, Exhibit 21, supporting 
that authorization. Notice of the decisional document's availability 
for review and that LDEQ would receive comments was provided to the 
public comment; further, the document was translated into Vietnamese 
because of the significant Vietnamese-speaking community in the 
vicinity.\2\
---------------------------------------------------------------------------
    \2\See http://www.deq.louisiana.gov/apps/pubNotice/pdf/
Chefmonteurdecisionvietnamese5-1206.pdf.
---------------------------------------------------------------------------
    Chef Menteur is located at 16600 Chef Menteur Highway, New Orleans, 
in Orleans Parish, Louisiana, approximately 2 miles east of Interstate 
Highway 510 on U.S. Highway 90 (Latitude 30 02' 52", Longitude 89 52' 
55"). The site is owned by Expedition Enterprises, L.L.C., but leased 
to and operated by Waste Management of Louisiana, L.L.C. (Waste 
Management), a wholly-owned subsidiary of Waste Management Holdings, 
L.L.C. Pursuant to the exercise of LDEQ's statutory emergency 
authority, the Chef Menteur site was authorized to operate as an 
``Enhanced'' C&D Landfill\3\ to receive hurricane generated C&D debris.
---------------------------------------------------------------------------
    \3\An ``Enhanced'' C&D Landfill is a C&D landfill allowed to accept 
asbestos-containing waste material under requirements (equivalent to 
Louisiana Emission Standards for Hazardous Air Pollutants (LESHAP) 
requirements) set forth by the LDEQ Declaration of Emergency and 
Administrative Order; and as found consistent by EPA with NESHAP for 
asbestos (National Emission Standards for Hazardous Air Pollutants) in 
a March 1, 2006, letter to the LDEQ, Office of Environmental 
Compliance, Assistant Secretary, Harold Leggett, Ph.D.
---------------------------------------------------------------------------
    As set forth in the decisional document, the LDEQ determined that 
protection of human health and the environment, as well as public 
safety issues, warranted authorization of the Chef Menteur facility to 
receive hurricane generated C&D debris. Prior to granting emergency 
authorization to Chef Menteur, the LDEQ had authorized the utilization 
of the Gentilly Landfill for disposal of some portion of the massive 
amounts of hurricane generated C&D debris. However, due to public 
concern, the Gentilly Landfill was, at the time the Chef Menteur site 
request was being considered, required to operate under an LDEQ 
administrative order that limited Gentilly's intake of debris to 19,000 
cubic yards per day. In addition FEMA unilaterally reduced the amount 
of debris it would provide reimbursement for to 5,000 cubic yards per 
day. These limitations resulted in a decrease in the volume of 
hurricane generated C&D debris transported and disposed in Orleans 
Parish. It also triggered the need for alternative C&D disposal sites.
    Based upon Corps reports at the time, approximately 5,154,909 cubic 
yards of vegetative debris and 12,460,570 cubic yards of demolition 
debris in Orleans Parish remained to be processed. Additional debris 
not yet included in the Corps situation reports was expected due to a 
FEMA national flood insurance policy that required the elevation of 
certain structures in the New Orleans metropolitan area by as much as 
three feet. Many houses that could not be elevated properly were slated 
for demolition. In light of these Corps reports and based upon a Corps 
Structural Demolition Decision Analysis for the demolition of 
structures in Orleans Parish, the following results were predicted, 
unless additional receptor sites in close proximity to the anticipated 
demolitions were approved: 1) the estimated rate of demolition would 
require reassessment; 2) the execution, in approximately eight months, 
of the first phase of demolition (structures near collapse) would 
become questionable; and 3) the execution of the broader mission, which 
could include demolition of 20,000 or more structures, would require 
over 6 years.
    Therefore, to expedite the removal and disposal of the remaining 
C&D hurricane generated and demolition debris associated with 
demolition activities in the area in and around Orleans Parish and 
particularly in the Ninth Ward Area, the LDEQ authorized the 
construction and operation of Chef Menteur disposal site.
    As shown in Figures 2 and 3 above, Chef Menteur is in close 
proximity to the major sources of hurricane generated C&D debris. As 
Figure 4 below shows, the Chef Menteur site is approximately two (2) 
miles from the nearest residential neighborhood.

[GRAPHIC] [TIFF OMITTED] T3826.072

    Figure 5 shows, by way of comparison, the closer proximity of the 
landfills, including Highway 90 Landfill, to the community of Waggaman 
than that of Chef Menteur to the nearest community.

[GRAPHIC] [TIFF OMITTED] T3826.073

    The gravity of the emergency situation created by Hurricane Katrina 
required regulatory flexibility and a consideration of the timeframe 
for debris removal. With the authorization of Chef Menteur Landfill, 
the LDEQ estimated the timeframe for completion of debris disposal 
(when combined with existing the Gentilly and Highway 90 Landfills) to 
be as follows:
    --Remaining Vegetative Debris: 5,154,909 cubic yards
     Using Highway 90 only--10.2 months2 or 5.3 years1
     Using Gentilly and Highway 90--5 months2 or 8.8 months1
     Using all three landfills--3.4 months2 or 4.7 months1
    --Remaining Demolition Debris: 12,460,570 cubic yards
     Using Highway 90 only--1.7 years2 or 11 years1
     Using Gentilly and Highway 90--10.4 months2 or 1.5 years1
     Using all three landfills--7.2 months2 or 9.6 months1

    Note: 1--Assuming landfill receives actual permitted weekly volume 
only
        2--Assuming landfill receives 133,000 cubic yards/week

    Along with the City of New Orleans' request to use the Chef Menteur 
facility, Waste Management also submitted operational information, 
including for example, waste acceptance guidelines, asbestos-containing 
waste material management, Louisiana Emission Standards for Hazardous 
Air Pollutant (LESHAP) Protocol, and the requirements to operate as an 
``Enhanced'' C&D Landfill.
    The LDEQ concluded that the Chef Menteur was environmentally 
suitable for such a C&D site. Historically, the Chef Menteur site had 
undergone an extensive permitting review process by the LDEQ pursuant 
to a permit application submitted in 1994 by Construction Debris, 
Inc.\4\ The LDEQ found that additional factors rendered Chef Menteur 
suitable for emergency C&D disposal. These factors included:
---------------------------------------------------------------------------
    \4\Although environmental suitable, the LDEQ never issued a permit 
to Construction Debris, Inc., based on its 1994 application because the 
Council of the City of New Orleans denied the conditional use permit 
for Construction Debris, Inc., which the facility was required to 
obtain under LAC 33:VII.519.N.
---------------------------------------------------------------------------
    1) Zoned industrial;
    2) Proximity to areas where hurricane-generated debris is found and 
where demolition of storm damaged structures will be occurring, thereby 
resulting in reduced hauling time and cost, and reduced vehicle 
pollution effects, as shown on Figure 2;
    3) Adequate distance from neighbors as shown on Figure 3;
    4) Previously reviewed by the LDEQ for placement of a C&D landfill 
pursuant to standard permitting procedures;
    5) Evidence of suitable geology and engineering for the purposes of 
a C&D landfill\5\ and is located within fastlands;\6\
---------------------------------------------------------------------------
    \5\See Waste Management of Louisiana, Chef Menteur Disposal,, 
Emergency Disaster Cleanup Site Request: Supplemental Operational 
Information, Vol. 1, March 1, 2006, and March 15, 2006, Section 7.
    \6\A ``fastland'' is property located inside the hurricane 
protection levee system, which is outside the jurisdiction of the local 
coastal management program.
---------------------------------------------------------------------------
    6) Operated by a national company with experienced and properly 
trained employees;
    7) Contains no known archeological or historical sites within 1,000 
feet of the site boundaries;
    8) Contains no rare, threatened or endangered species or habitats 
within 1,000 feet of the site boundaries;
    9) Contains no state or federal parks or scenic streams within 
1,000 feet of the site boundaries;
    10) Easily accessible route;
    11) Sufficient available acreage; and
    12) Already contains existing excavations or borrow pits that will 
be utilized, after modification, for disposal cells (Cell 1 and Cell 
2).
    After carefully considering the request, and ascertaining the 
concurrence of local government, the LDEQ authorized the Chef Menteur 
site as a temporary C&D disposal facility authorized pursuant to the 
emergency orders. The facility was authorized to accept for disposal 
the following materials:

     Nonhazardous waste generally considered not water-soluble, 
including but not limited to metal, concrete, brick, asphalt, roofing 
materials (shingles, sheet rock, plaster), or lumber from a 
construction and demolition project;
     Furniture, carpet, or painted or stained lumber contained in the 
demolished buildings;
     The incidental commingling of construction and demolition debris 
with non-friable asbestos-contaminated waste (i.e., incidental non-
friable asbestos-contaminated debris that cannot be extracted from the 
demolition debris, all in accordance with the requirements applicable 
to ``Enhanced'' C & D Landfills); and
     Yard Trash.

    The wastes to be accepted were generated from direct and indirect 
effects of hurricane damage; the primary sources being Orleans, St. 
Bernard, and St. Tammany parishes. Available capacity of the landfill 
was set at approximately 7.2 million cubic yards, with the accepted 
waste being immediately landfilled in prepared cells. After each cell 
reached its design limitations, they were to be capped according to 
approved LDEQ procedures. White goods\7\ and putrescible,\8\ hazardous, 
liquid, infectious, industrial, commercial, and residential wastes were 
not allowed to be disposed at the Chef Menteur site.
---------------------------------------------------------------------------
    \7\``White goods'' are defined as ``discarded domestic and 
commercial appliances such as refrigerators, ranges, washers, and water 
heaters.'' LAC 33:VII.115.
    \8\``Putrescible waste'' is defined as waste ``susceptible to rapid 
decomposition by bacteria, fungi, or oxidation, creating noxious 
odors.'' LAC 33:VII.115.
---------------------------------------------------------------------------
    Public participation in this decision was achieved through the 
issuance of a decisional document setting forth the LDEQ's reasons for 
authorizing the Chef Menteur site; see Exhibit 21. This document was 
public noticed in major newspapers in both New Orleans and Baton Rouge, 
as shown in Exhibit 22. The public notices provided a 30-day public 
comment period. Because of the nearby Vietnamese-American community, a 
Vietnamese language version of the decisional document was made 
available to facilitate public review and comment. Public participation 
in the Chef Menteur authorization differed from the normal public 
participation process in that it came after the decision, not before.
    The LDEQ's decision to authorize the Chef Menteur site met with 
opposition from the Vietnamese community and others. Lawsuits were 
filed in state and federal courts both in Baton Rouge and New Orleans. 
Many of these legal challenges are pending. However, the facility is no 
longer operating due to a cease and desist order issued by the City. 
Also, as a result of this cease and desist order issued by the City, 
the LDEQ has advised the facility that it intends to revoke its 
emergency authorization to operate because of the lack of local 
government concurrence for the continued use of the facility. Since 
then the facility has advised LDEQ that it will be closing and it plans 
to submit a revised closure plan to accomplish same in the near future.
3. Both Gentilly and Chef Menteur landfills met all technical and 
        substantive requirements for permitted C&D landfills
    Every permit application is evaluated for technical merit and 
compliance with the applicable regulations. In addition, the permit 
process imposes public participation requirements prior to issuance of 
the permit. The LDEQ went through its normal process in permitting the 
Gentilly Landfill, including the normal public participation prior to 
issuance of the permit in December 2004. LDEQ simply exercised its 
emergency authority to allow the facility to commence operation prior 
to completing some incidental tasks required by the permit.
    Although Chef Menteur was not a permitted facility, the LDEQ had 
previously completed the full review for compliance with all technical 
and substantive requirements, even though no permit was issued. The 
authorization of Chef Menteur to receive hurricane generated C&D debris 
followed the standard process developed by LDEQ in collaboration with 
its debris mission partners as part of the debris mission plan. The 
Chef Menteur site was required to meet all technical and substantive 
requirements for a permitted facility.
    The only deviation from the normal permitting process for this site 
was that public notice and the opportunity to comment were provided 
after the fact rather than before the decision. Moreover, the LDEQ 
carefully considered the comments made and concerns raised and 
maintained its full authority to adjust or rescind the authorization as 
appropriate.
4. Hurricanes Katrina and Rita: ``Cradle to grave'' debris management
    In addition to the thorough evaluation of proposed disposal sites, 
the LDEQ, in collaboration with its debris mission partners, has 
conducted (and continues to conduct) rigorous examination and robust 
oversight of the entire debris management process to minimize, to the 
maximum extent possible, any negative impact to human health or the 
environment from disposal of hurricane generated C&D debris. The 
primary focus of this oversight is to prevent any prohibited items from 
being disposed of at approved hurricane generated C&D debris disposal 
sites.
    To address the removal and management of debris, the LDEQ prepared 
the Hurricane Katrina Debris Management Plan which was released on 
September 28, 2005, and revised on October 14, 2005, Exhibit 5. These 
earlier plans and lessons learned have been incorporated into the LDEQ 
Comprehensive Plan for Disaster Cleanup and Debris Management released 
July 2006 and revised August 2006, Exhibit 26. An integral part of 
these plans is the segregation of debris so that the various types of 
debris can be properly managed and disposed. Segregation of debris 
occurs at multiple points in the debris handling process and Federal 
and State oversight has also been implemented at various points in the 
process to further insure proper disposal.
    First, residents and contractors are instructed to remove household 
hazardous waste, white goods, and electronic goods and place them 
curbside prior to gutting or demolishing houses. See Exhibit 35.These 
items are then picked up by designated contractors and taken to 
specific staging areas for further processing for either disposal or 
recycling.
    To further insure proper debris segregation and disposal, spotters 
are employed to observe the loading of all debris so that only the 
debris designated for transport is loaded. Spotters are also located at 
staging areas to insure that only the debris types designated for that 
site are staged there. At disposal sites trucks must stop at towers 
where observers check each load and then additional spotters check the 
debris as it is unloaded. If inappropriate waste is received, the 
entire load may be rejected or the inappropriate waste is segregated 
and the site is responsible for, and must document, the proper disposal 
of the inappropriate waste.
    Finally, LDEQ and EPA constantly assess the entire debris 
management process to ascertain the proper handling and disposal of all 
storm related debris. Inspectors assess the debris stream, and the 
effectiveness of the spotters, as the debris is loaded and un-loaded at 
the source, staging areas, and disposal sites. Oversight of landfills 
and debris sites is conducted based on the type and volume of waste 
received. The major C&D landfills in the New Orleans area have had 
either LDEQ or EPA-START inspectors on site during all hours that the 
landfills are open.
    The frequency of other sites' debris stream assessments varies from 
daily to once per two weeks, as noted above, based on type and volume 
of waste received. Inspections of scheduled demolition sites are 
coordinated with LDEQ and various entities. The chart below provides a 
summary of the oversight assessments of operations to date at landfills 
and demolition sites.

[GRAPHIC] [TIFF OMITTED] T3826.074

[GRAPHIC] [TIFF OMITTED] T3826.075

    The best measure of the effectiveness of the ``cradle to grave'' 
management of the storm debris can be found in the amounts of hazardous 
and industrial waste, white goods, and electronic waste which were 
properly disposed of or recycled. As of February 14, 2007, more than 
4.9 million containers of hazardous waste have been recovered and 22.4 
million pounds of hazardous and industrial waste has been properly 
disposed. In addition, more than one million units of white goods and 
more than 956,000 units of electronic goods have been recovered and 
recycled.
5. Treated wood in C&D landfills
    Environmental concerns have been raised concerning disposal of 
treated wood containing chromated copper arsenate (CCA) in C&D debris 
landfills. Federal and state environmental regulations define CCA 
treated wood materials as a non-hazardous waste. This classification is 
based upon the disposal of CCA treated timbers in the form of the 
material's intended use, wood products, and not in the crushed and 
ground form that is tested in determining whether a product should be 
classified as a hazardous waste (AWPI, 1997). Assertions that CCA 
treated lumber poses a threat to groundwater when disposed of in a C & 
D landfill are usually based upon studies that show that some CCA 
treated lumber exceeds the Toxicity Characteristic Leaching Procedure 
(TCLP) regulatory limit of 5 mg/L for arsenic. Leachate from CCA 
treated wood has been shown to range from 3.0 mg/L up to 7.5 mg/L 
(Dubey and Solo-Gabrielle 2004). TCLP regulatory levels are based upon 
a model that assumes wastes in an open dump will be surrounded and 
layered with decaying municipal trash, which will produce a harshly 
acidic environment, thus encouraging constituent chemicals to dissolve 
from the waste and migrate to groundwater. The TCLP regulatory level is 
the predicted leachate concentration that would be protective for a 
hypothetical drinking water well located 500 feet from the disposal 
site.
    Conditions at the New Orleans C&D landfills are drastically 
different from the assumptions that were used in the TCLP model. There 
are no drinking water wells within miles of the landfill or potable 
aquifers anywhere in Orleans parish, for that matter. The nearest Point 
of Exposure (POE) at the landfill is not a nearby drinking water well, 
but surface water bodies located at least four times further away than 
the hypothetical drinking water well used in the TCLP model. 
Additionally, drinking water standards are not applicable or 
appropriate for the protection of a surface water body that is not used 
as a source of drinking water. A more appropriate measure of 
environmental protection is the Louisiana Surface Water Quality 
Criteria. The Surface Water Quality Criterion for arsenic is 5 times 
higher than the drinking water standard. This criterion for arsenic is 
protective of primary and secondary contact recreation, as well as fish 
and wildlife propagation.
    Based upon these factors, leachate concentrations reported for both 
new and weathered CCA treated wood materials are not expected to result 
in any unacceptable impact to groundwater or surface water at or near 
south Louisiana C&D landfills. This conclusion is supported by the 
model used to develop the TCLP regulatory standards and confirmed by 
site specific evaluations using the models and protocols in Louisiana's 
Risk Evaluation/Corrective Action program (RECAP).

                          IV. WHAT WORKED WELL

A. Interagency Collaboration
    Overall, the interagency collaboration following the hurricanes 
worked well, and allowed efficient and effective use of resources by 
federal, state, and local government agencies.
            1. Management of waste stream
    Proper management of recyclables, household hazardous waste, 
electronic waste, and white goods are examples of tasks where all 
levels of government collaborated and coordinated their activities and 
oversight to accomplish important goals of the debris management 
plan.\9\ Maintaining close lines of communication between members of 
each subcommittee or task force contributed to the successful efforts.
---------------------------------------------------------------------------
    \9\See the first paragraph on page 37, supra, for the statistics as 
of February 14, 2007.
---------------------------------------------------------------------------
            2. Environmental Sampling and Reporting of Results
    It is important to recognize that the basic premise of both the 
National Response Plan and the National Incident Management System is 
that incidents are generally handled at the lowest jurisdictional level 
possible. However, when both local and state resources and capabilities 
are overwhelmed, states may request federal assistance. Given the 
circumstances following Hurricanes Katrina and Rita, LDEQ requested 
assistance from the EPA to help with several tasks related to 
management and disposition of hazardous materials and with 
environmental sampling and assessment.
    EPA and LDEQ, along with other federal and state agencies, 
coordinated to gather environmental samples, analyzed these samples, 
interpreted the results, and communicated the results to the public. 
Much of the sampling done was specifically tailored to address the 
concerns of local governments and the public in the areas affected by 
the hurricanes, as follows:

     A comprehensive investigation addressed the soils and sediments 
of the parishes that flooded; samples were analyzed for over 200 metals 
and organic chemicals. The study concluded there was no cause to 
anticipate any adverse health impacts to individuals, including 
children.
     Non-scientific catch phrases such as ``toxic soup'' and ``toxic 
gumbo'' used to describe flood waters in the impacted area raised 
public concern. The LDEQ and EPA conducted extensive sampling and 
determined that while the waters were unsanitary, they were not toxic 
and presented no long term health hazard. The agencies then issued a 
joint press release communicating to the public the analytical results 
and their conclusions.
     Fears about the safety of flood waters and Lake Pontchartrain led 
to fears about the safety of consuming seafood. Finfish and shellfish 
were sampled in Lake Pontchartrain, and in offshore and near shore gulf 
waters to confirm that seafood was safe to eat and no advisory against 
seafood consumption was warranted.
     Air sampling began immediately after Katrina and continued 
through November 13, 2005. Elevated concentrations of benzene were 
detected in the area affected by the release from Murphy Oil 
(Chalmette) shortly after Katrina; however, subsequent sampling showed 
results below screening levels. Particulate sampling (Orleans and St. 
Bernard Parishes) and air toxics (Kenner) found concentrations well 
below any level that would raise health concerns.
B. Planning for Permit Actions and Displaced Residents
    The emergency orders also provided special procedures for public 
notice and public participation regarding proposed permit actions in 
the emergency areas. These special procedures were designed to 
facilitate notice to the large number of residents displaced by the 
hurricanes, and included such measures as increasing the number of 
required newspaper advertisements, and the extension of public comment 
periods.
    Immediately following the hurricanes, the LDEQ deferred noticing of 
any environmental permits in affected parishes until a reasonable plan 
could be devised. A comprehensive plan was developed by November 2005 
to provide for extra noticing of permits in parishes affected by 
hurricanes. That plan distinguished between 3 categories of impact and 
notice requirements. Amount of notice depended on how severe the damage 
was estimated to be and the percent of the population displaced. To 
widely disseminate the plan, the LDEQ issued notices in the State 
Register, The Advocate, and on LDEQ's public notice web page. The LDEQ 
sent the plan to the members of the Environmental Justice Interagency 
Taskforce (EJIT) group that was spearheaded by EPA Region 6.
    Public notice and comment procedures were designed to vary 
according to the categorization of the parish in which the facility 
with the permit activity was located. The LDEQ evaluated all affected 
parishes according to all relevant factors, including but not limited 
to the following, to arrive at 3 different categories:

    1. newspaper circulation rates (both paid subscriptions and free 
distribution), comparing pre-hurricane with then-current rates
    2. basic services - power, potable water, and sewage treatment
    3. local government approval for residents to return for long-term 
habitation
    4. number of open schools
    5. availability of locations to serve as document repositories and 
in which to conduct public hearings should they be requested
    6. condition of roads

    Parishes were identified as Category 1 when newspaper circulation 
rates and basic services had been restored to at least 90 percent of 
pre-hurricane levels, the parish was open for long-term habitation, and 
public schools had resumed operation. Initially, this category included 
the following 27 parishes: Acadia, Allen, Ascension, Assumption, 
Beauregard, East Baton Rouge, East Feliciana, Evangeline, Iberia, 
Iberville, Jefferson Davis, Lafayette, Lafourche, Livingston, Pointe 
Coupee, St. Charles, St. Helena, St. James, St. John, St. Landry, St. 
Martin, St. Mary, Tangipahoa, Vermilion, Washington, West Baton Rouge, 
and West Feliciana.
    In Category 1 parishes, the LDEQ continued to implement the public 
notice procedures in place before the hurricanes. That included 
publication in the required newspapers, sending notice to individuals 
on the LDEQ's permits mailing list, placing notice on the LDEQ web 
page, and sending electronic notice to individuals who have registered 
to receive notices in this manner. The LDEQ Public Participation Group 
(PPG) used its knowledge of newspaper distribution rates and patterns 
to determine if the notice should be placed in more than one local 
newspaper. Some permit procedures required notice to also be placed in 
the official state journal, The Advocate.
    Parishes identified as Category 2 when newspaper circulation rates 
and basic services had been restored to at least 50 percent of pre-
hurricane levels, the parish was open for long-term habitation, and 
public schools had resumed operation. Initially, parishes in this 
category were St. Tammany, Jefferson, Terrebonne, Calcasieu, and 
Plaquemines. In Category 2 parishes, the LDEQ followed the same 
procedures provided for Category 1, with the addition of the following: 
Notices were placed in The Advocate to identify the permits placed on 
public notice for the previous week, sorted by parish. These notices 
clearly identified the electronic web link to view the public notices 
and gave the phone number to call to request additional information or 
to find out where documents might be reviewed locally.
    Category 3 parishes were the most severely affected parishes. Any 
parish not meeting all of the criteria for Category 2 were considered 
Category 3. As of this date, the parishes in this category are Cameron, 
Orleans, and St. Bernard. In Category 3 parishes, the LDEQ follows the 
same procedures as for Category 2, with the addition of the following:

    1. Comment periods will be extended a total of 15 extra days.
    2. Notices will be published twice in the selected newspaper(s).
    3. An additional newspaper will be selected in which to publish the 
notices. This will be the newspaper with the largest circulation in a 
parish that physically adjoins the parish in which the facility is 
located.
    4. If not already required to do so, the LDEQ will publish notices 
in The Advocate, the official state journal.

    When arranging public hearings to solicit comments regarding 
permitting activities, the LDEQ will work with stakeholders to find 
suitable hearing site locations.
    The plan was revised in October 2006, based on reevaluation of 
newspaper circulation, population reestablished, availability of public 
services, etc. The LDEQ continues to provide additional public notice 
procedures today. The dislocation of residents and the damage to 
infrastructure in the emergency areas has affected the ability of the 
LDEQ to solicit and receive comments on proposed permit actions. The 
procedures detailed above are intended to address these issues in a 
manner that offers the opportunity for meaningful public participation 
and that meets the requirements and intent of the state and federal 
permitting statutes and regulations.

                       V. WHAT DID NOT WORK WELL

    Although, as noted above, federal, state, and local government 
agencies worked well together in the aftermath of the hurricanes to 
address the majority of response and recovery activities, no clear 
guidelines or references existed on how to provide regulatory 
flexibility for actions predictably necessary for an effective and 
efficient response to this level of disaster. Many of these actions, 
including the need for multi-level government collaboration, could have 
been anticipated. Forethought and coordination before the event could 
have significantly reduced the amount of resources necessary and the 
time frame for efficient government action.
    The LDEQ had certain expectations when faced with the unprecedented 
events caused by the two hurricanes. It shared the expectations of its 
government partners that cooperation and coordination would be 
hallmarks of any successful response and recovery plan and its 
implementation. The lessons learned from Hurricanes Katrina and Rita 
and Louisiana's subsequent preparation for the 2006 hurricane season 
lead LDEQ to suggest that further steps be taken to prepare all regions 
of the country for the possibility of a natural or man-made disaster.
A. The time it took (6 MONTHS) to work out regulatory flexibility for 
        various issues, such as the asbestos NESHAP
    Shortly after Hurricane Katrina made landfall and the extent of the 
devastation became apparent, LDEQ recognized that it needed to 
coordinate with the EPA on potential National Emission Standards for 
Hazardous Air Pollutants (NESHAP) requirements regarding asbestos. On 
September 7, 2005, while New Orleans and parts of St. Bernard parish 
were still under water, LDEQ staff made inquiries of EPA Region 6 
regarding burning construction and demolition debris not susceptible or 
that otherwise would be inspected as required by the asbestos NESHAP 
regulations.
    Subsequently, acting upon the advice of personnel from EPA Region 
6, on September 22, 2005, LDEQ requested a No Action Assurance (NAA) 
from the asbestos NESHAP for Hurricane Katrina recovery efforts. The 
request concerned inspection and demolition of residential structures 
and the potential burning of hurricane related and demolition debris 
that could possibly contain incidental asbestos.
    In an effort to quantify the potential scope of the asbestos issue 
in recovery efforts, LDEQ staff, using in part US Census data for the 
impacted area, derived estimates of the possible number of residential 
structures that could reasonably be expected to contain asbestos, based 
in a large part to the age of the home. The results of this estimate 
raised the concern that there would not be enough trained asbestos 
inspectors available to staff near-term demolition activities.
    In preparing the September 2005 NAA request, LDEQ also reviewed 
state and federal regulations and available EPA guidance. Available EPA 
guidance did not address either the extent of the devastation or the 
unique circumstances surrounding Hurricane Katrina's aftermath. The NAA 
request indicated that the inspection, segregation, and disposal steps 
set forth in EPA's guidance documents would take years to complete; 
meanwhile, the uninhabitable buildings would continue to pose 
significant health and safety concerns. LDEQ was also concerned that 
landfill capacity in the immediate area would be insufficient to handle 
the estimated volume of debris generated by the storms and the 
resultant recovery efforts.
    Further complicating the debris issue, the New Orleans area has a 
large and destructive Formosan termite infestation. To prevent further 
spread of this termite, the Commissioner of the LDAF issued a 
quarantine on the movement of any wood or cellulose products from 
certain parishes unless it has been fumigated or otherwise treated for 
Formosan termites and the movement is approved by the Commissioner or 
the Commissioner gives written authorization for untreated material to 
be moved from the named parishes. Therefore, disposal of the 
construction and demolition debris in landfills outside of the affected 
parishes would require treatment with pesticides under the State 
Quarantine Order designed to prevent the spread of the Formosan termite 
to less-infested areas.
    In its NAA request, LDEQ outlined a set of demolition and disposal 
practices for the New Orleans area designed to remove uninhabitable 
structures in an expeditious manner while minimizing public health and 
safety risks. By adopting the practices outlined in its request, LDEQ 
estimated that the New Orleans area could be free of debris within six 
months.
    Then Hurricane Rita struck southwest Louisiana, adding its 
destruction to a state already reeling from a devastating blow.
    On October 21, 2005, an NAA was issued by EPA headquarters. This 
NAA acknowledges:
    The flooding of the City of New Orleans and nearby communities 
following Hurricanes Katrina and Rita poses particularly difficult 
challenges for recovery and reconstruction efforts. Louisiana estimates 
that the hurricanes and floods left as many as 260,000 homes 
structurally unsound or otherwise uninhabitable. The State believes as 
many as 170,000 of these structures, a significant fraction of which 
are residences, may contain asbestos, lead paint, or other hazardous 
materials. The volume of debris from the demolition of these structures 
plus other debris from the hurricanes and floods is overwhelming.
    In its October 2005 NAA, EPA offered the following response:

    EPA at this time is exercising its enforcement discretion to grant 
LDEQ a no action assurance for the federal asbestos NESHAP for limited 
demolition and disposal of asbestos-containing waste material in the 
parishes noted above, in support of parametric evaluation burns, as 
further described below. To qualify for the no action assurance, those 
activities must be carried out in accordance with the LDEQ guidelines, 
Appendix B to this letter (concerning parametric evaluation burns), and 
the conditions set forth in the attached document entitled ``EPA's 
Conditions For Granting A No Action Assurance And Associated 
Recommendations For LDEQ Asbestos Demolition And Disposal Procedures 
For Jefferson Parish, Orleans Parish, Plaquemines Parish And St. 
Bernard Parish In The Aftermath Of Hurricane Katrina And Hurricane 
Rita.'' The conditions are also accompanied by recommendations. As a 
further condition of this no action assurance, LDEQ must take all 
necessary steps to prevent or minimize any increased risk to human 
health and safety. At this time, the no action assurance does not 
extend to any other federal requirements that may apply to the limited 
demolition and disposal of asbestos-containing material in support of 
the parametric evaluation burns or to any other demolition and disposal 
of structures in the New Orleans area under the State's proposed plan.

    The NAA was of limited duration and scope:

    This no action assurance will extend for a period of 6 months from 
the date of this letter and will only apply at present to demolition 
and burning carried out for purposes of Appendix B. After completion of 
Appendix B and evaluating the data, EPA may provide, as appropriate, a 
written notice to LDEQ that the no action assurance is being extended 
to further demolition and burning, subject to the conditions outlined 
in the attachment. As part of that evaluation, EPA will also consider 
whether the no action assurance should extend to other federal 
requirements that may apply to the demolition and disposal of 
structures in the New Orleans area under the State's proposed plan. 
Prior to the expiration date, the situation will be reviewed to 
determine if this no action assurance and accompanying conditions need 
to be modified or revoked. This no action assurance applies only for 
the specified activities in the parishes noted above.

    As the ACD burn test project was being developed after the October 
2005 NAA, LDEQ began development in November 2005 of a protocol for 
compliance with its asbestos LESHAP regulations.\10\ In January 2006, 
LDEQ forwarded a draft ``LDEQ Protocol to Comply with the NESHAP and 
LESHAP Regulations'' to EPA.
---------------------------------------------------------------------------
    \10\As a delegated program, LDEQ had adopted asbestos regulations 
which in most cases mirror the Federal language, but which are in some 
areas more stringent.
---------------------------------------------------------------------------
    As a result of EPA and LDEQ work on this protocol and extensive 
discussion of the issues, which included a joint LDEQ/EPA Region 6/EPA 
Headquarters meeting in Baton Rouge, EPA issued an NAA on February 3, 
2006. This NAA provided regulatory flexibility as follows:

    residences that are subject to a government issued demolition order 
based on the residence being 1) structurally unsound but not 
necessarily in danger of imminent collapse, or 2) moved off of its 
foundation, to be treated as though the demolition order is based on a 
determination that the house is structurally unsound and in danger of 
imminent collapse. Under section 61.145(a)(3) of the asbestos NESHAP 
regulation, buildings subject to a government issued demolition order 
based on a determination that the building is structurally unsound and 
in danger of imminent collapse are not subject to otherwise applicable 
requirements for inspection and removal of asbestos prior to 
demolition.'' The effect of the February 3 No Action Assurance allowed 
residences subject to government issued demolition orders based on the 
structures being unsound or moved off their foundations to be 
demolished and disposed of in accordance with the streamlined 
requirements of section 61. 145(a)(3).
    The NAA further allowed this determination to be made for groups of 
structures (i.e. blocks or subdivisions). This NAA was effective for 
twelve months from the date of issuance.
    On February 24, 2006, EPA extended the February 3, 2006 NAA as 
follows:

    the February 3, 2006 No Action Assurance to residences that are 
subject to government issued demolition orders because they are 
uninhabitable for other environmental reasons (e.g., from excessive 
flood damage rendering the home uninhabitable). Under this No Action 
Assurance, as under the February 3 action, such residences may be 
treated as though they are subject to government issued demolition 
orders based on a determination that they are structurally unsound and 
in danger of imminent collapse and thus subject to section 61.145(a)(3) 
of the asbestos NESHAP regulation. In other words, LDEQ, the [Corps], 
local governments, or persons acting under direction of any of these 
governmental entities, may apply to such residences the NESHAP 
requirements governing buildings that are "structurally unsound and in 
danger of imminent collapse." As noted above, for such buildings the 
asbestos NESHAP dispenses with prior inspection and removal of asbestos 
but requires notification and proper handling, transport and disposal. 
EPA is taking this action because it recognizes the necessity of 
addressing a number of residences not covered by the earlier No Action 
Assurance, but in need of expeditious demolition and removal.
    The February 24, 2006 NAA also extended the NAA coverage to local 
governing bodies and indicated that ``since the enhanced C&D landfills, 
as well as Louisiana's permitted Type I and Type II landfills are 
required by Louisiana to either meet or exceed federal disposal 
standards under the NESHAP, EPA will defer to the State to set disposal 
location priorities.'' EPA also indicated that ``our staffs are 
revisiting the use of Air Curtain Destructors and grinders as means of 
debris volume reduction to further assist in addressing the lack of 
adequate landfill space.''
    In a letter dated March 1, 2006, EPA indicated that the ``LDEQ 
Protocol to comply with the LESHAP Regulations'' was consistent with 
NESHAP regulations and/or the NAA letters of February 3 and February 
24, 2006. At this time, LDEQ, local governments, and federal partners 
finally had a consolidated roadmap for demolition and recovery efforts 
as they pertained to the asbestos NESHAP. Recovery work was able to 
move forward.
    The length of time necessary to obtain the NAA from EPA resulted in 
unnecessary delays in the recovery. The need for EPA guidance and/or 
assurance as to the asbestos NESHAP's application was foreseeable, 
given the inevitability of a disaster to a heavily populated area, 
whether from hurricane, earthquake, tornado, flood, or other causes.
B. Lack of Clear Guidelines for Use of Tools/Methods To Meet Disaster 
        Needs
    No federal guidelines existed regarding use of tools and methods to 
manage hurricane or other disaster related debris. For example, due to 
the amount of debris, the LDEQ considered burning as a possible method 
for managing some hurricane generated C&D debris. However, upon 
consultation with EPA, several issued were raised, including but not 
limited to the asbestos NESHAP.
    The LDEQ attempted to work with EPA and FEMA to conduct a test burn 
of C&D material to gather appropriate data and information to support 
fact based decision making. The scope of the test burn was expanded 
exponentially over time, and in the final discussions, no funding 
source was available to conduct the burn as designed.
    The scale of the combined disasters caused by Hurricanes Katrina 
and Rita only highlights the need for a variety of debris management 
tools and methods that both state and federal partners can agree are 
protective of public health, safety, and welfare and the environment in 
advance of the next disaster.
C. Lack of Coordination in Granting Regulatory Flexibility
    Since the issuance of the emergency orders, an issue has been 
raised that the following authorizations of unpermitted water 
discharges may violate the Clean Water Act:

    1. discharges from potable drinking water plants,
    2. discharges from temporary housing, and
    3. discharges from debris management sites.

    As noted above, people in a disaster area must have drinking water, 
sanitary facilities, shelter, and fuel.
    EPA advised the LDEQ to use its enforcement discretion, i.e., give 
no action assurances, rather than authorize the discharges. Although 
the no action assurance manifests the agency's determination not to 
prosecute violations, it does not provide relief or protection from 
potential citizen suits and other third party suits.
    Furthermore, EPA has an interest where federal programs are 
implicated, such as Clean Air Act, Clean Water Act, and RCRA programs, 
when the state has been delegated program authority. The LDEQ was able 
to provide necessary regulatory flexibility to respond to the emergency 
through its emergency orders, but could offer no relief or assurance 
from similar federal requirements or the threat of overfiling by EPA. 
Regardless of the type of environmental regulatory authority in place, 
in the aftermath of a disaster, the public has a right to expect that 
those with authority will work together in a coordinated way to make 
decisions protective of human health and the environment and that the 
public can rely upon the regulatory flexibilities provided through a 
rational process of decision making that takes into account the 
practical needs of those in the disaster area.
D. Lack of Coordination, Blurring of Lines of Responsibility
    FEMA, EPA, LDEQ, and the Corps were all members of the debris 
mission task force, as noted previously in the Debris Mission Task 
Force section. The LDEQ expected that agencies would implement their 
portion(s) of the debris management plan or other response and recovery 
activities, and that deference in environmental matters would be given 
to environmental agencies. As a result, the LDEQ did not expect that 
FEMA would independently attempt to reevaluate receipt of hurricane 
debris at Gentilly Landfill, after the EPA and the LDEQ had approved 
that site for receipt of such debris. EPA and LDEQ were the debris 
mission partners with responsibility for environmental considerations 
and compliance at hurricane debris disposal sites, and the LDEQ had 
approved the site operation plan, with EPA's concurrence.
    This unexpected insertion by FEMA into a smoothly running 
collaborative process caused direct, foreseeable impacts, not least of 
which was the need for both LDEQ and EPA to commit resources to 
addressing the various levels of concern expressed by the public, 
media, regulated community, and government, including this very 
committee, that understandably arose.
    One example of the detrimental consequences of violating this 
principle occurred with regard to the approved use of Gentilly Landfill 
to receive hurricane related C&D debris. The LDEQ issued a standard 
permit to Gentilly on December 28, 2004. LDEQ then issued an emergency 
authorization to the facility to start receiving hurricane related C&D 
debris on September 29, 2005. Shortly thereafter, the Corps began 
sending a substantial amount of C&D debris to this facility.
    At FEMA's request, EPA performed an investigation and analysis 
concerning the potential federal CERCLA liability for use of the 
Gentilly Landfill and issued a memorandum November 11, 2005, Exhibit 
11. In EPA's opinion, the use of this facility to receive hurricane 
related C&D waste would impose no CERCLA liability on FEMA. The memo 
offered ``recommendations for current usage of the landfill to avoid a 
release of hazardous substances that would necessitate a superfund 
response.'' EPA's findings and conclusions were consistent with the 
prior study performed by the licensed engineering firm of EE&G, the 
Corps' subcontractor.
    Without discussion or consultation with or notice to its debris 
mission partners LDEQ and EPA, FEMA commissioned a study by National 
Infrastructure Support Technical Assistance Consultants (NISTAC) to 
examine the potential impact by the Gentilly Landfill on the 
environment due to its use as a C&D landfill to receive hurricane 
related C&D debris. NISTAC's draft report concluded that FEMA could be 
exposed to high risk of future environmental liability based on current 
conditions and environmental history of the Gentilly site.
    Time and effort was required by both LDEQ and EPA, first to review, 
then to consult together, and finally to refute the findings of the 
draft NISTAC report prematurely released. See Exhibit 18, February 16, 
2006 LDEQ press release entitled ``DEQ refutes claims in FEMA report 
concerning Gentilly Landfill.'' These expenditures reduced the 
resources available to focus on priority debris mission and other 
tasks.
    Based on the never finalized NISTAC report, FEMA instructed the 
Corps to limit the amount of debris sent to Gentilly Landfill on a 
daily basis to 5,000 cubic yards per day, which resulted in a 
substantial reduction from daily intake at the facility. Reduction of 
the amount of debris sent to Gentilly Landfill potentially had the 
following impacts: increased time, distance, and expense for disposal.
E. Illegal Dumping Has Gotten Worse
    The volume of hurricane related debris from the two storms, 
combined with congestion at the facilities approved to receive such 
debris, and volume limits imposed unilaterally by FEMA have likely 
contributed to an increase in illegal dumping, including illegal 
dumping at night. The LDEQ, although receiving an increased number of 
complaints about such dumping, had and has insufficient resources to 
provide adequately secure surveillance activities. The impact of the 
2005 hurricane season exacerbated what was already a shortfall of 
resources to deal with illegal solid waste disposal statewide.
    Solid waste issues for illegal dumping are mainly the province of 
local governments. Traditionally, LDEQ field inspection services in the 
area of solid waste focus on permitted landfills. However, complaints, 
including those concerning illegal dumping, are investigated as logged 
into the LDEQ's Single-Point-of-Contact system.
    In construction and demolition activities, as with most business 
operations, time means money. The increased waiting time at local 
landfills and landfill operating hours contributed to increased illegal 
dumping; piles of C&D debris were discovered within a short distance of 
the landfills' entrances.
    Added to the commercial or business factors fostering increased 
illegal dumping were factors that may contribute to illegal dumping by 
individuals. With the discontinuation of curbside waste pick-up, 
residents returning to the area faced several challenges, including the 
following: (1) local governments set time frames to gut or demolish 
homes; (2) the uncertainty of programs to assist with rebuilding costs 
or needs; (3) the uncertainty of the return of utilities or development 
to certain areas; and (4) the high cost of contractor work, including 
demolition and debris removal.
    Because of the loss of basic city services necessary for public 
health and safety, available local government resources were focused 
first on restoring those services. The loss of a police presence in 
various areas resulted in increased illegal activities, creating a 
security concern for surveillance personnel, especially for night 
surveillance in largely uninhabited areas where illegal dumping occurs. 
As illegal solid waste dumping has increased, it has become a serious 
threat to human health and the environment--LDEQ investigators have 
discovered illegal disposal of asbestos waste, medical and veterinary 
products, white goods, and remnants of car crushing operations, etc., 
in the hurricane affected areas.

                    VI. RECOMMENDATIONS AND REQUESTS

A. National Plan or Guidelines for Regulatory Flexibility for Emergency 
        Response
    EPA, in consultation with state agencies and appropriate federal 
agencies, should develop a national plan or guidelines that provides 
for environmental regulatory flexibility and debris management 
necessary to respond to emergencies. At a minimum, this plan should 
provide for a process to obtain and provide authorization of activities 
necessary to respond to the emergency that would normally require a 
permit from the state environmental agency or the EPA. Even more useful 
would be a plan that includes agreed processes, tools, methods, 
guidelines, etc. This would require all affected agencies reaching 
consensus together before the disaster occurs.
    Regulatory flexibility would include guidance or instructions for 
achieving compliance under disaster conditions or relief from 
compliance and how to obtain it. Reporting requirements, for example, 
are typically extended or waived when the communication infrastructure 
has been affected or there has been an evacuation or substantial 
damage.
    The LDEQ suggests, based on its recent experiences, that the 
following areas be included, at a minimum, in the national plan/
guidelines to achieve consistency in federal and state disaster 
responses and to clarify public expectations in environmental matters:

     authorization of necessary water discharges, e.g., from potable 
water treatment plants and temporary housing locations;
     requirements imposed on hurricane debris management sites;
     selection criteria for debris management sites;
     environmental evaluation methods and tools (including, e.g., 
sampling protocols); and
     demolition and disposal operations' compliance with the asbestos 
NESHAP, etc.
    The plan or guidelines should also address the tools and methods 
appropriate for debris management, such as land disposal, chipping, 
grinding, recycling, and burning. There should be studies of these 
various debris management tools, including funding to cover the cost of 
testing to establish the most efficient methods of disposal of disaster 
related debris, e.g., trial burn of construction and demolition debris, 
to properly evaluate burning as a tool for disposal. Accordingly, the 
LDEQ recommends that funding be made available to properly evaluate the 
various debris management tools, including assessment of burning as an 
option for management of disaster related C&D debris. All necessary 
agencies should participate to develop the consensus on each tool's 
appropriateness for use. As new technologies and tools become 
available, they should also be evaluated and incorporated into the plan 
or guidelines as appropriate.
    Determination of anticipated emergency response and recovery needs 
for regulatory flexibility while protecting human health and the 
environment would allow better utilization of resources, avoid delay, 
and speed recovery.
B. Lines of Authority and Tasked Responsibility Should Be Respected
    Federal emergency management processes and authority should respect 
to the maximum extent possible (i.e., unless national security is at 
issue) decisions and determinations made jointly by federal and state 
agencies with jurisdiction over human health and the environment. 
Specifically, on environmental issues, non-environmental agencies 
should defer to environmental agencies who have the primary 
responsibilities for environmental protection and are staffed and 
equipped to provide that protection even in an emergency. Environmental 
agencies, as a matter of routine, must be prepared for and respond to 
environmental emergencies.
    The LDEQ recommends that the principle of respect for lines of 
authority and task assignments be incorporated in a meaningful way in 
the national emergency management process. Concerns by one or more 
agencies outside the area of authority or task force should be raised 
and left with the authorized and/or assigned agency/agencies. Allowing 
an agency outside the process to interfere with the mission or task 
promotes confusion and inefficiency and could have serious adverse 
consequences.
C. Physical Security for Environmental Priorities
    The federal mission should encompass funding for physical security, 
including armed escort, for necessary and/or priority investigation of 
threats to human health and the environment by federal and state 
agencies with jurisdiction thereof, in a disaster area throughout the 
response and recovery phases. As discussed above, assistance can 
quickly become critical to combat environmental priorities, such as 
curbing illegal dumping. The loss of effective law enforcement presence 
in a disaster area leads to increased problems, including increases in 
illegal solid waste dumping that can pose a serious threat to human 
health and the environment.
    By maintaining a visible law enforcement presence in the locations 
impacted or most likely to be impacted, illegal dumping can be 
effectively suppressed in disaster and recovery areas. Tools such as 
arrest and seizure and forfeiture of equipment used in the illegal 
dumping will serve as deterrents as word is quickly spread to the 
community that illegal dumping is not tolerated.
    Because the amount of money that an illegal dumper stands to gain 
or save can be significant, civilian authorities (LDEQ inspectors) are 
placing themselves literally into the line of fire with the illegal 
dumper, especially if the inspector finds himself or herself alone at 
night confronting several dumpers at one time.
    Although the LDEQ has a small criminal investigations unit of five 
commissioned officers, it would be impossible to field operations for 
extended periods due to officer fatigue and safety concerns. Additional 
resources are therefore necessary to provide security needs for LDEQ 
surveillance to combat the increased illegal dumping.
    [Note: Exibits 1--38 to the written testimony of Mike McDaniel can 
be found in Committee files.]

STATEMENT OF REVEREND VIEN THE NGUYEN, PASTOR OF THE MARY QUEEN 
                       OF VIETNAM CHURCH

    Mr. Ngyuen. Madame Chair and members of the committee, 
thank you for the opportunity to be here. My name is Reverend 
Vien Nguyen. I'm pastor of Mary Queen of Vietnam Church in New 
Orleans East. I also speak on behalf of the citizens for a 
strong New Orleans East, a coalition that includes 32 
homeowners' associations in New Orleans East that came together 
in response to the debris handling post Katrina. So in my 
reference to community, whenever I make that reference, I mean 
both that church and the Citizens for a Strong New Orleans 
East.
    One of the Senators here expressed an interest in knowing 
what is the recovery rate, how have we returned. At least in 
the Vietnamese-American community in New Orleans East, our 
recovery rate at this point is between 84 to 89 percent 
returned. Our businesses have returned at 85 percent more than 
6 months ago, and we are expecting within 2 to 3 months we can 
say: It's done, it's over. So that started early on, within 3 
or 4 weeks. Our church attendance was already at 1,600 per 
weekend.
    Now, in the midst of the bustling recovery and return and 
unbeknownst to our community the Chef Menteur landfill was 
created. And so that you will understand how the landfill is 
situated. It is separated from Bayou Sauvage National Wildlife 
Refuge, the largest urban wildlife refuge in the continental 
U.S., by an 80-foot canal by the name of the Maxent Canal. That 
Maxent Canal is connected to the Maxent Lagoon directly that 
runs through the heart of our community and from those, both 
the canal and the lagoon. Our people have been fishing. Our 
people have been using water to water their gardens for the 
last 30 years, 31 years. And not only for their own consumption 
but also for the wider community where they sell the surplus at 
the farmer's market for the last 31 years. And when the water 
came in and breached the intracoastal levee, it flooded the 
landfill area for 2 months and remained there for 2 months. And 
then unable to overtop Chef Menteur landfill, it went through 
the canal, through the lagoon and flooded us.
    Now, we were told that we should feel safe because DEQ had 
already determined that it's C&D that they are going to put in 
there. Well, we found out later it was enhanced C&D that 
included treated wood, drywalls that when in touch with water 
would create hydrogen sulfide, all of these things. And we 
ourselves, as we gutted our homes, and saw how things were 
being picked up, debris were being picked up, we can't trust 
that assurance from DEQ. But our concerns were dismissed. We 
asked for a lined landfill with leachate monitor. We were 
dismissed, all of that, all together.
    But what we have learned in this process is that we were 
not the only community that experienced that. Oakville, this 
historic African-American community, has the same type of 
landfill but for the last 18 years 50 feet from their yards and 
at times the landfill collapsed and fell into people's yards.
    And so with all of these concerns in mind, if I may present 
some recommendations that the citizens of Louisiana request the 
establishment of and participation in a multi-stakeholder 
committee which will include environmental experts and 
community leaders. The committee will also act as a Federal 
advisory committee to address problems brought forth in today's 
hearing in disaster debris issues. It will also identify 
solutions towards creating a comprehensive waste management 
plan that includes regional waste planning for flood-prone 
communities and a plan that promotes recycling, reusing and 
reducing technology.
    We ask that the Senate ask the EPA and the Army Corps of 
Engineers' Inspector Generals for Federal investigation into an 
evaluation of Federal and Federally-related responses to debris 
removal in emergency siting issues.
    There are several other recommendations that I presented in 
writing, but may I add also that we request the full closure 
and cleanup of waste deposited at the Chef Menteur landfill, 
any of its environmental releases and its contaminated soil and 
waters. Thank you.
    Senator Boxer. Thank you, Reverend, you're very eloquent.
    Ms. Subra.
    [The prepared statement of Reverand Nguyen follows:]

  Statement of Reverend Vien The Nguyen, Pastor of the Mary Queen of 
                            Viet Nam Church

    Ms. Chairman and members of the committee, thank you for the 
opportunity to submit this written testimony on Hurricane Katrina 
debris removal and related matters. My name is Reverend Vien The 
Nguyen, pastor of the Mary Queen of Viet Nam Church in New Orleans 
East. I am also speaking on behalf of the Citizens for a Strong New 
Orleans East (CSNOE), a coalition that includes 32 local homeowner 
associations originally established to respond to the dumping of 
Katrina debris in New Orleans East. Henceforth, the Vietnamese-American 
community in New Orleans East, the Mary Queen of Viet Nam Church, and 
the Citizens for a Strong New Orleans East will be referred to 
collectively as the community.

                             I. BACKGROUND

    Taking root after the fall of South Viet Nam in 1975, the 
Vietnamese community in New Orleans East centers on the Mary Queen of 
Viet Nam Church in an area known as Village de L'Est. Given that more 
than 60 percent of Vietnamese Americans in New Orleans pre-Katrina were 
Catholic, the Catholic churches serving them have long been the center 
of these communities and their activities. This is evident in Village 
de L'Est where, before Katrina, over 90 percent of more than four 
thousand Vietnamese Americans residing within a one-mile radius were 
Catholic.
    After Hurricane Katrina, the Mary Queen of Viet Nam Church became 
the center of return and recovery from which supplies and food were 
distributed to all families. Red Cross provided daily hot lunches on 
the church grounds, and medical mobile units provided healthcare to 
returnees. FEMA, Catholic Charities and other entities also used the 
church grounds to provide their services.\1\ The church became the main 
source for information, job postings, and temporary shelter for 
returnees while they rebuilt their homes. In addition, the church 
provided shelter for and coordinated more than 1000 volunteers from 
across the country to help with the post-Katrina cleanup of New Orleans 
East and parts of St. Bernard Parish. The church was also the center of 
the region-wide coalition Citizens for a Strong New Orleans East.
---------------------------------------------------------------------------
    \1\Cotton, Deborah. 26 Jan 2006 From the Ground Up: ``We are 
already back'': Vietnamese Church forges Ahead to Rebuild New Orleans 
East. Katrina Help Center.
---------------------------------------------------------------------------
    The church engaged in political intervention and advocacy. As a 
result, the community was able to successfully oppose the Bring New 
Orleans Back Commission's proposal to convert most of New Orleans East 
into green space. Furthermore, the church and FEMA reached an agreement 
to house 199 trailers on church grounds for free, and the church asked 
residents to sign a petition to request that Energy reinstate 
electricity in Village de L'Est. By the first weekend of November 2005, 
electricity, water and sewer services had returned. By that time, the 
number of returnees attending Sunday Mass had reached 1,600. At 
present, 84 percent-89 percent of Vietnamese American residents have 
returned, and 85 percent of Vietnamese-owned businesses have 
reopened.\2\ The Vietnamese-American community was the first community 
in New Orleans to unveil its comprehensive Development Plan on February 
3, 2006. This plan has since been fully incorporated into the New 
Orleans East Development Plan. It has also been integrated into the 
Unified New Orleans Plan.
---------------------------------------------------------------------------
    \2\LaRose, Greg. 02 Oct 2006 Asian businesses drive eastern N.O. 
recovery. New Orleans CityBusiness.
---------------------------------------------------------------------------
                       II. ENVIRONMENTAL THREATS

    In the midst of a bustling recovery and unbeknownst to the 
community, the Chef Menteur Landfill was created. This landfill is 
located in wetlands approximately 1.2 miles from the edge of the 
community (Exhibit A). It is separated from the Bayou Sauvage National 
Wildlife Refuge, the largest urban wildlife refuge in the continental 
United States, by the 80-foot wide Maxent Canal (Exhibit B, picture E). 
This canal is directly connected to the Maxent Lagoon that runs through 
the heart of Village de L'Est. When Katrina waters breached the levee 
along the Intra-coastal waterway, it completely flooded the area. The 
area remained inundated for 2 months.
    After flooding the landfill area and Bayou Sauvage National 
Wildlife Refuge, the water was unable to overtop the Chef Menteur 
Highway ridge. Instead, it traveled up the Maxent Canal into the Maxent 
Lagoon, flooding Village de L'Est. Vietnamese-American residents have 
been fishing from the Maxent Canal and use the water from it to water 
their gardens. The vegetables from these gardens have been a source of 
food for families as well as the entire community: residents sell their 
surplus produce at the weekly farmer's market established in the 
neighborhood over thirty years ago.
    Despite the fact that the community was already bustling with 
returnees and recovery work, residents learned about the establishment 
of the Chef Menteur landfill through the local newspaper, the Times 
Picayune. At the time, the community was told that the debris consisted 
of construction and demolition materials (C & D). It was later on that 
the Louisiana Environmental Action Network (LEAN) and the Sierra Club 
informed residents that the LDEQ had changed the definition of C & D to 
include household furniture, treated wood, asbestos-containing 
materials, and drywall wallboards.\3\ Research indicates that when 
gypsum from drywall boards comes in contact with water, it creates 
hydrogen sulfide in the process of deteriorating. Moreover, treated 
wood can produce arsenic when mixed with water.\4\ Research conducted 
by Dr. Paul Kemp has shown that the soil surrounding the Chef Menteur 
landfill is permeable--groundwater can seep up, mix with the waste, and 
potentially migrate off-site.\5\
---------------------------------------------------------------------------
    \3\Louisiana Department of Environmental Quality. April 2006. 
Justification for Utilization of Chef Menteur C&D Disposal Facility for 
the Disposal of Hurricane-Generated debris Facility. p. 7-8
    \4\Pardue, John. ``Anticipating environmental problems facing 
hurricane debris landfills in New Orleans East''. Louisiana Water 
Resources Research Institute, Louisiana State University.Obtained July 
2006 from the World Wide Web: http://lwrri.lsu.edu/downloads/white--
paper2006/white%20paper.final.draft2.pdf
    \5\Kemp, G. Paul. ``Geological Analysis of Chef Menteur Landfill 
Site, Orleans Parish, Louisiana. School of Coast & the Environment.''
---------------------------------------------------------------------------
    The community worked through their city council representative, 
Cynthia Willard-Lewis, to arrange a meeting with LDEQ and the 
representatives of Waste Management Incorporation (WMI). In these 
meetings, the community implored whether it was necessary to deposit 
debris at 16600 Chef Menteur Highway. They then requested the following 
protective measures:

    A. The facility be equipped with a synthetic liner and a system be 
established to monitor leachate;
    B. A process to be established to segregate debris in order to 
identify recyclable and reusable materials;
    C. Serious efforts to be made for reducing the waste stream so that 
what is deposited at the landfill would be minor and benign C & D 
debris;
    D. The footprint and profile of the waste pile be reduced to 
minimize the environmental, social, and health impacts on the 
community.

    The community's requests were dismissed. Both LDEQ and WMI 
continued to insist that it was necessary to deposit debris at the 
site, and that it was unnecessary to recycle or fear adverse effects 
due to the C & D designation. Because residents had already witnessed 
the removal of debris from their neighborhoods without efforts to 
segregate materials, residents refused to accept LDEQ and WMI's 
assurances. Temporarily suspending its recovery efforts, the Vietnamese 
American community came together with the Citizens for a Strong New 
Orleans East and LEAN to request an injunctive relief against the 
United States Army Corps of Engineers' authorization for WMI to work on 
the designated landfill at the United States Federal Court.\6\ The 
court ruled against the community, stating that it had not proved 
irreparable damage.
---------------------------------------------------------------------------
    \6\Louisiana Environmental Action Network vs. U.S. Army Corps of 
Engineers. U.S. District Court. Apr 2006. No. 06-2020.
---------------------------------------------------------------------------
    After filing a lawsuit in the U.S. Federal Court, we brought our 
case to the New Orleans City Council. The City Council unanimously 
decided to call on Mayor Ray Nagin of New Orleans to withdraw his 
Executive Order, which had suspended zoning ordinances and permitted 
the Chef Menteur dumpsite.\7\ With this resolution, we approached Mayor 
Nagin and the Director of Environmental Justice of the Environmental 
Protection Agency--Region 6, the Environmental Justice officer of the 
Department of Justice, and the Southern Christian Leadership 
Conference. The Mayor agreed to suspend dumping at the site for 72 
hours to allow experts from the city's Sanitation Department, WMI, and 
the community to test the waste pile. He promised to withdraw the 
Executive Order should toxic materials be found there.
---------------------------------------------------------------------------
    \7\Nagin, Ray. 14 Feb 2006. Executive Order CRN-06-03
---------------------------------------------------------------------------
    After engaging in negotiations with Waste Management to access the 
site, community experts\8\ and representatives were allowed to walk on 
the surface of the waste pile and take photographs. However, they were 
not allowed to touch any of the materials, as supervised by the 
Director of New Orleans Department of Sanitation, LDEQ and WMI 
employees. Although WMI employees reported they had combed the surface 
of the waste pile and placed a layer of dirt over the waste, community 
experts and representatives found medical waste, carpets, bedding 
materials, electronic equipment, treated wood, a full bottle of copy 
machine toner, a full bottle of automotive oil, paint cans that were 
either full or partially filled, and other unidentifiable liquid 
containers. In early May 2006, New Orleans was experiencing one of its 
worst droughts in a century but a constant flow of dark and filmy water 
was found at the bottom of the waste pile (Exhibit B, picture C). This 
water flowed into a trench leading to a pump that constantly discharged 
water to two earthen holding tanks, which later discharged into the 
Maxent Canal.
---------------------------------------------------------------------------
    \8\The community experts present at this preliminary investigation 
included Dr. John Pardue, the Director of the Louisiana Water Resources 
Research Institute and Professor at the Department of Civil and 
Environmental Engineering, Louisiana State University; Dr. Paul 
Templet, former Director of LDEQ and Professor at the Department of the 
Coast and Environmental Studies, Schools of Coast and Environment, 
Louisiana State University; and Wilma A. Subra, a microbiologist and 
chemist, and President of the Subra Company, Inc.
---------------------------------------------------------------------------
    Returning to the negotiating table, WMI and LDEQ required community 
experts to provide a written protocol within 72 hours. The experts 
complied. Their protocol demanded a true characterization of the waste 
pile, which involved digging a 50'x18'x3' trench, cataloguing the 
materials found, and dividing the materials equally between different 
teams of experts for independent testing. As an alternative to testing, 
WMI suggested taking an enclosed bus ride to observe two designated 
curbside debris removal sites and following the debris truck to observe 
its dumping at the landfill. Community members were not allowed to ride 
on the bus and filming was not permitted. LDEQ signed on to WMI's 
testing protocol. Community experts refused to participate. The issue 
became deadlocked.
    The community then brought its case to the Louisiana State Senate 
during a hearing by the Senate Environmental Committee in which a 
resolution calling for a true characterization and testing of the waste 
pile was approved. The resolution was forwarded to the Louisiana State 
House of Representatives Environmental Committee for a vote on whether 
the matter would be brought to the full floor. The Environmental 
Committee of the Louisiana House of Representatives voted to defer the 
matter to another time. It was the final pending item in the 
legislative session.
    New Orleans Senators and Representatives then introduced a 
resolution calling for a true testing of the Chef Menteur Highway 
landfill. With more than 500 phone calls placed by community members, 
the resolution passed unanimously in both the Louisiana State Senate 
and House of Representatives.\9\
---------------------------------------------------------------------------
    \9\Duplessis, Ann. Senate Concurrent Resolution 138
---------------------------------------------------------------------------
    The community and WMI agreed to mediation performed by the 
Environmental Justice of EPA Region 6 and the representative of the 
Whitehouse Initiative for Asian American and Pacific Islander Affairs. 
At the mediation, WMI refused to conduct meaningful testing and true 
characterization of the waste pile, even after the EPA offered to 
provide funding and have the testing conducted by independent experts. 
As of today, neither a meaningful testing nor a true characterization 
of the waste pile has been completed.
    After mediation failed, the community asked Mayor Nagin not to 
renew his Executive Order set to expire midnight on Monday, August 14, 
2006. Mayor Nagin indicated that he would not renew the order. In 
response to the Mayor's decision, and with much hesitation, LDEQ 
withdrew the authorization granted to WMI to operate the site. WMI 
later filed a lawsuit against LDEQ in Louisiana State Court. The 
hearing took place on Friday, August 11, 2006.\10\ At the hearing, LDEQ 
submitted a letter from the New Orleans City Attorney written on behalf 
of the Mayor indicating that the Mayor would not object if LDEQ were to 
continue its authorization. Using this letter as local clearance, LDEQ 
reversed its initial decision and declared that it would not terminate 
the authorization granted to WMI. On Saturday, August 12, 2006, Mayor 
Nagin publicly announced that he would not extend the Executive Order 
beyond the six month period and would instead issue a cease-and-desist 
order at midnight on Monday, August 14, 2006. WMI insisted that it 
would continue operating the site while seeking an injunctive relief 
against the Mayor's decision. In order to prevent WMI from continuing 
to dump, community members engaged in direct action by blocking the 
entrance to the landfill on the morning of August 15, 2006. On that 
same morning, a federal judge in the U.S. District Court ruled against 
WMI's injunctive relief plea. The 16600 Chef Menteur Highway landfill 
had been closed since that day.
---------------------------------------------------------------------------
    \10\Waste Management of Louisiana, LLC vs. LDEQ. 19th Judicial 
Court District Court. Parish of East Baton Rouge
---------------------------------------------------------------------------
                            III. CONCLUSION

    During our struggle against the Chef Menteur Highway landfill, the 
community has learned populations throughout the region are dealing 
with the same issues with Hurricane Katrina debris. These materials 
legally forbidden from being dumped directly into the ground were 
allowed to be so according to LDEQ's expanded definition of C & D 
debris. Furthermore, landfills have usually been created near minority 
communities which neither have the organization, the voice, nor the 
resources to fight for their rights to an equal, healthy environment. 
The Industrial Pipe Landfill in Oakville, Louisiana is a blatant 
example of this environmental injustice. The waste pile at this 
landfill is only fifty feet away from the edge of an historic African 
American community (Exhibit B, picture I). Flocks of seagulls 
constantly hover over the waste pile and fire has broken out more than 
once even though it supposedly only contains inert matters\11\ (Exhibit 
B, picture K). The 40' waste pile has occasionally collapsed and fallen 
into Oakville residents' backyards. The community has been fighting 
against this landfill for seventeen years to no avail. After Katrina, 
the Industrial Pipe Landfill took in storm debris which included rotten 
freezers and refrigerators (Exhibit B, picture J). Now, a horrible 
stench fills the air. Industrial Pipe's latest violation documents a 
fish kill of 5,000 by an illegal discharge of water. LDEQ has given no 
opportunity for a public hearing on the settlement of this issue 
(Exhibit F).
---------------------------------------------------------------------------
    \11\The latest fire burned for days after Katrina. 11 Apr 2006. 
Growing Landfill Fuels Feud in Plaquemines Community; Residents Cry 
Foul; ``Dump Defends Moves,'' Times-Picayune
---------------------------------------------------------------------------
    LDEQ's database reports that there are over 200 illegal dumpsites 
throughout the state. In addition to three major landfills in New 
Orleans East, there are also twenty-three illegal dumpsites and 
thirteen illegal automobile junkyards--all in the middle of the 
wetlands and many within sight of the official Old Gentilly Landfill 
(Exhibit B, picture A). The majority of these wastes documented range 
from commercial, household, and C&D waste. One illegal dumpsite, an old 
composting facility, has been burning for more than a year (Exhibit C). 
Throughout this 7,000 acre area of New Orleans East, landowners are 
rarely found onsite. The state agency thus at its best issues 
compliance orders and civil actions, but often has to reinvestigate and 
turn in another compliance order if the landowner has been evicted or 
has passed away.
    Although the Army Corps of Engineers has confirmed wetland 
violations and have taken recent actions to cease-and-desist 
operations, dumping still continues (Exhibit D). Just this past August, 
a hauling truck of CERES, a major contractor for debris removal under 
the Corps of Engineers, was found at an illegal dumpsite (Exhibit E). 
Before and after Katrina, the lack of enforcement by state agencies, 
local entities and the lack of a comprehensive solid waste management 
policy which strongly focuses on recycling, reusing, and reducing 
before dumping into landfills; and the absence of meaningful venues for 
community participation have all contributed to the grave environmental 
problems Louisiana has been facing and that hurricanes Katrina and Rita 
brought to the surface today.
    Hurricanes Katrina and Rita were natural catastrophes which wreaked 
a lot of unavoidable havocs. They become tragedies when people create 
additional avoidable harms to their communities and the environment. We 
believe that the U.S. Congress, beginning with the United States Senate 
Committee on Environmental & Public Works, can assist in reversing some 
of the avoidable harm caused.

                          IV. RECOMMENDATIONS

    With the above issues in mind, the community requests the following 
recommendations to move forward in disaster planning and to protect the 
quality of life for all residents in Louisiana:

    Recommendation 1: Citizens of Louisiana request the establishment 
of and participation in a multi-stakeholder committee which will 
include environmental experts and community leaders. The committee will 
also act as a Federal Advisory Committee to address problems brought 
forth in today's hearing on disaster debris issues. It will also 
identify solutions towards creating a comprehensive waste management 
plan that includes regional based planning for flood-prone communities 
and a plan that promotes recycling, reusing and reducing technologies.
    Recommendation 2: Citizens of Louisiana request that the Senate ask 
the EPA and the Army Corps of Engineers' Inspector Generals for a 
federal investigation into and evaluation of federal and federally-
related responses to debris removal and emergency siting issues of 
enhanced construction & demolition debris landfills. The Inspector 
General should also evaluate full compliance of the related laws 
regarding debris removal and disposal activities such as the Resource 
Conservation Recovery Act (RCRA), Clean Water Act (CWA) and protection 
of the wetlands. A multi-stakeholder committee should be established to 
review and evaluate this environmental compliance.
    Recommendation 3: Citizens of Louisiana request that the Senate ask 
the EPA and the Army Corps of Engineers' Inspector Generals for a 
federal investigation into and evaluation of federal and federally-
related responses to debris removal activities in illegal dumpsite 
operations that may violate the RCRA Act, CWA, protection of wetlands 
or other federal laws. It is our belief that contractors hired by the 
Army Corps of Engineers may have hauled debris to illegal dumpsites. A 
multi-stakeholder committee should be established to review and 
evaluate this environmental compliance.
    Recommendation 4: We request support from the EPA or USACE to work 
with the state to investigate the contents of illegal dumpsites, to 
help state agencies enforce and identify methods for remediation, and 
to prosecute, to the fullest extent under the law, parties responsible 
for illegal dumpsite operations, particularly those in New Orleans 
East.
    Recommendation 5: Citizens of Louisiana request Congress to do 
whatever is necessary to reimburse debris removal activities that focus 
first on reducing, recycling and reusing technologies. For example, 
Congress shall look into the reimbursement of deconstruction as a 
viable activity, and the reuse of clean wood.
    Recommendation 6: Citizens of Louisiana request the full closure 
and cleanup of waste deposited in the Chef Menteur landfill, any of its 
environmental releases, and its contaminated soil and waters.

    These recommendations are supported by the following organizations: 
All Congregations Together (ACT) of New Orleans, Louisiana Interfaith 
Together, Oakville Community Action Group, PICO National Network, 
National Alliance of Vietnamese American Service Agencies, MQVN CDC, 
the Louisiana Environmental Action Network (LEAN), the Sierra Club and 
National CAPACD.
    Thank you Senator Boxer, Senator Vitter, Senator Landrieu and 
distinguished members of the Committee. The community looks forward to 
working with all of you to create a safe and healthy Louisiana.

[GRAPHIC] [TIFF OMITTED] T3826.053

[GRAPHIC] [TIFF OMITTED] T3826.054

[GRAPHIC] [TIFF OMITTED] T3826.055

[GRAPHIC] [TIFF OMITTED] T3826.056

[GRAPHIC] [TIFF OMITTED] T3826.057

[GRAPHIC] [TIFF OMITTED] T3826.058

[GRAPHIC] [TIFF OMITTED] T3826.059

[GRAPHIC] [TIFF OMITTED] T3826.060

[GRAPHIC] [TIFF OMITTED] T3826.061

[GRAPHIC] [TIFF OMITTED] T3826.062

[GRAPHIC] [TIFF OMITTED] T3826.063

[GRAPHIC] [TIFF OMITTED] T3826.064

[GRAPHIC] [TIFF OMITTED] T3826.065

[GRAPHIC] [TIFF OMITTED] T3826.066


            STATEMENT OF WILMA SUBRA, SUBRA COMPANY

    Ms. Subra. Thank you for inviting me today. My name is 
Wilma Subra. I'm speaking on behalf of Louisiana Environmental 
Action Network, Subra Company and the Delta chapter of the 
Sierra Club. Following Hurricanes Katrina and Rita the 
Louisiana DEQ used their emergency authority to allow for the 
disposal of hurricane debris mixed with household hazardous 
waste, residential waste, industrial waste, commercial waste 
and hazardous waste in type three construction and demolition 
debris landfills. The type three landfills are not required to 
be lined and do not have leachate collection systems. LADEQ has 
stated that the hurricane debris waste streams disposed of the 
C&D landfills are relatively benign. However, the waste streams 
have been documented by scientific experts as being toxic and 
hazardous, not benign.
    The disposal of these various waste streams in the C&D 
landfills in the greater New Orleans area have resulted in 
environmental and human health impacts. The EPA has primary 
authority over air emissions and water discharges from the C&D 
landfill and the illegal dumps along the Almonaster corridor. 
The DEQ has delegated authority for air and water, but the EPA 
has the primary authority under the Clean Water and Air Acts. 
EPA has also authorized under RCRA, which this committee also 
has jurisdiction over, and these are the wastes that make up 
the major part of the C&D demolition debris waste that is being 
disposed of in both the C&D landfills and in the illegal dumps 
for those of you who flew over the area.
    EPA also has authority over Superfund which can be utilized 
to address the waste in the illegal dump sites along 
Almonaster.
    FEMA and the corps have exercised their jurisdiction, as 
you heard in the earlier panel, over collection contractors' 
disposal locations, quantity of waste and a whole host of other 
hurricane debris issues. Therefore, the hurricane debris issue 
falls under the jurisdiction of Federal agencies. The Federal 
agencies could be held responsible for inappropriate action on 
the part of the State agencies and should not be allowed to 
allow the State agencies to sidestep the Federal regulatory 
authority that results in negative impacts to human health in 
the environment.
    We would like to put forth these recommendations. The waste 
stream must be characterized and must be addressed in handling 
and disposal as it is characterized. It is necessary and 
crucial that all of those waste streams be characterized. They 
should also be required to be appropriately disposed of based 
on the characteristics, such as disposal in Subtitle D and 
Subtitle C landfills and not in the C&D landfills.
    EPA should develop more stringent siting requirements for 
debris management and disposal facilities that consider, as you 
have heard, flood plane, impact on flood protection systems, 
protection of water and air resources, protection of human 
health and the environment.
    We would like to propose this recommendation for debris 
management: Establish a regional based integrative waste 
management plan that provides for sufficient disposal capacity 
and waste management options on a regional basis in advance of 
natural disasters. The plan should comply with all regulatory 
requirements and not allow for the default to waivers.
    The current waste that is being handled at this time needs 
to be addressed in an increased monitoring of the debris for 
toxicity and hazardous components and proper disposal. You 
should also look at requiring DEQ to remove the authority to 
blend all those wastes together. The landfills and illegal 
dumps being used in the greater New Orleans area are 
hydraulically connected to the groundwater and surface water 
resources that you saw as you flew over the area. Gentilly 
landfill presented to you in figures 1 through 3 in your packet 
is currently accepting hurricane debris. The recommendation is 
that it be isolated, all of the waste in the Gentilly landfill 
be isolated from surrounding wetlands, surface and groundwater 
without negatively impacting the adjacent flood protection 
levels.
    At Chef Menteur that it accepted waste from April to August 
of 2006 and that a clean closure occur at the Chef Menteur, 
which is the one near Father Vien's community and that the 
evaluation of surrounding surface water and sediment. 
Industrial pipe, some of the members are here today as an 
African-American community of Oakville right up against the 
site, we recommend isolation of the waste and stop the impacts 
on human health and the environment in their community.
    And then the large number of illegal dump sites along 
Almonaster. 7,000 acres of wetlands is being dumped on. 
Industrial, commercial and hazardous waste are going in all of 
those dumps. And it's crucial for----
    Senator Boxer. I'm sorry. I going to have to ask to you 
wrap up.
    Ms. Subra. It's crucial for the committee to look at the 
authority of Superfund that the Environmental Protection Agency 
has to do assessments and use the Superfund regulatory process 
to remediate those locations. Thank you.
    [The prepared statement of Mrs. Subra follows:]

                Statement of Wilma Subra, Subra Company

                              INTRODUCTION

    My name is Wilma Subra and I am testifying on behalf of Subra 
Company, Louisiana Environmental Action Network (LEAN), and the Delta 
chapter of the Sierra Club. The organizations listed above want to give 
a special thanks to Joel Waltzer and Robert Wiygul of Waltzer and 
Associates for their assistance in preparing this testimony.
    Thank you for the opportunity to testify on the issues associated 
with the waste management of hurricane debris resulting from Hurricanes 
Katrina and Rita. I have been involved with solid and hazardous waste 
issues for more that 30 years and serve as a technical advisor to 
community groups on the issues of solid and hazardous waste, oilfield 
waste and superfund. I have served as Chair of the Louisiana Department 
of Environmental Quality (LADEQ) Solid Waste Advisors Subcommittee, 
Chair of the LADEQ Rules and Regulations Committee on Solid Waste 
Reduction and Recycling, Chair of the LADEQ Review Committee on 
Proposed Solid Waste Regulations, a member of the LADEQ Recycling and 
Solid Waste Reduction Committee, member of the EPA RCRA Remedial Waste 
Policy Advisory Committee, member of the EPA Permit Reform Committee, 
Vice-Chair of the State Review of Oil and Natural Gas Environmental 
Regulations, Technical Advisor to the National Committee on Superfund, 
Vice-Chair of the EPA National Advisory Council for Environmental 
Policy and Technology (NACEPT) and a member of the NACEPT Superfund 
Sub-committee, member of the EPA National Environmental Justice 
Advisory Council (NEJAC) and Chair of the NEJAC Gulf Coast Hurricanes 
Work Group.

        HURRICANE DEBRIS WASTE FROM HURRICANES KATRINA AND RITA

    The hurricane debris generated by the gutting of flooded homes 
through-out the impact zone contained sheetrock and insulation, 
furniture, treated and untreated lumber, municipal solid waste, 
household hazardous waste, electronic waste, asbestos and many other 
components. Louisiana Department of Environmental Quality allowed the 
waste to be disposed of in Type III Construction and Demolition 
Landfills. Type III landfills, unlike more protective Type II municipal 
waste landfills, do not have synthetic liners, collection systems for 
contaminated leachate, and systems for the collection of landfill gas 
(methane and hydrogen sulfide). Allowing disposal of C & D waste in 
unlined landfills has been based on the theory that this waste would 
not produce toxic leachate or gas emissions. This theory, as explained 
later in this testimony, has proven to be incorrect even with respect 
to ordinary C & D waste. It is certainly not true with respect to mixed 
hurricane waste.
    LAC 33:VII.721(C) provides the operational requirements and 
limitations for a Type III, or construction and demolition, landfill. 
LAC 33:VII.115 de-fines construction/demolition debris as 
``nonhazardous waste generally considered not water-soluble, including 
but not limited to metal, concrete, brick, asphalt, roofing materials 
(shingles, sheet rock, plaster), or lumber from a construction or 
demolition project, but excluding asbestos-contaminated waste, white 
goods, furniture, trash, or treated lumber. The admixture of 
construction and demolition debris with more than five percent by 
volume of paper associated with such debris or any other type of solid 
waste. . .  will cause it to be classified as other than construction/
demolition debris.''
    In the wake of Hurricane Katrina, the Louisiana Department of 
Environmental Quality used its authority to allow this banned materials 
to be placed in Type III landfills. The Declaration provided in section 
2.c. that ``Construction and demolition emergency debris that is mixed 
with other Hurricane-generated debris need not be segregated from other 
solid waste prior to disposal in a permitted landfill.'' An 
accompanying, ``Hurricane Katrina Debris Management Plan'' states that, 
``[m]aterials approved for receipt at [Type III] sites include roof 
shingles, roofing materials, carpet, insulation, wallboard, treated and 
painted lumber, etc.'' These definitions allow virtually any kind of 
hurricane debris to be placed at Type III landfills such as the 
Gentilly or Chef Menteur landfills, as long as they are mixed with C & 
D waste.
    A Second Amended Declaration of Emergency and Administrative Order 
issued by LADEQ on November 2, 2005, further changed the definition of 
the waste that could be deposited in a type III landfill such as 
Gentilly or Chef Menteur. Section 2.d. of this Declaration-which has 
been carried forward in each of the Amended Declaration of Emergency 
that have followed-provides that ``[u]ncontaminated construction and 
demolition debris may be disposed of in a permitted type III landfill 
or a site that has been authorized by the Department for such disposal. 
For purposes of this Or-der, construction and demolition debris shall 
be the materials indicated in Appendix D of this Declaration.'' 
Appendix D to the November 2, 2005-which again has been carried forward 
in each subsequent Declaration of Emergency-provides as follows:

    The following hurricane generated materials shall be allowed for 
disposal at a permitted construction and demolition debris (C&D) 
landfill or a Department authorized site:
     Nonhazardous waste generally considered not water-soluble, 
including but not limited to metal, concrete, brick, asphalt, roofing 
materials, sheet rock, plaster, lumber from a construction or 
demolition project, and other building or structural materials;
     Furniture, carpet, and painted or stained lumber contained in the 
demolished buildings;
     The incidental admixture of construction and demolition debris 
with asbestos-contaminated waste. (i.e., incidental asbestos-
contaminated debris that cannot be extracted from the demolition 
debris); and
     Yard waste and other vegetative matter.

    The following materials shall not be disposed in a construction and 
demolition debris landfill, but segregated and transported to a 
Department approved staging area for eventual management, recycling 
and/or disposal at a permitted Type II Landfill, unless segregation is 
not practicable:

     White goods
     Putrescible Waste

    (Emphasis supplied)

                   HURRICANE DEBRIS CHARACHTERISTICS

    As noted above, even materials ordinarily classified as C & D waste 
can result in substantial environmental impacts. A study contracted by 
the US EPA Office of Solid Waste, conducted a review of the 
characteristics of leachate generated by construction and demolition (C 
& D) waste landfills (ICF, Inc., 1994). This report found that C & D 
landfill leachate contained potentially significant concentrations, 
compared to drinking water maximum contaminant levels (MCLs) of 1 ,2-
dichloroethane, methylene chloride, cadmium, iron, lead, manganese and 
total dissolved solids (TDS).
    Studies performed in the hurricane Katrina and Rita impacted areas 
have confirmed the findings of the ICF study as well as expanded the 
areas of concern and toxic treats. In the study performed by Dr. John 
Pardue, Anticipating Environmental Problems Facing Hurricane Debris 
Landfills in New Orleans East (October 24, 2006-attached), the disposal 
of hurricane debris in the Gentilly and Chef Menteur landfills will 
cause three significant environmental impacts: toxic landfill leachate 
from the presence of house-hold hazardous waste in the hurricane debris 
stream, the potential for emissions of toxic reduced sulfur gases from 
the degradation of sheetrock and wall board, and the potential for 
leaching of arsenic from treated wood disposed of in the landfills. The 
disposal of house hold hazardous waste in unlined C & D landfills 
creates leachate that enters the groundwater and threatens the health 
and safety of the environment and those who live in the area. Household 
hazardous waste has been documented as being present in the hurricane 
debris disposed of in the Gentilly and Chef Menteur landfills. The 
degradation of sheetrock and wall board disposed of in C & D landfills 
will degrade and release hydrogen sulfide which will generate odors and 
cause toxic human health impacts. Large quantities of sheetrock and 
wall board have been disposed of as hurricane debris in the Gentilly 
and Chef Menteur landfills. Treated lumber has been documented as a 
significant component of the hurricane debris and that debris disposed 
of at the Gentilly and Chef Menteur landfills. The stormwater and 
landfill waters leach the arsenic from the treated wood and the 
contaminated waters create leachate that enters the groundwater.
    A recent study of hurricane debris in New Orleans performed by the 
University of Florida and published in Science News, February 3, 2007, 
Quantities of Arsenic-Treated Wood in Demolition Debris Generated by 
Hurricane Katrina (copy attached) confirmed the threat from arsenic 
treated wood waste. The study calculated that the chromate copper 
arsenate (CCA) treated wood disposed of as hurricane debris in 
Louisiana and Mississippi contained 1,740 metric tons of arsenic. The 
Environmental Protection Agency in 2004 banned the use of CCA as a 
treatment chemical in residential projects due to its toxicity. The 
disposal of CCA treated wood as hurricane debris in unlined landfills 
allows the arsenic to be leached from the treated wood and impact the 
landfill leachate and contaminate groundwater re-sources.
 federal regulatory authority over disposal of hurricane debris streams
    The hurricane debris waste streams with all of the non-C & D 
components were and continue to be disposed of in unlined Type III C & 
D land-fills (permitted and non-permitted) as authorized by the 
Louisiana Department of Environmental Quality. A substantial quantity 
of hurricane debris containing unknown amounts of hazardous materials 
are also being disposed of in illegal disposal (dump) areas along the 
Almonaster corridor in New Orleans East.
    The inappropriate disposal of toxic and hazardous chemicals in the 
Hurricane debris pose a threat to surface water and groundwater 
resources, air quality, and human health in the areas of disposal and 
ignores and is contrary to Federal regulations. Such inappropriate 
disposal can also result in sites that fall under Federal authority 
such as Superfund, CERCLA, and RCRA and will need to be addressed in 
the future with Federal funds.
     Solid waste collection, storage, treatment and disposal activities 
are regulated by State environmental agencies. The water quality and 
air pollution issues associated with solid waste storage, treatment, 
and disposal fall under the jurisdiction of the Federal Environmental 
Protection Agency. That authority is frequently delegated to the State 
environmental agencies with the EPA retaining oversight. In the case of 
the management of hurricane debris, a number of Federal agencies were 
responsible for making decisions that directly impacted the methods of 
debris collection, handling, and disposal locations that were used to 
dispose of the Hurricane debris. These Federal Agencies are FEMA, Army 
Corps of Engineers (404 Wet-land Permits, Collection Contractors and 
designated disposal locations), and the Environmental Protection Agency 
(incident commander directing response activities and monitoring 
hurricane debris issues).
    State agency activities that do not comply with Federally approved 
State regulations sidestep Federal regulatory authority, and results in 
a lack of consideration of human health and environmental impacts. The 
lack of monitoring and enforcement activities, and lack of 
consideration of long term impacts will lead to substantial detrimental 
impacts and establish in-appropriate precedence for debris management 
in future natural and man made disasters. In order to prevent the 
continuation of such activities by Federal agencies that are not in 
compliance with their regulatory authority and not protective of human 
health and the environment, a number of changes must be immediately 
implemented.

RECOMMENDATIONS FOR CHANGES AT THE FEDERAL LEVEL
           waste stream characterization and proper disposal
    Based on the experiences gained in disaster debris collection and 
disposal post-Katrina and academic studies concerning the hurricane 
debris characteristics, the Senate Committee on Environment and Public 
Works should use its authority over RCRA and Superfund to work to re-
quire waste stream characterization to enable proper management and 
disposal of disaster debris based on waste characteristics. Based on 
debris characteristics, require the debris to be disposed of in fully 
protective RCRA Subtitle D Municipal Solid Waste Landfills and Subtitle 
C Hazardous Waste facilities in order to be protective of human health 
and the environment and prevent the generation of additional 
contaminated sites that will require the commitment of Federal 
resources in the future.

      DEBRIS MANAGEMENT AND DISPOSAL FACILITY SITING REQUIREMENTS

    Require the Environmental Protection Agency to promulgate 
regulations with more stringent siting requirements for debris 
management and disposal facilities that take into account floodplains, 
impacts on flood protection systems, protection of water and air 
resources, protection of human health and the environment and 
environmental justice concerns.
    Regional Based Integrated Waste Management Plans with Sufficient 
Disposal Options Require the establishment of regional based integrated 
waste management plans that protect the environment and vulnerable 
communities in advance of natural disasters. The plans must provide for 
sufficient disposal options and appropriate disposal capacity on a 
regional basis that will pre-vent inappropriate disposal of debris in 
inadequate disposal facilities and in flood prone and vulnerable areas. 
The disposal options must comply with all regulatory requirements and 
not default to waivers.
    Planning requirements on a regional basis must also include the 
establishment and implementation of an integrated waste management 
approach which includes the utilization of the waste management 
hierarchy methods of reduction, recycling, and reuse prior to disposal 
in facilities that meet all regulatory requirements. Require all 
disposal facilities accepting disaster debris to be lined with 
impermeable liners and have appropriate monitoring systems to insure 
isolation of the waste from the environment. State environmental 
agencies must be prohibited from using emergency authorities that allow 
waste to be inappropriately handled and disposed of in violation of 
Federal statutes during and following disaster situations.

    CURRENT HURRICANE DEBRIS MANAGEMENT AND DISPOSAL RECOMMENDATIONS

    For the remainder of the hurricane recovery and rebuilding 
activities, re-quire increased monitoring of the hurricane debris for 
toxic and hazardous waste constituents and require disposal of the 
debris in appropriate locations consistent with the chemical 
characteristics. Require the agencies to work towards the elimination 
of disposal of hurricane debris in Type III landfills. Use only RCRA 
compliant Type ii municipal solid waste landfills that contain 
synthetic liners, leachate collection systems and landfill gas 
collection systems. Require the LADEQ to remove the authority to blend 
the hazardous waste and toxic waste streams with the construction and 
demolition debris prior to disposal.
    For the reconstruction, deconstruction and new construction debris, 
re-quire separation of waste constituents with proper disposal of toxic 
waste streams, re-use and recycling of uncontaminated construction 
debris, and proper disposal in an appropriately permitted and 
constructed landfill, not a landfill with an exemption or emergency 
authority. All of the waste streams not included under the C & D 
authority should be required to be disposed of separately in permitted 
landfills authorized and permitted to accept such waste streams.

                       EPA NEJAC RECOMMENDATIONS

    The U.S. Environmental Protection Agency, National Environmental 
Justice Advisory Council (NEJAC) issued a report on The 2005 Gulf Coast 
Hurricanes and Vulnerable Populations: Recommendations for Future 
Disaster Preparedness/Response in August 2006. The report recommended 
the establishment of guidelines on handling and disposing of 
contaminated sediments and associated hazardous materials. In addition, 
the report recommended a process to insure that appropriate planning is 
in place to identify disposal facilities that can handle waste debris 
and sediment in an environmentally acceptable manner. These 
recommendations support the recommendations that have been made herein.

                        SPECIFIC DISPOSAL SITES

     In the greater New Orleans area a number of disposal locations 
have been used for hurricane debris dumping and disposal and have 
resulted in environmental and human health impacts to vulnerable and 
environmental justice communities. These locations and their associated 
inappropriate debris disposal activities have created environmental 
impacts that deserve individual specific recommendations in order to 
protect the surrounding environment and reduce the impacts on human 
health.

                  GENTILLY LANDFILL - NEW ORLEANS EAST

    The Gentilly Landfill was opened in approximately 1960 in the 
wetlands of eastern New Orleans, off Almonaster Boulevard. It lies 
directly adjacent to the levees of the Intracoastal Waterway (the same 
levees that were over-topped during Hurricane Katrina) and except for 
the area that has been filled with waste, the landfill site is still 
largely surrounded by wetlands and standing water. The water table ``is 
at or near the elevation of the natural ground surface.'' Although the 
Gentilly dump was ordered closed in 1982, the site continued to accept 
waste until 1986, by which time it covered approximately 230 acres.
    Although the Gentilly Landfill remained in part unclosed and 
therefore in violation of Federal law, in 2002 the City of New Orleans 
sought to have a permit issued which would allow the Gentilly Landfill 
to be used as a site to receive construction and demolition debris and 
wood waste. The facility never met all the requirements for a Type III 
landfill, and therefore never opened.
    On September 29, 2005, following Hurricane Katrina, LADEQ issued a 
final decision entitled, ``Order Authorizing Commencement of 
Operations'' (the, ``September 29 Order''), which authorized Gentilly 
Landfill to allow disposal of hurricane debris. Millions of cubic yards 
of debris was disposed there post Katrina. As much as 100,000 cubic 
yards (one hundred million pounds) was disposed in one day, well past 
the amount the LADEQ now states is the maximum amount that can be 
safely disposed.
    The Louisiana Environmental Action Network sued to require LADEQ to 
safely dispose of this waste. The case settled with LADEQ agreeing to 
limit the amount of daily debris entering the facility and to implement 
more monitoring and safety precautions. In March 2006 FEMA instructed 
the USACE and Corps contractors to limit the amount of debris they 
deliver to the Gentilly Landfill for disposal to 5,000 cubic yards per 
day, primarily out of concern for the integrity of the adjacent levee 
(experts suggest a one in three probability that the placement of this 
much debris about one hundred feet from the toe of the levee will 
undermine the levee itself. See attached report by Dr. Robert Bea of 
the University of California, Berkeley, October 2006).

                    GENTILLY LANDFILL RECOMMENDATION

    The waste contained in the Gentilly Landfill must be isolated from 
the surrounding wetlands environment to prevent further migration of 
chemicals and contaminants from the landfill into the surface waters, 
wetlands and shallow groundwater surrounding the landfill. The 
isolation system must not negatively impact the integrity of the flood 
protection levee adjacent to the Gentilly Landfill. The integrity of 
the isolation system must be monitored and effectiveness demonstrated 
on an ongoing bases over the long term. A cap must be required to be 
constructed over the landfill and keyed into the isolation system to 
prevent surface water and storm water from entering the landfill and 
contaminated waste water and landfill gases from leaving the landfill 
and entering the environment. A prohibition on construction on top of 
the Gentilly Landfill cap any time in the future must be included as 
institutional controls.

                CHEF MENTEUR LANDFILL - NEW ORLEANS EAST

    The Chef Menteur site consists of approximately 100 acres of land 
that, immediately prior to construction of the landfill, housed, ``a 
complex of open-water impounds created as a result of previous borrow-
excavation activities on the Maxent Ridge.'' In 1991 the city rejected 
a zoning request to site a landfill across the highway from the site. 
In 1997 the city rejected another zoning request to place a 
construction and demolition landfill at the site.
    In a particularly compelling letter dated May 19, 2006, the U.S. 
Department of The Interior, Fish and Wildlife Service (FWS), described 
the significance of the ecosystem surrounding Chef Menteur: ``[T]the 
coastal wet-lands. . .  adjacent to the proposed Chef Menteur 
Landfill'' as ``key remaining marsh areas'' that provide important 
habitat for numerous fishes, shell-fishes, birds and other species. 
According to FWS, ``[a]pproximately 340 species of birds (including 
many migratory species) use the [Bayou Sauvage Refuge] throughout the 
year. The refuge supports at least one wading bird rookery, and roughly 
30,000 to 50,000 waterfowl inhabit the refuge's wetlands during the 
fall, winter, and early spring months.'' FWS Let-ter at 1-2. FWS also 
explained its concerns about the Chef Menteur land-fill:
    ``Given the scope and nature of the flooding events and the age of 
many of the buildings to be demolished and deposited in the proposed 
landfill, we believe that the delivery of materials containing numerous 
environmental contaminants, such as: lead based paint, asbestos, 
creosote, arsenic-based wood treatment chemicals, various petroleum 
products, and a variety of pesticides and household cleaning chemicals 
would be unavoidable. Placement of such materials in an un-lined 
landfill, particularly within coastal wetlands, could potentially 
result in leaching and resultant persistent contamination of ground 
water, surface water, and adjacent wetland habitats.''
    Following Hurricane Katrina, Waste Management again began efforts 
to have the site permitted as an emergency landfill. On February 9, 
2006, concurrent with Waste Managements efforts to gain LADEQs 
emergency approval of the Chef Menteur site, New Orleans Mayor Ray 
Nagin signed an Executive Order suspending the Orleans Parish zoning 
ordinance for the site. See Executive Order CRN-0603.
    LADEQ granted Waste Managements request for an emergency 
authorization on Thursday, April 13, 2006. Aside from the emergency 
authorization, LADEQ had not taken any action to initiate proceedings 
to issue a permit for operation of the Chef Menteur landfill. Thus, the 
emergency approval embodied the only authority under State 
environmental regulations for the facility to operate. The Chef Menteur 
landfill operated under this emergency authority until July 13, 2006, 
when Mayor Nagin announced that he would not extend the emergency 
suspension of the comprehensive zoning ordinance for Chef Menteur 
beyond its original 6 month period of effectiveness, thus allowing the 
temporary land use approval for the landfill to lapse on August 14, 
2006.
    The Chef Menteur landfill is hydraulically connected to the ground 
water and surface water resources in the area of the landfill. The 
potential for impacting the environment and human health due to 
Hurricane waste disposal activities in the unlined cell is sufficient 
basis for requiring removal and off site disposal of all Hurricane 
debris disposed of in the landfill.

                  CHEF MENTEUR LANDFILL RECOMMENDATION

    The Chef Menteur Landfill disposal cell must be clean closed. The 
hurricane debris disposed of in the Chef Menteur Landfill cell must be 
removed and properly disposed of according to its chemical 
characteristics. After waste removal, the contaminated soils remaining 
in the disposal cell must be excavated and properly disposed of. The 
disposal cell must be certified as clean. Monitoring wells must be 
installed and sampled to evaluate the current and future status of 
groundwater impacts due to the disposal of hurricane debris waste 
during 2006. The surface water and water bottom sediments in the area 
potentially impacted by the disposal of hurricane debris at the Chef 
Menteur Landfill must be sampled and appropriate actions taken to 
remediate contamination.

        INDUSTRIAL PIPE LANDFILL - OAKVILLE, PLAQUEMINES PARISH

    The Industrial Pipe Construction and Demolition Debris landfill is 
located off Highway 23 immediately adjacent to the historic African 
American community of Oakville in Plaquemines Parish. A forested fresh 
water swamp and the Hero Canal surround the remainder of the site. The 
C & D landfill began operating before there were promulgated 
regulations for C & D land-fills. The Industrial Pipe facility was 
granted permission to accept hurricane related construction/demolition 
debris for disposal in the C & D Landfill and white goods for 
recycling. The operation of the Industrial Pipe facility has caused 
negative impacts to the adjacent environmental justice community of 
Oakville over the operating life of the facility. When the facility 
began accepting hurricane debris the negative impacts experienced by 
the adjacent community became extremely severe. The facility has 
experienced two fires since accepting hurricane debris. One of the 
fires occurred on March 9, 2006 and burned the wood waste pile and part 
of the C & D landfill. The fire burned for several weeks and resulted 
in noxious odors and smoke and the unpermitted discharge of runoff from 
the fire. The unpermitted discharge caused a fish kill near the Hero 
Canal. Hurricane debris was dumped in and adjacent to the Oakville 
community and wind blown debris was dispersed through out the Oakville 
community.
    The debris waste streams disposed of in the Industrial Pipe 
landfill consist of demolition debris, municipal solid waste, toxic and 
industrial waste as well as hazardous components. The lack of 
separation of waste components prior to disposal have resulted in an 
added toxic burden to the environment and the health of the adjacent 
community.

               INDUSTRIAL PIPE LANDFILL - RECOMMENDATION

    The toxic and hazardous hurricane debris waste disposed of in the 
Industrial Pipe Landfill must be isolated from the surrounding 
residential area and wetlands environment to prevent further impacts to 
public health and to prevent further migration of chemicals and 
contaminants from the landfill into the surface waters, wetlands and 
shallow groundwater. The effectiveness of the isolation system must be 
monitored on an ongoing basis and over the long term. The surface water 
resources and bottom sediments in the water bodies adjacent to the 
landfill must be sampled and remediated to address the contaminants 
originating from the hurricane debris.
    The soils in the residential area must be sampled to identify the 
extend of hurricane debris impacts on the residential area. The 
residential areas impacted must be remediated.
    The C & D landfill must be prohibited from expanding and work to 
phase out and close the existing landfill. The landfill location in 
close proximity to the residential area, has and continues to severely 
impact the health and quality of life of the community members and 
negatively impact the aquatic and terrestrial environment surrounding 
the landfill.

 INDISCRIMINATE DISPOSAL OF HURRICANE DEBRIS IN THE WETLANDS ALONG THE 
                ALMONASTER CORRIDOR IN NEW ORLEANS EAST.

    An area of more than 7,000 acres of wetlands along the Almonaster 
corridor in New Orleans East have been used to illegally dump 
hazardous, commercial, and industrial waste, municipal solid waste and 
construction and demolition debris from hurricanes Katrina and Rita. 
The Gentilly land-fill is also located in this corridor area and is 
surrounded on three sides by these illegal dumps. The waste dumped at 
the illegal dump sites have the potential to severely impact the 
surrounding environment and associated aquatic environments.
    Federal agencies (EPA and Corps) have authority over these illegal 
dumps due to their locations in wetlands and disposal of hazardous 
waste. Minimal enforcement efforts have resulted in little to no 
reduction in dumping activities. A number of operators of the illegal 
dump sites have been referred by Louisiana Department of Environmental 
Quality to the US Army Corps of Engineers for wetlands violations. The 
Corps has issued a few cease and desist orders to the operators of the 
dumps. Dumping continues.

             ILLEGAL DUMPS IN NEW ORLEANS - RECOMMENDATION

    The Corps must take appropriate action to stop disposal in the 
wetland areas and require restoration to pre project conditions. The 
EPA must perform site assessment evaluations under CERCLA and require 
site re-mediation activities funded by the dump operators, waste 
haulers and waste generators. The EPA should also determine if the 
sites qualify for designation as Superfund and address under the 
agencies Superfund authority.

                        SUPPORTING ORGANIZATIONS

    These comments and recommendations are supported by the following 
local, regional and national organizations that have been involved in 
hurricane debris issues since the land fall of Hurricane Katrina in 
August 2005.

    Louisiana Environmental Action Network (LEAN)
    Mary Queen of Vietnam Church
    Citizens for a Strong New Orleans East (CSNOE)
    National Alliance of Vietnamese American Service Agencies Delta 
Chapter of the Sierra Club
    All Congregations Together
    Catholic Charities
    Asian Law Caucus
    Asian American Justice Center
    Korean American Resource and Cultural Center
    National CAPACD
    Vietnamese American Young Leaders Association of New Orleans

    [GRAPHIC] [TIFF OMITTED] T3826.017
    
    [GRAPHIC] [TIFF OMITTED] T3826.018
    
    [GRAPHIC] [TIFF OMITTED] T3826.019
    
    [GRAPHIC] [TIFF OMITTED] T3826.020
    
    [GRAPHIC] [TIFF OMITTED] T3826.021
    
    [GRAPHIC] [TIFF OMITTED] T3826.022
    
    [GRAPHIC] [TIFF OMITTED] T3826.023
    
    [GRAPHIC] [TIFF OMITTED] T3826.024
    
    [GRAPHIC] [TIFF OMITTED] T3826.025
    
    [GRAPHIC] [TIFF OMITTED] T3826.026
    
    [GRAPHIC] [TIFF OMITTED] T3826.027
    
    [GRAPHIC] [TIFF OMITTED] T3826.028
    
    [GRAPHIC] [TIFF OMITTED] T3826.029
    
    [GRAPHIC] [TIFF OMITTED] T3826.030
    
    [GRAPHIC] [TIFF OMITTED] T3826.031
    
    [GRAPHIC] [TIFF OMITTED] T3826.032
    
    [GRAPHIC] [TIFF OMITTED] T3826.033
    
    [GRAPHIC] [TIFF OMITTED] T3826.034
    
    [GRAPHIC] [TIFF OMITTED] T3826.035
    
    [GRAPHIC] [TIFF OMITTED] T3826.036
    
    [GRAPHIC] [TIFF OMITTED] T3826.037
    
    [GRAPHIC] [TIFF OMITTED] T3826.038
    
    [GRAPHIC] [TIFF OMITTED] T3826.039
    
    [GRAPHIC] [TIFF OMITTED] T3826.040
    
    [GRAPHIC] [TIFF OMITTED] T3826.041
    
    [GRAPHIC] [TIFF OMITTED] T3826.042
    
    [GRAPHIC] [TIFF OMITTED] T3826.043
    
    [GRAPHIC] [TIFF OMITTED] T3826.044
    
    [GRAPHIC] [TIFF OMITTED] T3826.045
    
    [GRAPHIC] [TIFF OMITTED] T3826.046
    
    [GRAPHIC] [TIFF OMITTED] T3826.047
    
    [GRAPHIC] [TIFF OMITTED] T3826.048
    
    [GRAPHIC] [TIFF OMITTED] T3826.049
    
    [GRAPHIC] [TIFF OMITTED] T3826.050
    
    [GRAPHIC] [TIFF OMITTED] T3826.051
    
    [GRAPHIC] [TIFF OMITTED] T3826.052
    

    Senator Boxer. Thank you. I want to thank the panel. I'm 
going to start off right now with 3 minutes and I'm going to be 
tough on this because we need to move along.
    Dr. McDaniel, the EPA says right here that they are doing 
everything they can to stop illegal dumping. They have 
testified to that. I asked them: Are you doing everything? Yes, 
I am. And yet in your testimony you identified an urgent need 
for Federal help with physical security, apparently including 
armed Federal agents to help your staff stop illegal dumping, 
especially at night. Please tell us why that's needed, and have 
you directly asked for that kind of help from the EPA or other 
Federal authorities and what has their response been?
    Mr. McDaniel. I agree with a lot of the statements that 
have been made about illegal dumping. It has virtually exploded 
in the aftermath of the storms.
    Senator Boxer. I'm more interested in EPA because that's 
what we have jurisdiction over.
    Mr. McDaniel. Okay.
    Senator Boxer. Have they done everything they can in your 
estimation to stop it. That's what they testified to and that's 
what they believe. Are they correct in making that statement?
    Mr. McDaniel. I think they are with the exception we have 
asked for security assistance. And I understand they feel that 
that is not within their purview. We do have--we have launched 
an issue. We are working with local officials and sheriff 
associations and EPA has provided us with both equipment and 
additional resources to help in oversight.
    Senator Boxer. Okay. So you don't have any requests from 
them at this time?
    Mr. McDaniel. No.
    Senator Boxer. Okay. That's very good.
    And my last question. I think, Reverend, I don't have any 
questions for you because you were so eloquent and you made the 
case so beautifully I thought.
    So I guess I would say to Ms. Subra, you have recommended 
that the waste of the Gentilly and the Industrial Pipe landfill 
should be isolated and the Chef Menteur landfill should be 
clean closed. Do you believe EPA--I get from your testimony you 
believe EPA should take the lead on that; am I correct on this? 
You believe this is a Federal responsibility and in terms of 
who would pay for it, do you feel it's a Federal 
responsibility?
    Ms. Subra. I do think it's an EPA responsibility, because 
such a large portion of that waste stream was hazardous waste 
which EPA has the primary jurisdiction over. And by the 
Department of Environmental Quality allowing all those wastes 
to be blended and then appropriately, in their mind, disposed 
of in the landfill, they have created basically a hazardous 
waste landfill. And because the landfill waste is hydraulically 
connected to the surface water and the groundwater, if it's not 
removed and clean closed, it's going to serve as a source of 
contamination for generations to come.
    Senator Boxer. I hear you. So what I get from this panel, 
then, is that EPA is doing everything to your satisfaction in 
terms of helping you police illegal dumping, but they are not 
doing enough to really clean close this particular facility. 
Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Madame Chair. First of all, 
illegal dumping. It has exploded. It is not being controlled in 
any meaningful way and I would reurge all the folks involved to 
find a solution that does something about that. Here is just 
one picture of an illegal dump, active operation, right next to 
wetlands. I mean, you can see what is occurring.
    Second issue, Chef Menteur landfill. There are no 
operations there now. I think that's progress, but I do think 
there needs to be testing and possible clean closure. I believe 
EPA at some point offered to pay for the testing, but as I 
understand it, that's never occurred. I would urge us to move 
forward with that toward appropriate clean closure.
    Third, I wanted to focus my questions on the old Gentilly 
landfill.
    Mr. McDaniel, as I understand it, that site was allowed to 
get material under an emergency order of LDEQ that waived 
certain normal rules or normal requirements; is that correct?
    Mr. McDaniel. That's correct. It had gone through the 
permitting process. It had been granted a permit, but the order 
to commence had not--was actually waiting on completion of a 
few details and we opened the site because of the need after 
the hurricane.
    Senator Vitter. So one of the things it essentially waived 
is the fact that some of the site hasn't been capped. Another 
thing that is essentially waived is that there aren't berms, as 
I understand it, on two sides of the site. And another thing 
that the emergency order did is it expanded the normal 
definition of C&D to include things outside what would normally 
be considered C&D, like asbestos-containing material. Is 
anything I said incorrect?
    Mr. McDaniel. Let me expand on the asbestos-containing 
material. We have in all cases handled asbestos-containing 
material, regulated asbestos-containing material as such and it 
has gone to NESHAP compliant landfills. Type one and two, the 
non-regulated asbestos material and non-friable can go to other 
C&D landfills, and that's a common practice. In fact, it's one 
of the safest disposal methods for asbestos.
    Senator Vitter. But is the not correct that your emergency 
orders expanded the normal definition of C&D material?
    Mr. McDaniel. To the extent it backed it up to the Federal 
definitions of C&D material.
    Senator Vitter. So it did expand your normal definition?
    Mr. McDaniel. Our State definition.
    Senator Vitter. Okay. There are lined landfills in the area 
which could take all of this and not be out of capacity; isn't 
that correct?
    Mr. McDaniel. There is in that immediate vicinity one lined 
landfill.
    Senator Vitter. And it has the capacity to take it?
    Mr. McDaniel. Long-term capacity, it has.
    Senator Vitter. So what is the basic rationale for cutting 
corners at old Gentilly when there are other lined 
alternatives?
    Mr. McDaniel. I would argue we cut no corners at Gentilly. 
The issue----
    Senator Vitter. Again, just----
    Mr. McDaniel. Let me explain.
    Senator Vitter. Sure.
    Mr. McDaniel. The issue is not capacity. It never has been. 
It's rate of processing. It's cleaning up, getting the material 
out of the reach of public--public safety issues and cleaning 
up so that we can get on to recovery. And that has been 
something that we have worked very diligently on.
    Senator Vitter. If you didn't cut corners at Gentilly, why 
did you have to issue an emergency order that changed some of 
the rules?
    Mr. McDaniel. To accommodate the amount and kinds and 
complexity of materials that we had to deal with. At no time 
did we make any decisions, and they are all very transparent. 
They were done in collaboration with scientists of both our 
agency, EPA, working with the Corps, and they are all 
documented in decisional documents. And the facts are stubborn 
things and you are welcome to look and see what those decision 
are based on.
    Senator Vitter. Well, I have. I guess it's semantics. When 
I say, ``cut corners,'' I include emergency orders which waive 
normal requirements.
    Final set of questions, because I honestly think this gets 
to the heart of the matter. Aren't there legal requirements in 
State law that require people who come to you for a permit to 
disclose all of the operators and all of the owners of the 
site?
    Mr. McDaniel. That's correct.
    Senator Vitter. Wasn't that requirement ignored, not 
complied with at old Gentilly as evidenced by records that were 
recently disclosed in a Federal criminal investigation?
    Mr. McDaniel. That information was unavailable to us until 
it became available just recently. I think we are still dealing 
with a little bit of news and not so much facts on that. We 
have taken comments on it. Our legal folks are looking at it 
and it will be done appropriately, I will assure you.
    Senator Vitter. Mr. McDaniel, I don't think this is 
disputed. There were hidden partners in that operation. They 
are now disclosed. They weren't disclosed to you when you gave 
out the permit. They are now disclosed. One of them is going to 
jail for a similar contractual deal, not this, but something 
else. The other is an unindicted co-conspirator in that other 
contractual deal.
    Now that you know that, now that you know they broke the 
law in not disclosing closing themselves to you, what are you 
going to do about it?
    Mr. McDaniel. Well, we will have to accommodate that in our 
decision making on the permit.
    Senator Vitter. Does that mean you're going to revoke----
    Mr. McDaniel. If they broke the law they will not get the 
permit.
    Senator Vitter. Does that mean----
    Mr. McDaniel. That needs to be established, sir.
    Senator Vitter. Well, read today's paper. They admit it.
    Mr. McDaniel. I have to work with a little more than that, 
sir.
    Senator Vitter. Well, they admit it themselves so I suggest 
that----
    Mr. McDaniel. Well, there were other sides too, but I 
understand and I hope you understand, we are not going to do 
anything illegal.
    Senator Vitter. Let me just end by saying if, in fact, what 
I laid out is correct and they broke the law with this 
nondisclosure, I believe the only appropriate remedy is to 
revoke the permit, not to fix the paperwork and move on.
    Mr. McDaniel. I can't argue that, but I would want the 
advice of my legal staff.
    Senator Boxer. Senator, I was happy to give you an 
additional two minutes. You went an additional three minutes. 
My democrats have said that they would give their time to 
Senator Landrieu, so they are not going to question.
    So, Senator Landrieu, you have 3 minutes plus the 3 minutes 
to match what Senator Vitter took, so go for it.
    Senator Landrieu. The line of questioning has been very 
good on all sides because it is a very significant issue.
    Let me start with Father Vien. Thank you for your 
leadership and for the leadership of all the community groups 
that are very concerned like communities everywhere about what 
is happening in the neighborhoods? What is this debris? Where 
is it going? Are there contamination? And thank you.
    Secondly, I will most certainly support your call for an 
integrated task force that would push us to do a better job as 
a State as testified itself on coming to terms with some of 
these issues, so I thank you for that very good proposal and I 
will support that as well as IGs, investigative generals to 
look into the situation, because I do think getting to the 
bottom of this is very, very important.
    But No. 2, I would make the point, again, the tons of 
material that had to be moved out of all neighborhoods and 
communities so that the rebuilding could begin was a paramount 
issue, and obviously, from what you, Mr. McDaniel, have 
testified, there were lots of procedures that had not been 
worked out, lots of problems. Would you just testify to the one 
or two major issues that you would recommend this committee 
look at for the disposal of waste, which goes from things that 
are not hazardous at all to things that are very hazardous in a 
catastrophe like this region suffered. Just one or two things 
for the record that we could look at and help solve this 
problem.
    Mr. McDaniel. Thank you, Senator Landrieu. The first would 
be, I think, reconciling the authority, FEMA and EPA, who has 
the primary responsibility for making decisions on 
environmental issues. That has to be confusing. It diverted a 
lot of your attention and took us off our mission.
    Secondly, would be it took 6 months to iron out the 
asbestos protocol with the EPA. We need to have memorialized a 
lot of the decisions that have been made that are good 
decisions, collaboratively agreed upon, and put them in some 
kind of----I call it a playbook, you can call it guidance, but 
something so that the next time this happens people will know 
how to deal with CCA treated wood, what asbestos materials go 
where, what can be burned, what can't be burned, what is the 
proper way to dispose of certain materials. Look at----we had 
six different interventions where we looked to remove 
prohibited materials from these C&D landfills. I think it's a 
good process.
    Senator Landrieu. And you are testifying that that 
protocol, to the best of your knowledge, was not worked out at 
the Federal and State level prior to Katrina or Rita?
    Mr. McDaniel. Senator, we have never been confronted with 
that kind of disaster in the past. It was just a lot of new 
ground that had to be covered and it just took time. And it's 
not that any one was reticent or slow. It just took time to 
work through those issues.
    Senator Landrieu. That's one of the reasons that it's 
important for this committee to be here.
    Father Vien, the proposal that you have made that is in 
your testimony that you spoke about today, have you gotten that 
generally approved by the State and the City, as well as 
Jefferson Parish? Because if the landfills are closed in 
Orleans, the waste is going to have to go to Jefferson Parish 
or to the landfills around the City. Has Jefferson Parish 
agreed to this plan and has Orleans Parish, generally the City 
Council, the Mayor and the Governor, do they support what you 
are proposing? Or have given you any indication that they may 
be supportive?
    Mr. Ngyuen. Senator, it's going to be an uphill battle for 
us, but from the citizens' level in Jefferson because I 
remember, they called me up and said: You don't want your 
trash, we don't want your trash. So I went over and met with 
the leaders of two civic associations. And actually what we 
need to look at, and I hope this committee could begin it, is 
the overall regional way of handling, managing this that would 
include recycling, reduce, reuse. So if there's a place where 
there is a landfill, then all of that should take place before.
    Senator Landrieu. But right now do you have approval from 
Jefferson Parish that if we close the landfills in Orleans that 
they would take the waste in Jefferson?
    Mr. Ngyuen. Not officially, no.
    Senator Landrieu. Not officially. Okay. Mr. McDaniel, would 
you just speak about what some of your recommendations might be 
on the recycling side? I only have a minute left. Because there 
is a tremendous amount of interest from both the Republican and 
Democratic Party about the fact that we really missed an 
opportunity here to really go green, to recycle, to really step 
up the box here. And I know you have been so tied down with 
just the regular processing, but could you just testify one or 
two things that have come across your desk that we might focus 
on in the future? Because I think we could all make some 
progress in that area.
    Mr. McDaniel. Senator, I will agree that I think we need to 
pay more attention to recycling, but I would also like the 
record to show, and it is in our written record, this was one 
of the largest recycling jobs that has ever been undertaken. A 
hundred percent of the wood waste was converted to mulch used 
for cover, for fuel, a million refrigerators, 956,000 E goods, 
four million orphan containers, quarter of a million small 
engines. We are processing hundreds of thousands of vehicles 
right now that are being remediated and sent for recycling. So 
there was a huge amount of recycling, 26 million pounds of 
hazardous waste has been taken out of the waste stream and 
disposed of properly.
    Senator Isakson. One State.
    Mr. McDaniel. So a lot was learned and I hope that will be 
shared with the future in this playbook as well.
    Senator Landrieu. Thank you.
    Senator Boxer. Senator Isakson, I understand you have one 
question.
    Senator Isakson. Not even a question, just respecting the 
Chairman's request. I would like for to you follow up on your 
request at the beginning of your testimony. You probably more 
than anybody in this country could write an evaluation plan to 
help all of us as to what you do in a catastrophe of this type 
and I'd personally appreciate it if you'd submit to the 
committee your recommendation and your advice, because 
obviously, that would be critical to learn from the mistakes 
and the smart decisions that were made in the aftermath of 
Katrina.
    Mr. McDaniel. Thank you, sir. I would be delighted to do 
that.
    Senator Boxer. Senator, I think that's an excellent idea. 
We want to thank the panel very much for your very clear 
testimony. We will follow up on this issue. And Panel 3, Sidney 
Coffee, Chair of the Louisiana Coastal Protection and 
Restoration Authority; Dr. Robert Twilley, Director and Wetland 
Biogeochemistry Professor at the Department of Oceanography and 
Coastal Science at Louisiana State University; Randy Roach, 
Mayor of Lake Charles, Louisiana; Thomas Jackson, President, 
Southeast Louisiana Flood Protection Authority-East.
    And I'm going to ask our witnesses if they can try to go 4 
minutes. The reason I'm pushing the time is we need to clear 
out of this room. And so, we have very wonderful hosts but they 
do need to have their real estate back. So we're going to have 
to go quickly. And then I'm going to ask all of us non-
Louisianians to just take a minute of questions, including 
myself, and we will give 3 minutes to the Senators from 
Louisiana and that should keep us moving on time.
    So if there is no disagreement, I will start from this 
corner and move across, if that's all right with everybody.
    Ms. Coffee, Chair of the Louisiana Coastal Protection and 
Restoration Authority. Thank you.

STATEMENT OF SIDNEY COFFEE, CHAIR, LOUISIANA COASTAL PROTECTION 
                    & RESTORATION AUTHORITY

    Ms. Coffee. Thank you, Chairman Boxer and members of the 
committee. I appreciate the opportunity to speak before you 
today.
    Our future obviously is inextricably linked to the unique 
landscape of our coast, both nationally and here in our State. 
It's not only ecologically world significant but it's 
critically important to the energy and economic security of 
this nation. And it's vanishing. Even before the hurricanes we 
were losing more than 24 square miles a year of our coastline. 
In the two days of Katrina and Rita alone, we lost 217 square 
miles. That's hard for me to grasp and I deal with it all the 
time. That's an incredible amount of land to be lost.
    Our coast may represent a unique crisis right now, but it's 
a harbinger of what is to come for the rest of America's 
coastline, vulnerable to extreme storms and the effects of 
global climate change and sea level rise. Louisiana is taking 
aggressive action and the good news is we do have a plan. The 
State has a plan. And it's going to be finished in about six 
weeks.
    After the hurricanes, the two hurricanes, Katrina and Rita, 
our legislature did establish the CPRA, Coastal Protection and 
Restoration Authority, and for the first time in our State's 
history, we now speak with one voice on the integration of 
coastal restoration and hurricane protection. Our primary 
mission is to develop, implement and enforce a comprehensive 
coastal protection and restoration master plan and to give 
oversight to the levee districts in south Louisiana.
    While our plan will be finalized this spring, our 
partnership with the Corps is very critical and it remains 
fundamental to our success. In late 2002, at the same time that 
CPRA directed us to create a master plan, the Congress directed 
the Corps to do the same, to develop and present a full range 
of coastal restoration and hurricane protection measures 
exclusive of normal Corps policy. The law directed the Corps to 
conduct this analysis in close coordination with the State. The 
Corps' plan is due to Congress at the end of this year and that 
schedule, from what we understand, has already slipped about 6 
months.
    Our two teams, though, are working very closely together on 
the technical issues, but we remain concerned that the Corps 
will be more influenced by top down policy rather than relying 
solely on sound science and engineering because it's happened 
before. So we feel it's very essential that Congress consider 
the State's plan as well as the Corps' plan.
    The credibility of our plan is key. We have worked hard to 
establish a very high level of national scientific review and 
public participation, and our goal is to provide a 
comprehensive, credible and honest approach to restoration and 
protection here in Louisiana. We seek to balance four 
objectives: Sustain the ecosystem, restore sustainability to 
the ecosystem, reduce the risk to economic assets, maintain a 
diverse array of fish and wildlife habitat, and sustain 
Louisiana's heritage and culture. The master plan acknowledges 
that tough choices must be made in how we live and work in 
south Louisiana.
    Our plan also includes early urgent actions: Close 
Mississippi River Gulf Outlet, reconnect the lower Mississippi 
River to its delta, restore our barrier islands and shorelines, 
modify existing water resource projects so we can better 
achieve our goals, and advance the projects that protect 
strategic assets in concentrated populations. Adaptive 
management is fundamental to this plan. It allows us to build 
vital projects now, but continue to plan and design the more 
ambitious components.
    We estimate the State's plan will cost tens of billions of 
dollars over several decades and we are committed to see that 
through. As you know, we passed overwhelmingly a constitutional 
amendment that dedicates any and all Federal offshore revenues 
to this purpose and this purpose alone. And the State has 
already dedicated a portion of its proceeds from the tobacco 
lawsuit settlement, could mean 300 million in one-time money 
this year.
    Senator Boxer. Could you sum up at this point?
    Ms. Coffee. Yes. We are up against tremendous challenges in 
circumstance, scale and urgency. We ask that we work with 
Congress, that you work with us, to find more creative and 
programmatic approaches so that an average project will not 
take 25 years from beginning to end.
    Senator Boxer. I'm going to have to stop you at that point. 
Thank you.
    [The prepared statement of Mr. Coffee follows:]

                Sidney Coffee, Chair, Louisiana Coastal 
                   Protection & Restoration Authority

    Chairman Boxer and Members of the Committee, thank you for holding 
this hearing in Louisiana and giving me the opportunity to testify 
before you today. I would like to give special thanks to Senator 
Landrieu and Senator Vitter and to our entire Louisiana Congressional 
Delegation. They have led our state through some very difficult times 
since the fall of 2005.
    My name is Sidney Coffee. I serve as the Chairman of the Coastal 
Protection and Restoration Authority of Louisiana. On behalf of the 
authority, I am pleased to share with you both the urgent challenges we 
face and the comprehensive plan we have underway to create a 
sustainable and safe coastal Louisiana.
    It has taken thousands of years for the Mississippi River to create 
the seventh largest river delta on earth and we call that delta 
America's WETLAND. More than forty percent of our nation drains into 
this massive river system and through Louisiana to the Gulf of Mexico. 
The river's course, both past and present, is inextricably linked to 
the destiny of our people and the future of our state and nation.
    Coastal Louisiana is not only ecologically significant for the 
world, but is a place of critical importance for the energy and 
economic security of the United States. It is also one of the few 
places in our nation where the people remain tied to the land 
economically, emotionally and spiritually, through a culture and 
heritage as unique as any you will find on the planet.
    What happens on Louisiana's coast is vital to the United States. 
Almost ninety percent of the nation's offshore oil and gas comes from 
offshore Louisiana. A third of all the oil and gas consumed in our 
country is produced or transported through Louisiana, connecting to 
nearly half of America's crude oil refining capacity. South Louisiana's 
port system is first in the world in tonnage. We are second only to 
Alaska in annual volume of domestic seafood landings, serve as the 
nursery ground for marine life in the Gulf of Mexico and as habitat for 
the second largest migratory bird flyway in North America.
    This incredible, organic, coastal landscape protects these national 
assets, as well as the two-million people who live in coastal 
Louisiana, many who serve as the support for national energy 
production, fisheries and navigation. But we are losing this vital part 
of America's coast. Even before the hurricanes of 2005, we were losing 
more than 24 square miles of our coast every year. In the 2 days of 
Katrina and Rita, we lost 217 square miles.
    In great measure, this ongoing land loss crisis can be attributed 
to the unintended consequences of Federal actions. The construction of 
levees along the Mississippi River for navigation and flood control cut 
the wetlands off from the fresh water and sediment of the river's 
annual overflow. Oil and gas canals and navigation channels, dredged to 
support the nation's domestic energy production and distribution, have 
exacerbated salt water intrusion and accelerated wetland degradation.
    Unless we harness the significant resources of the Mississippi 
River more wisely in the future, the ecology and economy of coastal 
Louisiana will collapse. If we do not adopt a more integrated and 
comprehensive approach to ecosystem management at the Federal level, 
our nation will suffer as well.
    Louisiana's coast is in a constant state of emergency. It 
represents a unique crisis now, but is a harbinger of what is to come 
for the rest of our nation's coastal areas which are all vulnerable to 
unavoidable, extreme storms and the effects of global climate change 
and sea level rise. More than forty-two percent of the Nation's 
population live in coastal areas and these will be challenges that many 
people face.
    How we carry out coastal restoration and hurricane protection here 
in Louisiana will influence all of our rebuilding activities, from 
insurance and business development to personal decisions on where and 
how to rebuild. It should also be a model for the nation.
    Louisiana has taken aggressive action. In the wake of hurricanes 
Katrina and Rita, the state legislature established the Coastal 
Protection and Restoration Authority. For the first time in our State's 
history, this single state authority is integrating coastal restoration 
and hurricane protection and is speaking with one voice for the future 
of Louisiana's coast. The CPRA's primary mission is to develop, 
implement and enforce a comprehensive coastal protection and 
restoration master plan, which includes oversight of the levee 
districts of south Louisiana. We must also ensure the consistency of 
the Federal and State water resource programs in which state 
participates, such as the Coastal Wetlands Planning, Protection, and 
Restoration Act (CWPPRA), the Coastal Impact Assistance Program (CIAP) 
authorized by the Energy Policy Act of 2005, and the work authorized by 
the Water Resources Development Act.
    While Louisiana's Comprehensive Master Plan for a Sustainable Coast 
will be finalized and submitted to the Louisiana Legislature for 
approval in April, our partnership with the Corps will remain 
fundamental for our success. In the third supplemental appropriations 
bill, which became law (P.L. 109-148) on December 30, 2005, the 
Congress directed the Corps to conduct a comprehensive hurricane 
protection analysis and, at full Federal expense, design, develop and 
present a full range of flood control, coastal restoration, and 
hurricane protection measures exclusive of normal policy 
considerations. The law further directed the Corps to conduct this 
analysis in close coordination with the State of Louisiana and its 
appropriate agencies.
    Our State team and the Corps team are working closely together on 
technical issues, but the State remains concerned that the Corps will 
be more influenced by top-down policy rather than relying solely on 
sound science and engineering. This has happened before, most recently 
in 2004 when the Corps was directed to pare down a comprehensive 
coastal restoration program to fit a $2 billion price tag and a ten 
year implementation window. Therefore, it is essential that the 
Congress consider the State's plan as well as the congressionally 
mandated protection plan for south Louisiana that it is expecting to 
receive from the Corps.
    This Committee should have confidence that the State of Louisiana 
has worked diligently to ensure the highest level of credibility in the 
creation of this plan. An open planning process, involving nearly 50 
stakeholder meetings and 9 public meetings to date, with 4 public 
meetings being held this week, has provided the public and stakeholders 
every opportunity to participate meaningfully in the process. Through 
ongoing national and international scientific review, the CPRA has 
strived to provide State and federal decision makers, as well as the 
public, with a comprehensive, credible and honest approach to coastal 
restoration and protection in Louisiana.
    The State's master plan seeks to balance four objectives: to 
restore sustainability to the coastal ecosystem; to reduce risk to 
economic assets; to maintain a diverse array of habitats for fish and 
wildlife; and to sustain Louisiana's unique heritage and culture. The 
Master Plan acknowledges that tough choices must be made in how we live 
and work in coastal Louisiana, and relies on an aggressive program of 
ecosystem restoration; non-structural measures such as comprehensive 
land-use planning, elevating homes and businesses, and fully-
implementing emergency evacuation procedures; and substantially 
improved hurricane protection projects--levees--to sustain the way of 
life that has become so important to the people of Louisiana and the 
rest of the nation.
    Our plan will also include urgent early actions that must move on a 
faster track: closure of Mississippi River Gulf Outlet canal; 
reconnecting the lower Mississippi River to its delta plain; restoring 
barrier islands and shorelines; modifying existing water resources 
projects to better achieve our objectives; and advancing projects that 
protect strategic assets and concentrated population areas.
    We estimate the Master Plan will cost tens of billions of dollars 
over several decades. Last September, 82 percent of Louisiana voters 
approved a constitutional amendment to dedicate all Federal offshore 
oil and gas revenues shared with the State for the purposes of coastal 
restoration and protection. In addition, the State dedicated a portion 
of its proceeds from the tobacco lawsuit settlement, which could mean a 
one time deposit of more than $300 million for coastal protection and 
restoration.
    Adaptive management is a cornerstone of our approach. This will 
allow us to build vital projects as we continue to plan and design the 
more ambitious components of the Master Plan--similar to the approach 
taken in building the interstate highway system and the Mississippi 
River and Tributaries Project. We are also committed to building 
science and engineering capacity in Louisiana to guide the design and 
construction of projects, as well as to resolve uncertainties. 
Louisiana can lead the way for others as we literally re-write the 
textbooks in coastal engineering.
    Louisiana's effort is not comparable to traditional water resource 
development efforts. The ecosystem restoration and hurricane protection 
challenges we face are unique in circumstance, scale and urgency. We 
don't have time for business as usual. To achieve our objectives, we 
must have a strong commitment from Congress to find more creative 
approaches to large scale ecosystem restoration efforts, with an 
expedited process for designing and building projects. It is our only 
chance in this race against time and against the forces of nature to 
save these national assets.
    As a State, we are faced with tough decisions and trade-offs. 
Change is inevitable whether we take action or not. Everyone will be 
affected, so everyone has a stake in working toward a balanced outcome. 
We are faced with the hard decisions of prioritizing the components of 
the plan. We suggest that national priorities must be set as well; that 
a process that takes an average of 25 years to move a single project 
from planning to completion must be expedited. Areas such as coastal 
Louisiana that benefit and impact the Nation so profoundly should be 
treated in a manner that considers the unique circumstances they face 
and the urgency they demand.
    We are at an historic crossroad--one that presents us with a stark 
choice: make bold and difficult decisions that will preserve this 
State's future and the national assets hosted here or cling to the 
status quo and allow coastal Louisiana to vanish. We in Louisiana have 
chosen to address this challenge aggressively, and we offer you our 
expertise in this area, our creativity and our determination to help 
resolve the challenges we face together. Thank you so much for your 
time today.

    Senator Boxer. Dr. Twilley.

       STATEMENT OF ROBERT TWILLEY, DIRECTOR AND WETLAND 
   BIOGEOCHEMISTRY PROFESSOR, DEPARTMENT OF OCEANOGRAPHY AND 
          COASTAL SCIENCE, LOUISIANA STATE UNIVERSITY

    Mr. Twilley. Thank you very much. As most of the committee 
knows, water is probably one of the most important resources 
that will define the economic, public health and environmental 
issues in the next century, certainly by 2050. The Committee on 
Environment and Public Works should not only consider issues 
associated with present or near-term water resource project 
portfolios, but must also look at a longer term prospective of 
how the nation will prioritize this finite resource to achieve 
a more sustainable future given the challenges of a changing 
climate. And this is particularly true for coastal resources 
that are becoming increasingly more vulnerable to risk 
requiring new approaches by providing community resiliency, by 
integrating both protection and restoration.
    As an example, coastal Louisiana has long been a landscape 
of rich natural resources and extensive human settlements that 
have tried to manage the risk of occupying an extremely dynamic 
coastal environment. It is the eighth largest delta in the 
world. Over the last 100 years reducing the risk to human 
settlements and the economic infrastructure has been done at 
increased risk to ecological systems and natural resource 
capital. Public work projects for the public good with 
unintended consequences.
    This is a working coast. Provides goods and services of 
tremendous national importance. At the same time we have 
natural resources that also provide goods and services of equal 
national significance, such as storm protection, fisheries, 
critical waterfowl habitat, and good water quality conditions. 
This certainly is a region where corporate sustainability is so 
codependent on environmental sustainability.
    Science and engineering and public policy must resolve the 
following three questions in a cooperative manner: What is at 
stake? What processes will work? And what can be done to 
sustain economic and natural resources?
    What is at stake? You know those statistics very well. 
Fisheries, navigation, commerce, those have been cited. What 
processes are at work? It's a river dominated delta. Without 
the river this delta will not survive. It is a fact that the 6 
million acres that we have we can we no longer sustain without 
the sediment and freshwater resources to empty into our wetland 
flood planes. It is very important that we provide critical 
resources to this delta to reduce the continued degradation of 
our landscape.
    So what can be done? And I want to make one other quick 
point. You know, so many times the point is made related to 
people moving toward the coast. What I say a lot to people is 
that, it's the coast that's moving toward our communities and 
our economic infrastructure.
    And so what can be done? And I want to lay this out in 
three points. First, planning. Planning has to include 
effective ecosystem restoration that will promote synergies 
with protection systems and limit conflict. This is a 
challenge. We are doing both restoration and protection. That 
means we are looking at structural infrastructure, structural 
features and non-structural features and how we engineer this 
landscape is going to set the trajectory for the future. The 
present river resources pass this city every day. It's not 
finding the resources. It's managing the resources we have. And 
that requires a comprehensive system level analysis of what we 
do with the river.
    Senator Boxer. Sir, if you could tell us the next two 
things very quickly.
    Mr. Twilley. I will. I've got two right here. No. 2 is 
urgency. We have to do this now. This is a critical system that 
if we do not act and we do not get large-scale projects moving 
presently it's going to become more costly and tougher to 
rebuild this delta.
    Second and third, funding streams. We have to be very 
careful how you authorize funding streams because you end up 
with stove pipes, you end up with inability to do adaptive 
management and assessment, so the authorizations and the 
funding streams can't be recompeted every year. You have to 
have funding streams that complete the project.

   Statement of Robert Twilley, Director and Wetland Biogeochemistry 
 Professor, Department of Oceanography and Coastal Science, Louisiana 
                            State University

    Water is probably one of the most important resources that will 
define the economic, public health and environmental issues in the next 
century, certainly by 2050. Today, water resource quantity and quality 
across well-defined regional basins are largely defined by highly 
engineered landscapes linked to a changing global hydrologic cycle that 
will challenge our political will to provide for national priorities. 
Thus water resource planning through the development of public policy 
is arguably one of the most important features of our national 
security, sustainable natural resources, public health, and economic 
development. Ecosystem services derived from healthy natural resources 
support our national wealth, and our society will profit from policies 
that sustain the finite water resources of our continent, and our 
globe. Thus our national priorities and portfolio of water resource 
projects need to have a long-term perspective of providing for a safer, 
healthier and more sustainable society. And this is particularly true 
for our coastal resources that are inexplicably linked to our river 
basins.
    The U.S. Army Corps of Engineers has evolved into one of the most 
important federal agencies affecting the characteristics of our 
national water resources system. Thus the policies and priorities 
within the USACE planning and authorization guidelines define our 
future water resources capacity. Based on the assumptions of the 
significance of this agency responsibilities to future water 
conditions, the Committee on Environment and Public Works should not 
only consider issues associated with present or near-term water 
resource project portfolios, but must also look at the longer-term 
perspective of how the nation will prioritize this finite resource to 
achieve a more sustainable future giving the challenges of a changing 
climate. And these river resources must be factored into a priority 
system that properly accounts for the value that coastal resources 
provide our nation.
    These fundamental principles of water resource planning and public 
work projects are very important to policies that address problems 
within coastal boundaries including: (1) wetland loss, (2) 
eutrophication (dead zones), and (3) coastal hazards. With 80 percent 
of the coastal land loss of the entire US, the largest seasonal hypoxic 
zone (nearly the size of New Jersey), and now two devastating 
hurricanes in a single month during 2005, the Gulf Coast is a harbinger 
of what coastal communities throughout the U.S. will face in the 
future. The issues and policies, by both federal and state entities, 
associated with rebuilding the Gulf Coast are those of national 
importance, which will require strong leadership in managing risks by 
more properly integrating engineering solutions with natural processes 
that more properly account for ecosystem goods and services--how do we 
build both structural and natural infrastructure in our coastal 
regions.
    Coastal Louisiana has long been a landscape of rich natural 
resources and extensive human settlements that have tried to manage the 
risks of occupying an extremely dynamic coastal environment--the eight 
largest river delta in the world. Both environmental and social systems 
have tried to adapt to sea level, subsidence and hurricanes to 
accommodate sustainable development. Now the stakes are higher as we in 
Louisiana struggle with not only rebuilding our natural resources, 
America's Wetlands' of the Mississippi River delta, but also the social 
and business systems that have been devastated by two hurricanes, 
Katrina and Rita. So we are dealing with the challenge of promoting the 
resiliency of both natural and social systems by providing necessary 
natural and human resources. If restored properly, the Gulf Region will 
develop new paradigms as to how coastal communities deal with risks and 
hazards of the coastal zone. But we are developing this rebuilding 
process in a political environment of great urgency, which I advocate 
requires even greater commitment to a few fundamental principles of how 
to integrate protection and restoration of the ecological-social 
landscape within our coastal boundaries.
    The loss of wetland resources in Louisiana has been occurring for 
over one hundred years, estimated at 1.2 million acres of coastal 
wetlands since the 1900's, and prior to Katrina was projected to lose 
another 300,000 acres by 2050. These wetlands relied on the 
distribution of water and sediment resources from the Mississippi River 
to keep the coastal landscape intact, to support a state known as 
sportsman paradise'. The underlying causes of losing America's 
Wetlands' include public work projects in navigation and flood control 
that reduced risks to social systems by controlling' river resources, 
fertile sediments and freshwater; causing them to be lost to the Gulf 
of Mexico rather than emptying into the deltaic floodplain. In 
addition, energy related industries built various canals and waterways 
through marsh landscapes that not only promoted access for oil and gas 
rigs, but also provided conduits for saltwater intrusion and storm 
surges. These artificial changes to the landscape to protect local 
communities and support a national economy worked against the coastal 
processes of the river delta causing risks to wetland vegetation. So 
while reducing the risks to human settlements and coastal 
infrastructure over the last 50 years has been very effective; it has 
been done at increased risks to ecosystems that rely upon river 
resources for survival.
    The coastal wetland landscape has been degrading for nearly 100 
years, while the entire social system and industrial infrastructure 
along the coast was devastated in a month by hurricanes Katrina and 
Rita. There is an urgency to promote the resiliency of economic 
infrastructure that will rebuild social systems and provide protection 
and jobs to communities along the coast. This has to be done while we validate 
models and their assumptions as to the proper combination of wetland resources 
and levee systems that are needed to secure and protect sustainable 
economic development. This validation process, with intense data 
collection and proper scientific review, will be instrumental in 
planning for risks in the future. This planning needs a science and 
engineering program that integrates the theories and practices of 
natural and social sciences to establish guidelines for engineering 
solutions that promote a sustainable and safe coastal landscape. This 
will require these three sciences (physical, social and engineering) to 
resolve the following three questions in a cooperative environment. 
What is at stake? What processes are at work? What can be done to 
sustain economic and natural resources? The continued isolation of 
these three issues by these three disciplines among existing 
institutions will amplify the continued increased risks of living in 
coastal communities of Louisiana and throughout the US. From now on, 
the public will demand accountability to the long-standing paradigm of 
public work projects with unintended consequences'.
    So what is at stake if we do not properly rebuild both the social 
and natural capital of coastal Louisiana. More than 30 percent of the 
nation's fisheries catch comes from America's Wetland, and it provides 
one of the largest habitats in the world for migratory waterfowl. More 
than 25 percent of all the oil and gas used in the United States either 
originates from or passes through this working wetland, the 
distribution point for energy supplies to the entire eastern U.S. 
Louisiana's port system, including New Orleans, Port Fourchon, Baton 
Rouge, and related smaller ports connected by the Intracoastal 
Waterway, is the largest in the world, including greater tonnage that 
Rotterdam or Singapore, the next largest port systems. The coastal area 
currently provides a buffer from hurricane storm effects to 
approximately 2 million residents who live within the 19 coastal 
parishes (counties). Roughly half of the Louisiana coastal population 
resides outside of New Orleans and depends on the wetlands either 
directly or indirectly for employment in fisheries and the oil and gas 
industry.
    So we cannot abandon either the economic or the natural resources 
of this region--this is a working coast that provides goods and 
services of tremendous national importance. At the same time, we have 
natural resources that also provide goods and services of equally 
national importance. The challenge is to find engineering solutions to 
risks and sustainability that consider the goods and services of both 
economic and natural resources of coastal regions.
    So what are the processes at work in the Gulf coastal zone that can 
sustain a productive landscape (Boesch et al. 1994). Understanding the 
fundamental processes of the delta cycle is prerequisite to any policy 
that deals with geomorphic and ecologic features of this coastal system 
(Fig. 1). Transgressional sequences at the province and basin scales of 
coastal Louisiana govern smaller scale successional changes at the 
habitat scale of the marsh. The proximity of fluvial processes to 
marshes shift as distributaries of the Mississippi River migrate along 
the coast, changing the distribution of sediment, nutrients, and salt 
that control the type of habitat that colonizes the emergent zones of 
the basin. Thus there are continued changes not only from emergent to 
open water as part of the transgressional sequences, but the community 
composition of the emergent lands changes among fresh water, 
intermediate, brackish, and salt marsh vegetation (Fig. 2).
    As fluvial processes decrease, there is a lack of fresh water 
discharge to control sea water encroachment, causing salt and brackish 
marshes to migrate landward, either replacing fresh water marshes or 
converting marshes to open water (Fig. 2). During active delta 
formation, such as observed in the Atchafalaya River basin, there is a 
migration of fresh water and intermediate vegetation toward the coast 
as salinity regimes decrease in the coastal zone. Processes at all 
three spatial scales including province, basin and habitat levels are 
coupled to produce a spatial mosaic of changes in wetland cover and 
composition that form very complex and dynamic patterns of coastal 
barrier system. The result of these processes across the Mississippi 
River Deltaic Plain is 6,177,610 acres (2,500,000 ha) of marshes that 
account for 60 percent of the coastal wetlands in the lower 48 states. 
These patterns of coastal processes have to be incorporated in any 
perspective of coastal restoration and rehabilitation.
    The fundamental processes that the natural, social and engineering 
sciences will have to consider include a very dynamic landscape--which 
requires policies that promote adaptation rather than a philosophy of 
control. New Orleans, Louisiana's port and many coastal communities 
exist within a changing mosaic of barrier islands, salt marshes and 
freshwater swamps. Rebuilding after Katrina and Rita must address the 
ongoing and dynamic changes in this landscape--just as coastal 
restoration efforts did before these storms inflicted their damage, as 
described in our November 2004 LCA (Louisiana Coastal Area) report. For 
the last several thousand years, the land building or deltaic processes 
resulted in a net increase of more than 4 million acres of coastal 
wetlands, even with the occurrence of sea level rise, subsidence, and 
hurricanes.
    Wetland loss is caused by soil accumulation insufficient to offset 
sinking of the land and rising sea levels. Human activities (canals, 
hydrologic modifications, failed reclamation, flood control measures) 
have caused wetland loss to accelerate; and prevented the natural 
processes to rebuild landscape features elsewhere along the coast. 
Without an aggressive ecosystem restoration effort, high rates of 
wetland loss will continue. The relative rise in sea level is an issue 
in coastal Louisiana; as it is in the Everglades, coastal Carolinas, 
Delmarva Peninsula, and New Jersey-New York coast. Given the high 
subsidence rates (land sinking) along with the seas rising, New Orleans 
is seeing now what many of these other coastal communities will see in 
about 4-5 decades. Given this condition, many proponents argue that we 
should give up on New Orleans. If that is the case, then we should also 
begin the systematic retreat of every coastal community in the U.S. Or 
we can reflect and think about a better partnership with nature; rather 
than viewing these situations as some sort of war with nature. This 
river delta experienced sea level rise three times it present level 
nearly 5000 years ago; and still was able to build wetland landscape 
given ample river resources.
    As for nearly all river deltas in the world, to give up on the 
landscape and cultural heritage of an ecosystem that has such potential 
for ecosystem resilience' is a major statement in our political will to 
rehabilitate natural resources in this country. It is a statement of 
our stewardship of natural resources without a fight to overcome 
business as usual. I have personally been involved in reconnecting 
sediment and freshwater resources from the Magdalena River in Colombia 
to a wetland floodplain consisting of
    one the largest mangrove areas in the Caribbean Sea. Reconnecting 
these coastal processes, while maintaining several of the economic 
activities of the region, resulted in immediate and extensive response 
of wetland ecosystems. And in Louisiana, projects such as Caernarvon 
freshwater diversion, with the Caernarvon Interagency Advisory 
Committee, has effectively resolved conflict in ecosystem needs and 
stakeholder opportunities by developing ideas around the natural 
pulsing of this landscape. Again, finding solutions by managing natural 
processes to sustain wetland resources that consider stakeholder use of 
coastal systems. There are trade offs, and realities of consequences 
must be clearly stated. But business as usual can be corrected to 
include partnerships among natural, social and engineering sciences to 
build more sustainable systems in such dynamic coastal landscapes. But 
the challenges of a changing climate means that such trade offs must 
consider 50 and 100 year conditions of project landscapes, which will 
require even more river resources today to protect the future.
    So what can be done to provide proper guidelines that balance the 
risks to social and natural resources to promote a more integrated 
restoration and protection of coastal resources along the Gulf coast 
(Fig. 3)? The key is to understand how to deal with uncertainty in such 
a dynamic landscape--and how that is factored into risk management. 
First, effective ecosystem restoration that will sustain coastal 
wetlands is to manage and use the natural resources that created the 
coastal area. The present waste of river resources each day is 
sufficient to mount a very aggressive, albeit energy intensive, 
campaign to artificially distribute sediments to recover some of the 
geomorphic features of this degrading landscape. This may take 5-10 
years of aggressive use of long-distance conveyance of sediment 
slurries connected to present and proposed dredging activities. Then 
freshwater diversions, which are concrete structures in levees that 
allow river flow through gates to adjacent wetland floodplains, will 
sustain the landscape over longer several decades. These river 
resources are important to sustain wetland resources facing natural 
disturbances from relative rise in sea levels, storms, and subsidence. 
Along with rebuilding the deltaic floodplain, there must be an 
aggressive effort to restore shoreline protection and barrier islands. 
Many of these features will have to evaluate the negative effects of 
existing artificial features of the landscape, and think about 
reauthorizations and land-use practices that can provide opportunity of 
distributing water resources across the coast. Inventory of coastal 
barrier resources systems features, the coastal processes that sustain 
those features, and the free goods and services they provide are key 
elements of any restoration program.
    The process of rebuilding coastal ecosystems as part of the social 
landscape will require new approaches to adaptive management strategies 
shared by natural, social and engineering sciences. And this new 
thinking will have to be adopted into our national priorities in public 
work projects. These strategies will have to deal with uncertainties, 
and establish methodologies to evaluate how services from both natural 
and social resources reduce risks to communities along the coast. There 
has to be conflict resolution in securing resources to support 
rebuilding the infrastructure of both ecosystems, urban, and industrial 
sectors of the coast. As restoration alternatives are developed to 
change the ecosystem and rebuild human settlements, system response 
must be monitored to incorporate learning as part of the process. We 
have to accept that not all the answers are apparent in the initial 
investments in this joint enterprise of science and engineering, but 
there must be institutional commitment that financial resources will be 
held accountable to an adaptive management framework. It is the only 
way to deal with such uncertainties in a dynamic coastal setting. The 
only worst-case scenario is no action at all.
    Large-scale ecosystem restoration programs must begin immediately, 
in concert with the urgency to rebuild the urban and industrial 
infrastructure following major disturbances. Many coastal wetland 
landscapes, such as Louisiana, are reaching critical points and will 
become technically more challenging and certainly more costly to 
rebuild unless actions to stabilize them occur immediately. Following 
major disturbances, the rebuilding process has to look at opportunities 
that exist to improve protection of social systems--with stronger 
emphasis on how restoring natural resources can provide service to 
coastal communities. Coastal resources represent some of the most 
impacted and altered ecosystems worldwide and are sensitive to many 
hazards and risks, from floods to cyclones to disease epidemics (Adger 
et al. 2005, Science 309:1036-1039). Thus, management agencies need to 
explore linkages between ecosystems and human societies to help reduce 
vulnerability and enhance resiliency of these linked systems in coastal 
areas.
    Footnote:
    ``Every phenomenon and apparent eccentricity of the river is 
controlled by law as immutable as the Creator, and the engineer need 
only to be insured that he does not ignore the existence of any of 
these laws, to feel positively certain of the results that he aims 
at.''
    ``If the profession of an engineer were not based upon exact 
science, I might tremble for the result, in view of the immensity of 
the interest dependent on my success.''
    From James B. Eads, USACE, taken from The Control of Nature by John 
McPhee, 1989.

[GRAPHIC] [TIFF OMITTED] T3826.076

[GRAPHIC] [TIFF OMITTED] T3826.077

[GRAPHIC] [TIFF OMITTED] T3826.078


    Senator Boxer. That's perfect. Mayor, welcome.

               STATEMENT OF RANDY ROACH, MAYOR, 
                        LAKE CHARLES, LA

    Mr. Roach. Thank you. Madame Chairman, I also want to add 
my words of welcome to the committee just as a small town 
mayor. I want you to know that your presence here in Louisiana 
is a great source of encouragement to all of us. Southwestern 
Louisiana is home to one of the most diverse wetlands in the 
United States. Within this area the Chenier Plain zone of 
Louisiana extends from Vermilion Bay to southwest Louisiana to 
Galveston Bay in southeast Texas. Because of the topography, 
including extensive marshes and cheniers, the Chenier Plain 
enjoys a unique diversity of animal and wildlife habitat. It is 
also habitat for one of the largest concentrations of 
neotropical birds along the entire Gulf Coast. This Gulf 
Coastal region is shared by Cameron Parish and Vermilion 
Parish. Cameron is home to four wildlife refuges, three 
Federal, one State. Immediately to the north of this area 
approximately 150,000 people live in or around the City of Lake 
Charles. The local economy is based on a major industrial 
complex consisting of two large oil refineries, one LNG 
terminal facilities and 22 petrochemical plants. The ship 
channel, which travels through the wetlands of Cameron Parish, 
has evolved into one of the most critically important energy 
corridors in the country. There are two LNG facilities planned 
along the ship channel. One is currently under construction. A 
fourth facility is currently being constructed in the lower 
Cameron Parish near the community of Johnson's Bayou. Once 
completed it is estimated that these facilities will supply up 
to 25 percent of our nation's natural gas.
    If time permitted I could spend my allotted time describing 
to you the difficulties that we have had in getting Federal 
funding to adequately maintain the ship channel and the 
resulting concerns that this situation creates with regard to 
the viability and the security of this industrial complex. But 
we are here to talk primarily about wetland restoration.
    The area of southwest Louisiana was hit hard by Hurricane 
Rita. The hardest hit area was Cameron Parish. The damage 
caused along our coast was catastrophic. The towns of Cameron, 
Holly Beach, Creole and Grand Chenier were practically 
obliterated by a 20-foot storm surge and many other Coastal 
communities were heavily damaged by high winds and flooding. 
Thousands of acres of marshlands were inundated by seawater 
killing livestock, ruining crops and doing indeterminate damage 
to the soil and the environment. Virtually the entire coast of 
Louisiana, including New Orleans, was affected by the storm 
surge of Hurricane Rita. It extended all the way to Lake 
Charles, 30 miles inland, just to the north of Cameron Parish. 
Some areas around the city were inundated by a surge of up to 
eight to ten feet.
    Over the years we have had several successful wetland 
restoration and protection projects completed in our area, but 
these projects have been affected by the storm.
    The Cameron-Creole Watershed Project is one of the largest 
hydrologic restoration areas along the entire Gulf Coast. 
Before Hurricane Rita it consisted of over 15 miles of 
protection levee and five major state-of-the-art water control 
structures. It protected over 100,000 acres of incredibly 
diverse wetlands owned by private and public entities including 
the Sabine Wildlife Refuge. Unfortunately, the system has been 
damaged by the storm and we are still waiting for the system to 
be restored.
    Other projects are also awaiting repair. They are projects 
that were funded by Federal and State dollars. All of these 
projects are being evaluated by FEMA for eligibility for 
assistance.
    There are also several water control structures and levees 
on private lands that have been damaged, but these have been 
deemed ineligible by FEMA.
    My purpose here today is not to blame any Federal agency, 
not FEMA or the people who work for FEMA. What I'm suggesting 
to you is that our problem is in part the result of well-
intentioned Federal regulations which were not designed to deal 
with the variety, magnitude and combination of socio-economic 
and environmental problem created along the coast of Louisiana 
as a result of the hurricane season of 2005.
    But I am here to tell you that as one person who has gone 
through this for the last 17 months that my presence here today 
is a commitment on the part of the State of Louisiana and other 
mayors and other individual local leaders to work with this 
Congress to solve it and have a sensible solution.
    I think the playbook idea is great. We need to expand it 
beyond wetland restoration to all areas affecting hurricane 
recovery.
    Senator Boxer. Thank you very much, Mr. Mayor.
    [The prepared statement of Mr. Roach follows:]

           Statement of Randy Roach, Mayor, Lake Charles, LA

    Southwestern Louisiana is home to some of the most diverse wetlands 
in the United States. Within this area is the Chenier Plain zone of 
Louisiana, which extends from Vermilion Bay in Southwest Louisiana to 
Galveston Bay in Southeast Texas. Because of its topography, including 
extensive marshes and cheniers, the Chenier Plain enjoys a unique 
diversity of animal and wetland habitat. It is home to wintering 
waterfowl, multitudes of species of wildlife, freshwater fisheries and 
estuarine fisheries and is the stopover habitat for one of the largest 
concentrations of neotropical birds along the Gulf Coast.
    This coastal region is shared by Cameron and Vermillion Parish. It 
is dotted by small communities where the main economic activity is 
fishing, shrimping, cattle farming and servicing the offshore oil 
industry. Marshlands extend 30 to 40 miles inland where farmers grow 
rice and sugar cane and ranchers raise horses and cattle.
    Immediately to the north of this area, approximately 150,000 people 
live in or around the City of Lake Charles. The local economy is based 
on a major industrial complex consisting of two large oil refineries, 
one operating liquefied natural gas (LNG) terminal facility and 22 
petrochemical plants. The Calcasieu Ship Channel, which travels through 
the wetlands of Cameron Parish, has evolved into one of the most 
critically important energy corridors in the country. There are two 
more LNG facilities planned along the ship channel--one is currently 
under construction. A fourth LNG facility is currently being 
constructed in lower Cameron Parish near the community of Johnson's 
Bayou.
    In March of 2006, there were five LNG facilities operating in the 
United States. Southwest Louisiana will eventually have four such 
facilities within a 20 mile radius of each another. Once operational, 
it is estimated that these facilities will supply 25 percent of our 
nation's natural gas.
    If time permitted I could spend my 5 minutes describing the 
difficulties we have had getting Federal funding to adequately maintain 
the ship channel and the resulting concerns this situation raises with 
regard to the viability and security of the industrial complex it 
supports, but we are here to talk primarily about wetland restoration.
    The area of Southwest Louisiana hardest hit by Hurricane Rita was 
Cameron Parish. It is the largest parish in the State geographically 
but one of the smallest in terms of population. It is home to four 
wildlife refuges--three Federal and one State.
    The damage caused by Hurricane Rita along the coast was 
catastrophic: the towns of Cameron, Holly Beach and Grand Chenier were 
practically obliterated by a 20-foot storm surge and many other coastal 
communities were heavily damaged by high winds and flooding. Thousands 
of acres of marshlands were inundated by sea water, killing livestock, 
ruining crops, and doing indeterminate damage to the soil and the 
environment.
    The seafood industry was also affected. Sixty to eighty percent of 
the shrimp fleet was damaged, destroyed or displaced. Fishermen along 
the entire Louisiana coast have suffered from the one, two blow of 
Katrina and Rita.
    Virtually the entire coast of Louisiana, including New Orleans, was 
affected by the storm surge of Hurricane Rita. It extended all the way 
to Lake Charles, 30 miles inland and just to the north of Cameron 
Parish. Some areas around the city were subjected to a surge of up to 
eight to ten feet.
    Like other areas of the Gulf Coast, the hydrology of Southwestern 
Louisiana has been altered by man and these changes have contributed to 
the erosion of our coastal wetlands. Canals and deep water channels 
connected to Gulf of Mexico shipping lanes were dug to support oil 
exploration and to ship raw materials to petrochemical industries 
located in and adjacent to the coastal Chenier Plain.
    Over the years, wetland restoration and protection measures have 
been implemented by large and small scale projects throughout Southwest 
Louisiana. The infrastructure consists of various size levees and water 
control structures ranging in size from small pipes to one-hundred-ten 
foot wide by one-thousand foot long navigation locks. Virtually all of 
these structures, whether owned by private entities, the State 
Government or Federal Government, were damaged by Hurricane Rita.
    After the devastation of Hurricane Rita, the coastal wetlands 
suffered through an unprecedented drought. The combination of salt 
water from the storm surge and lack of rain resulted in salinities in 
freshwater marshes which were comparable to that of the Gulf of Mexico. 
These excessive salinities remained in the coastal marshes for a year 
after Hurricane Rita's landfall. Remnant areas still exist today. 
Salinity means salt. And salt destroys marshlands.
    The Cameron-Creole Watershed Project is one of the largest 
hydrologic wetland restoration areas along the entire Gulf Coast. 
Before Rita, it consisted of over 15 miles of protection levee and five 
major State of the art water control structures. It protected over 
100,000 acres of incredibly diverse wetlands owned by private and 
public entities including the Sabine National Wildlife Refuge.
    Unfortunately, large sections of the levee system for this project 
were destroyed by Hurricane Rita re-exposing the restored wetlands to 
the ravages of salt water intrusion.
    The Cameron-Creole repair project has been divided into three 
phases. The estimated cost to fix this system is approximately eight 
(8) million dollars. FEMA has yet to qualify this project under its 
guidelines. Because of the urgency of these repairs, the Coastal 
Wetland Planning, Protection and Restoration Task Force (CWPPRA) has 
agreed to fund phases one and two and is proceeding with the bid 
process.
    Other projects constructed with State and Federal wetland funds 
were also seriously damaged by Rita and have not been repaired-the East 
Mud Lake Project, the East Sabine Lake Project, and the Humble Canal 
Project.
    The Holly Beach Sand Nourishment Project also needs to be reworked. 
It protects Highway 82 which is the only barrier between the saline 
waters of the Gulf of Mexico and almost nine thousand acres of marsh 
along the southern boundary of Sabine National Wildlife Refuge (SNWR). 
Repairs to this public project are needed to restore the beaches.
    All of these projects are still being evaluated as to eligibility 
by FEMA.
    Water control structures and levees on private lands were also 
damaged by the hurricane. Many of the private landowners and small 
public entities (e.g. local drainage boards) that have applied for 
assistance through FEMA have been deemed ineligible.
    I am not here to lay blame at the doorstep of any Federal agency. 
Not on FEMA or on the people who work for FEMA. The problem is our 
dependence on well-intentioned Federal regulations, which were not 
designed to deal with the variety, magnitude and combination of socio-
economic and environmental problems created along the coast of 
Louisiana as a result of the hurricane season of 2005.
    The residents of the City of Lake Charles and Calcasieu Parish 
depend on the coastal wetlands of Cameron Parish to support our local 
economy and protect us from future hurricanes. The marshes of Southwest 
Louisiana are resilient and can be restored. If the coastal restoration 
projects outlined are funded and completed in the near future this 
would go a long way towards helping the restoration process. If these 
projects are delayed much longer, the wetlands in our area will mirror 
the devastation currently plaguing those in the southeast part of the 
State both in terms of urgency and severity.
    We in Southwest Louisiana recognize the importance of the Morganza 
to the Gulf project and the people of Terrebonne and the need for levee 
elevation after years of settling in the LaRose to Golden Meadow 
project in Lafourche Parish. These matters are important and need to be 
addressed, just as the damage Hurricane Rita brought to Southwest 
Louisiana needs to be addressed.
    The culture of coastal Louisiana is unique. Its survival depends 
upon the restoration of our vast, diverse wetland resources and 
associated productivity. The people who live there are strong and 
resilient. They will recover and prosper if they are supported- not 
restricted - by rules and regulations designed to get the work done 
quickly, ethically and at a reasonable cost.
    The good news is that this is happening in a place called America, 
a country established by people of great vision; governed by the people 
and for the people. And you are among the leaders entrusted with the 
legacy of that vision. On behalf of Southwest Louisiana, I am here to 
commit to you that we will do our part to help resolve the pressing 
issues I have presented to you today.
    Thank you for your time. We appreciate your efforts in trying to 
remedy the present dilemmas facing America's coastal wetlands of 
Louisiana.

    Senator. Boxer. Mr. Jackson.

STATEMENT OF THOMAS L. JACKSON, PRESIDENT, SOUTHEAST LOUISIANA 
                FLOOD PROTECTION AUTHORITY-EAST

    Mr. Jackson. Thank you, Madame Chairman. I appear before 
the committee today as the president of the newly formed 
Southeast Louisiana Flood Control--Flood Protection Authority-
East. I am a registered professional engineer with a specialty 
certification in water resources engineering. I'm also a 
lifelong resident of New Orleans and Jefferson Parish, so I'm 
very familiar with the problems that we have had over the years 
with hurricane protection. My report to you today will focus on 
the current conditions of our hurricane protection system as we 
have analyzed it within the SLFPA-East.
    Our authority is over the New Orleans, Orleans Levee Board, 
the East Jefferson Levee Board, I mean districts, and the Lake 
Borgne Levee District in St. Bernard Parish. I would like to 
address the hurricane protection system as it relates to the 
pre-Katrina authorized levels, i.e. those levels that were 
authorized back in the '60s by the Congress under the Lake 
Pontchartrain and Vicinity Hurricane Protection Plan and not 
necessarily the hundred-year plan that we have been talking 
about more today.
    The Lake Borgne Levee District, which encompasses primarily 
St. Bernard Parish, had a disastrous impact during Hurricane 
Katrina. The Mississippi River Gulf Outlet levee was virtually 
destroyed by Hurricane Katrina. It has since been rebuilt by 
the Corps of Engineers to a height two feet above the pre-
Katrina authorized levels. However, there has been no 
discussions relative to armoring this levee, which is very 
vulnerable to Lake Borgne and tidal surges, let alone overflows 
and erosion on the back side of the levee.
    The St. Bernard Parish District is also responsible for the 
internal canals as well as pumping stations. The internal 
canals within St. Bernard Parish, as Senator Isakson stated 
recently, is clogged with sea grass that floated in, virtually 
floated in during the tidal surge inundation of St. Bernard 
Parish. The sea grass ended up in homes and it ended up in the 
canal system. And the pumping operation through that canal 
system has been virtually impacted by breaking equipment, by 
clogging canals to flow, and we have been unable through our 
executive director to get the help we need. Other parishes have 
had subsurface drainage cleaned by FEMA and FEMA contractors, 
however St. Bernard is still struggling to get these major 
canals cleaned.
    The lock projects of the locks in the MRGO levees are up to 
two feet below grade and need to be raised and need to be 
raised very quickly. The East Jefferson Levee District was less 
impacted by this storm as were the other two. They are still--
the lakefront levees are up to 2 feet below grade. They are in 
the process of being raised at this time under Task Force Hope 
of the Corps of Engineers. The western divider flood wall 
between Jefferson Parish and St. Charles Parish is up two feet 
below grade. The Corps wants to raise this to 100-year event 
protection as opposed to raising it twice.
    Orleans Parish, the lakefront levees all the way from 
Jefferson Parish all the way out to New Orleans East are again 
several feet below grade as well as the levee that turns south 
and comes back into the Intracoastal Canal. All of the 
structures on railroad crossings, highway crossings and other 
critical spots are as well below grade and need to be raised 
immediately. We have a hurricane season coming upon us very 
soon.
    The Industrial Canal card is the most vulnerable. There is 
a lot of talk about closing the Mississippi River Gulf Outlet, 
the GIWW, however, these are long-term projects and this must 
be done immediately.
    [The prepared statement of Mr. Jackson follows:]

 Statement of Thomas L. Jackson, President, Southeast Louisiana Flood 
                       Protection Authority-East

    Good Morning Mr. Chairman, members of the Committee, my name is 
Thomas Jackson. Thank you for the opportunity to be here.
    I appear before the committee today on behalf of the Southeast 
Louisiana Flood Protection Authority--East recently convened Board on 
January 10, 2007. At the first meeting of the new Authority East Board, 
I was elected President and have been serving in that capacity since. I 
am also Past National President of the American Society of Civil 
Engineers (ASCE) and have served for the past year and one half on the 
ASCE External Review Panel (ERP) providing external review of the 
Interagency Performance Evaluation Taskforce (IPET) investigation of 
the New Orleans area hurricane protection system performance during 
Hurricane Katrina. I am a registered Professional civil engineer in 
several Gulf States and a Diplomate with specialty certification in 
water resources engineering. I am recently retired from DMJM Harris as 
Senior Vice President and Chief Engineer of the firm. I might add 
parenthetically I am also a lifelong resident of New Orleans and 
Jefferson Parish so I am very familiar with this area and the problems 
in storm protection that we have had over the years.
    My report to you today will focus on the current status of 
hurricane protection within the jurisdiction of the SLFPA--East, 
including the East Jefferson Levee District, the Orleans Levee 
District, and the Lake Borgne Basin Levee District.
    My discussion will focus on the condition of our hurricane 
protection system with respect to the pre-Katrina authorized level of 
protection rather than the 100 year storm level of protection needed 
for the FEMA flood insurance program.
    I will begin with the Lake Borgne Levee District which encompasses 
St. Bernard Parish. This District was severely impacted by Katrina with 
the virtual destruction of the Mississippi River Gulf Outlet (MRGO) 
levee. This levee has been rebuilt by Task Force Guardian to 
approximately 2 feet above pre-Katrina authorized levels to account for 
subsidence of this newly built levee. However, no specifics have been 
given by the Corps regarding armoring this levee to protect it from 
wave action, or overtopping and erosion on the protected side.
    The Bayou Dupre Control Structure on the MRGO levee must be raised 
approximately 2.5 feet to the pre-Katrina authorized elevation. This 
project is being analyzed by the Corps to determine the feasibility of 
implementing this interim fix or proceeding directly to the 100 year 
elevation.
    Raising Highway 46 crossing and Bayou Road floodgate. The elevation 
of Highway 46 as it crosses the federal levee in Verret is about 3 feet 
below the pre-Katrina authorized elevation. The Floodgate and 
associated floodwalls are also too low.
    The eight miles of the Verret to Caernarvon Levee must be raised to 
get it back up to pre-Katrina authorized elevation.
    All of this work is supposed to be funded with the 3rd Supplemental 
Appropriation. It should be noted, however, that the Corps has informed 
the District that not enough money is left in this category of funds to 
complete these projects. As proposed by the President's 2008 budget, 
transfer of $1.3 billion to the west bank projects without additional 
funding, many of these east bank projects will go unfunded.
    The Lake Borgne Basin Levee District is unusual in that the 
District has the responsibility for construction, operation and 
maintenance of the major canals and pumping system in St. Bernard 
Parish.
    St. Bernard Parish was included in the Corps Pump Station Storm 
Proofing Project which has provided projects for the storm protection 
of pumping stations in Orleans and Jefferson parishes, but no work has 
been done in St. Bernard. We have been told that there were limitations 
on the total funds provided for this work and under the law the 
authorization and appropriations go hand in hand and when funds ran out 
so did the Corps authority to storm proof pumps. Additional funds and 
authorization will be required. These stations are very vulnerable and 
provide very little protection for the operators during a storm.
    The drainage canals throughout St. Bernard Parish are clogged with 
swamp grass that floated into homes and drainage canals by hurricane 
Katrina. This grass is blocking drainage in the canals and breaking 
trash rakes and pumping equipment and needs to be removed as soon as 
possible. Continuous pleas from our Executive Director to the Corps and 
FEMA have gone unanswered on this issue.
    The East Jefferson Levee District suffered the least damage from 
Hurricane Katrina of the three Districts under the SLFPA-E. However I-
walls found to be of questionable stability are located as transitions 
on each side of the lakefront pumping stations, and have only been 
temporarily repaired. In addition, I-walls at the north-west corner of 
the District have only been temporarily shored with steel sheet piles.
    The 10 mile lakefront levees in East Jefferson are 2 to 4 feet 
below pre-Katrina authorized grade and are in the process of being 
raised to the pre-Katrina authorized levels.
    On the West Return Floodwall along the St. Charles/Jefferson Parish 
line from Armstrong Airport north to the Lakefront the I-wall sections 
of this floodwall have been or are in the process of being improved 
with interim protection only. This entire section of floodwall is 
approximately two feet below the pre-Katrina authorized levels. It is 
our understanding that the Corps plans to raise this floodwall only 
once to the 100 year level. In the meantime this long section of 
protection is two feet below pre-Katrina authorized levels during the 
coming storm season.
    The levee along the 17th Street Canal from the temporary gates and 
pumps at the lakefront to Pumping Station number 6 is constructed of I-
wall and has been declared to be safe only up to a maximum water level 
of 6.0. This flood wall is still of concern during the operation of 
Pumping Station 6 and the lakefront temporary pumps during hurricane 
tidal surge.
    In Orleans Parish, the outfall canal levee and I-walls along 17th 
Street Canal, and the London Ave. Canal were breached during Katrina. 
Temporary closures are in place and temporary floodgates built at the 
lakefront to prevent hurricane tidal surges from entering these canals. 
However, pumping operations during storm surges will raise these canal 
levels at or near the maximum water levels against these floodwalls 
that are considered safe with a factor of safety of $1.3 billion. 
Permanent pumping stations and floodwalls are needed to alleviate this 
temporary fix. This project has been postponed pending the decision on 
the President's request to transfer $1.3 billion to the west bank 
projects. Planning and construction of these projects at the three 
outfall canals is vital to the ultimate protection of the community, 
and funding must be restored or replaced as soon as possible.
    The 5.2 miles of lakefront levees in Orleans parish west of the 
IHNC are approximately 1 to 2 feet below pre-Katrina authorized levels. 
The 12 mile lakefront levee from the Lakefront Airport to South Point 
also needs to be raised 1 to 2 feet to bring it to pre-Katrina 
authorized levels.
    In addition, the 13 mile levee south of South Point along Bayou 
Sauvage and then back west along the Gulf Intercoastal Waterway (GIWW) 
to the Inner Harbor Navigation Canal (IHNC) needs to be raised 1 to 2 
feet to bring it up to the pre-Katrina authorized level. Highway 11, 
highway 90 and the CSX railroad floodgates all need to be raised as 
much as 5 feet.
    The Corps is completing the last of three earthen levee raisings on 
the IHNC to meet pre-Katrina authorized level. There are sections of I-
walls that have subsided on the IHNC, but weren't damaged by the 
storms. TFG replaced breeched floodwalls on the IHNC with new T-walls 
which are designed to hold water all the way to the top of the wall. 
The older remaining I-walls were only designed to hold water with a 2 
foot free board at the top. The new T-wall was built to the new datum, 
which was up to 2 feet higher than the old datum, so in the end we have 
a new T-wall next to an old I-wall with the T-wall able to hold back 4 
to 5 feet more water than the older I-wall. Should we have another 
storm there is a potential that the older lower I-wall could fail or be 
over topped during the next storm.
    The IHNC corridor must be closed from hurricane tidal surges to 
provide pre-Katrina authorized level of protection. The Corps has 
developed plans to accomplish this with gate closures across the GIWW 
and MRGO and the IHNC at Lake Pontchartrain. These gates are still in 
the planning stages with construction starts scheduled for the fall of 
2008, providing funding is available. Meanwhile, the protection along 
this corridor is spotty at best.
    While this report paints a rather bleak picture, the Corps is 
proceeding to complete pre-Katrina authorized protection under the Task 
Force Hope program. Funding has now become an issue because of the 
inflated costs of construction in the area, post Katrina.
    It is urgent that the congress provide additional funding for 
completing the pre-Katrina authorized level of protection this year. 
Funding for the 100 year event must be approved and that program 
started immediately. The Corps must be given flexibility in spending 
within the jurisdiction of the SLFPA-E so that sufficient protection 
can be constructed as soon as possible.
    Many floodwalls should not be raised twice, once to pre-Katrina and 
then to 100 year levels. They must be raised immediately to the 100 
year level as soon as that elevation is established by the IPET 
scientists. Until then, the protection for the New Orleans East Bank 
area is less than Congress authorized with the Lake Pontchartrain and 
Vicinity Hurricane Protection Plan in the 1960's. The people of this 
community deserve better.
    Thank you for the opportunity to present this report on the status 
of the hurricane protection system for the Southeast Louisiana Flood 
Protection Authority--East. I will be happy to answer any questions at 
the proper time.

    Senator Boxer. Thank you so much. Here is what we are going 
to do. I'm going to pass and I hope and I urge all non-
Louisianians to pass this around so we can give five minutes 
apiece to our Louisiana Senators who are just dying to ask 
questions. And then each of us will have 30 seconds to make a 
closing comment so that's how we are going to do this. All 
right?
    So, Senator Vitter, 5 minutes.
    Senator Vitter. Thank you, Madame Chair, and I will be 
brief, in less than 5 minutes.
    Mayor Roach, nationally when we talk about coastal erosion, 
there is a tendency to focus in Louisiana, on southeast 
Louisiana where perhaps the rates of erosio are higher, but 
explain to us the very significant impact it's having and that 
growing impact on southwest Louisiana.
    Mr. Roach. Senator Vitter, for years we have been 
supporting the efforts of the State to focus on southeast 
Louisiana. As a result of Hurricane Rita I'm concerned that we 
ar not going to be able to sit quiet much longer, because of 
the storm surge of Hurricane Rita, the saltwater that came into 
the marshes and has stayed there over a year and in some areas 
it's still present. The deterioration of the marshes is now 
getting to a critical level and that's why the projects that I 
tried to outline to the committee earlier are so important to 
get funded, because those projects were protecting areas, those 
projects have been destroyed and now we are having an 
accelerated rate of deterioration in those marshes which will 
mirror what is happening in southeast Louisiana if we don't get 
a handle on that pretty quick.
    Senator Vitter. Thank you.
    Mr. Jackson, do you share my and others very strong 
concerns with this administration proposal to shift $1.3 
billion of funding between projects and not to immediately add 
new money to that ongoing work?
    Mr. Jackson. Yes, I do, Senator. My board debated that 
issue for over three hours and passed a resolution that we 
strongly oppose that transfer of funds because there are many 
critical projects on the east bank of the river that this was 
dedicated to that will go uncompleted.
    Senator Vitter. Thank you.
    And finally, Dr. Twilley, how would you rate the success of 
Davis Pond and Canarvon and what do we have to do different or 
better or bigger?
    Mr. Twilley. We could have a huge impact, I think, on 
coastal restoration in this State just by reauthorizing every 
water control structure that now exists. It wouldn't cost a 
penny. And what you would have to put in that language to say 
that those water control structures are to effectively help 
sustain and stabilize this coastal landscape.
    If you look at the original legislation for Canarvon and 
I'm not certain about Davis Pond, but I think this is true, 
that they were for salinity control, not to build land. We have 
to reauthorize those so that whoever owns them and has a title 
is held accountable that they are operated to restore the 
landscape and then there is accountability to do what you are 
just recommending. Right now you can't because authorization 
doesn't require it.
    Senator Vitter. Thank you very much, Madame Chair, and I 
will yield my time, two minutes and 15 seconds under.
    Senator Boxer. All right. Senator Landrieu.
    Senator Landrieu. I would like to follow up, Dr. Twilley, 
with that, because there are many skeptics in Washington that 
we continue unfortunately to hear from that go along something 
like: It can't be done. Why start a project that won't have any 
hope? How are we going to restore the wetlands? So could you 
just give us one minute of your best why and how and what is 
working and the fact that the science shows that we have made a 
lot of progress in that area.
    Mr. Twilley. Well, my comments will have some fundamental 
assumptions that we are still working on, but one is, is that 
for 4,000 years this coastline was sustainable. It was the 
human settlement and the misuse of the river that started the 
decline and degradation. During that 4,000 years there was 
subsidence. During this 4,000 years there were hurricanes. 
During this 4,000 years there was sea level rise. In fact, some 
scientists and some models say the sea level rise may have been 
three times higher than it is today. My point is, given the 
proper river resources, this coastline is sustainable even with 
those complications, but it's going to require a huge 
commitment and tradeoffs related to putting those river 
resources back into the flood planes of this State and maintain 
the economic viability that we all are also going to demand.
    But it's not just coastal Louisiana. It's coastal North 
Carolina. It's the eastern shore of Maryland. It's Rhode 
Island. It's everywhere you are faced with infrastructure, 
engineering, economic resources and sustainability of natural 
landscape.
    Senator Landrieu. I would like to follow up with, as this 
committee knows well, that navigation was the driving force, 
channelization of rivers and navigation with some thought given 
to flood protection and virtually no thought given to the 
sustainment of the wetlands that in large measure by the nature 
of a port surround port infrastructure. Ports are not built on 
the tops of mountains, obviously. They are built close to the 
seashore.
    So Reauthorizing, Madame Chair, which this committee is 
tasked to do, could really move this country forward, not just 
for this coast but for all coasts in America that really depend 
on us to take a new look.
    Mr. Jackson, I wanted to ask you, you have been just new on 
board and your testimony was really music to our ears. Our 
members don't realize it's been a long time waiting for one 
person to walk to that table to speak for a group of levee 
boards now working together. But how are you being received by 
Orleans officials, Jefferson officials and St. Bernard 
officials to date? And I know it's early, but would you 
describe the level of cooperation that you are experiencing 
from those three parishes as very good, moderate or not so 
good?
    Mr. Jackson. Senator, I'm happy to report that I would 
classify it as excellent. I happen to have known a lot of these 
officials prior to taking on this position and their 
cooperation has been excellent: St. Bernard Parish and their 
parish president, as well as Jefferson Parish and their 
president. Our dealings with the City of New Orleans have been 
through the New Orleans Sewerage and Water Board, and I have 
got a long-term relationship, so perhaps my prior relationships 
have helped that cooperation.
    Senator Landrieu. Mayor Roach, just finally, can you just 
give 30 seconds on--you touched on this briefly, but the 
significance of this energy coast in southwest Louisiana? We 
think about it only out of central or southeast, but what is 
happening with these liquefied natural gas plants now and how 
is the lack of money for additional and appropriate dredging 
hampering our abilities to get natural gas into the country?
    Mr. Roach. Madame Senator, the problem we are experiencing 
in southwest Louisiana, especially along the Ship Channel, has 
to do with the dredging and the maintenance of that ship 
channel. It is at critical levels--it was at critical levels 
before Hurricane Rita. It is now worse as a result of that. And 
what happens is not only the channel becomes shallower, it also 
becomes narrower. And if you know anything about LNG boats, you 
understand that those ships don't move well under those 
conditions. And we are just going to have increased pressure as 
a result of not only LNG, but the two refineries that are being 
supported by that channel.
    So we have to balance the maintenance of that channel with 
the preservation of the wetlands. We were able to, I think, get 
that balance before Rita, but as a result of the problems we 
are experiencing now with the Cameron-Creole Watershed Project 
in particular, we are going to, I think, risk a significant 
disruption of those wetlands.
    Senator Landrieu. I know the committee members know this, 
but I will finalize with this. That the whole country needs 
more natural gas now, today. We have ships coming into 
Louisiana because we permit these sites when others won't. We 
want to get this natural gas into the country.
    But, Madame Chair, because there is not enough money in the 
Corps of Engineers' budget for the appropriate kind of dredging 
and then support of the wetlands, we are light loading ships.
    Now, we have enough natural gas to keep the lights on. The 
question is: Does Maryland? Does Rhode Island? Does California? 
So these ships are trying to get to you all and we don't have 
the resources here to manage this coast in a way that helps 
move these products, move these ships and keeps the people safe 
that happen to live on both sides of these canals.
    Mr. Roach. And, Madame Senator, WRDA can help us in that 
regard.
    Senator Landrieu. Thank you.
    Mr. Roach. If the committee can help us with that, we'd 
appreciate it.
    Senator Landrieu. I will yield back my time.
    Senator Boxer. Thank you so much, Senator.
    So we will come to 30-second closing statements.
    Senator Vitter.
    Senator Vitter. Madame Chair, I just want to end where I 
began thanking you and the entire committee, particularly those 
folks here, for making the trip down and really seeing this 
firsthand, hearing about it firsthand, but seeing it outside of 
this building firsthand. I think it's enormously important and 
I'm very hopeful that's going to bear fruit this year, and I'm 
hopeful the first fruit it will bear is passing the WRDA bill. 
Thank you.
    Senator Boxer. Thank you, Senator.Senator Landrieu.
    Senator Landrieu. Thank you. Again a call to pass the WRDA 
bill as soon as we can, to move that bill which is critical. I 
believe the State has made tremendous progress in the 
consolidation of the levee boards, in the development of a 
master plan that recognizes all of the great strengths and 
challenges of this coast, but, Madame Chair, as this committee 
has pointed out, while the tragedy struck here in Katrina and 
Rita for Louisiana, it could strike and will strike somewhere 
else. So let's get these lessons learned, learn how to move 
through the red tape to build a better levee system, better 
coastal system and prevent this from happening in the future so 
that we can encourage the community here in New Orleans and 
Louisiana.
    Senator Boxer. Thank you, Senator.Senator Isakson.
    Senator Isakson. Well, thank you. I think what Dr. Twilley 
and Mayor Roach really said the challenge is to balance our 
economic interests and our environmental interests so that they 
can survive together and the first step in doing that is 
passing WRDA and I remain committed to doing to it so to see 
that we get it done.
    Thank you, Madame Chairman.
    Senator Boxer. Thank you.Senator Cardin.
    Senator Cardin. Thank you, Madame Chair. First, I believe 
that the strength of the community starts with its 
neighborhoods and there are too many sparsely populated 
communities here in New Orleans. And there are multiple 
problems for people coming back, but it starts with safety. We 
want to make sure that it's safe to bring your family back. 
That's why it's so important for us to get it right in regards 
to the levees, in regards to the canals and in regards to the 
buffer zones. I think it's critically important that we do 
that.
    I will just make one final point. In Maryland we did Poplar 
Island for a dredge site that broke a lot of the rules because 
it cost more money, but provided for us to have a buffer zone, 
in addition to a site for dredge material as well as wetland 
preservation and coastland preservation. So I think we need to 
look at ways in which we can be creative in helping this 
community.
    And I just want to thank again Senator Landrieu and Senator 
Vitter. You are correct. We need to be here. We thank you for 
the invitation.
    Senator Boxer. Senator Klobuchar.
    Senator Klobuchar. Thank you, Madame Chair, and to our two 
host Senators for bringing us here.
    I think one of the most hopeful things I heard today was 
you, Dr. Twilley, talking about how we could save this 
coastline. But also, the other piece of what you talked about 
was how this has to be a collective effort as you referenced 
the other coastlines in the United States. I talked about 
earlier Minnesota and how we are integrally interrelated here.
    I also noted, Ms. Coffee, how you talked about in your 
testimony that this is a race against time and that it is all 
of our responsibility. And that's what I will take away from 
this hearing. In Al Gore's book he ends with a quote from Omar 
Bradley and he said: We need to stop steering our ships, not by 
the lights of each passing ship, but by the stars. And so I 
will come away from this knowing that we need an integrated 
plan, but that you are all devoted to that. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman Boxer. One of the 
reasons I chose to come down was because I attended my first 
State of the Union address as a new U.S. Senator and I listened 
for two words that I did not hear in President Bush's State of 
the Union address. I did not hear the word ``Katrina'' spoken 
and I did not here the word ``New Orleans'' spoken. And I'm 
concerned that that might lead people to conclude that we in 
Washington think that the need for Federal attention to this is 
over and that New Orleans can safely be forgotten. And I'm just 
here to say that we admire your courage and resiliency in 
dealing with this here a year and a half later, and still 
working so hard. We do not believe, at least in the Senate, 
that the need for Federal attention to New Orleans is over, and 
you are certainly not forgotten. Thank you.
    Senator Boxer. Thank you Senator, for those statements.
    I want to close by saying I agree with the statements of 
all my colleagues and, of course, I will add a couple of more 
thank you.
    Again, thank you to the Court for the beautiful room. I 
want to thank the Corps for the fine tour they gave us both 
last night and this morning. Very important to see these things 
and understand it better.
    Thank you to the witnesses. I know I was kind of forcing 
you to be quick. I'm sorry about that, but that's just the way 
it goes. And you were succinct but you were understood.
    For me, this has been invaluable and very clearly Louisiana 
still needs us, still needs our help. And as long as I have the 
chairmanship--and one never knows from day to day because the 
Senate is so closely divided. Another day it could be Senator 
Inhofe. Today it's Senator Boxer. As long as I have this gavel 
I will never forget what I saw here today and I know that I 
have work to do with your two Senators and with the members of 
this committee who I thank so much for coming. This was just 
a--just so you know, this is an unusually high turnout of 
Senators. As Senator Vitter said, seven percent of the Senate 
here with you today.
    But in addition to saying that I want to make the smart 
investments that we have to make, I want to be specific about 
what I'm going to do, because I think a lot of times it's just 
rhetoric and I want to be clear. All of us have spoken for the 
need for the WRDA bill, the Water Resources Development Act. I 
commit to you it will be marked up by the end of March. That is 
a committment. I commit to you that I will work with your two 
Senators to get it brought up on the floor and get it done as 
soon as possible, so that's one thing.
    I will work on this MRGO problem because I think we need 
to. I was saying, you know, when Mr. Woodley, my friend, said, 
we already know a lot of what we have to do. It reminded me of 
when they are testing a new drug to see if it really works, 
say, on cancer or something. Then after a certain time they 
say: Well, we know the answer, it works, so we are going to 
stop the testing and we are moving forward. It seems to me you 
know the answer, so let's get on with it.
    I'm going to keep my eye on the $1.3 billion because I 
think that's really in many ways to me a moral issue. If 
something was an emergency once, it's still an emergency and we 
just can't say we are doing something when we go to the regular 
budget process. And we are going to work on levees. We are 
going on work on pumps. We are going to work on gates. We are 
going to do all these things, and we are going to do it with 
your two Senators and the leadership that they have shown.
    And to all of you here, thank you for coming. I hope we 
have restored a sense of hope if you have lost any. As Senator 
Whitehouse said, believe me, your two Senators don't let us 
forget you, not for 5 minutes. Whether it's in committees, 
whether it's at lunch, whether it's walking through the halls 
or meeting one of them in the elevator, believe me, they have 
you front and center.
    So with that I'm going to say thank you for your 
hospitality and this hearing is closing at this time.
    [Whereupon, the committee was adjourned.]
    [Additional statements submitted for the record follow.]
    [Note: Coastal Protection and Restoration Authority of 
Louisiana; Integrated Ecosystem Restoration and Hurricane 
Protection: Louisiana's Comprehensive Master Plan for a 
Sustainable Coast can be found in Committee files.]

[GRAPHIC] [TIFF OMITTED] T3826.001

[GRAPHIC] [TIFF OMITTED] T3826.002

[GRAPHIC] [TIFF OMITTED] T3826.003

[GRAPHIC] [TIFF OMITTED] T3826.004

[GRAPHIC] [TIFF OMITTED] T3826.005

[GRAPHIC] [TIFF OMITTED] T3826.006

[GRAPHIC] [TIFF OMITTED] T3826.007

[GRAPHIC] [TIFF OMITTED] T3826.008

[GRAPHIC] [TIFF OMITTED] T3826.009

[GRAPHIC] [TIFF OMITTED] T3826.010

[GRAPHIC] [TIFF OMITTED] T3826.011

[GRAPHIC] [TIFF OMITTED] T3826.012

[GRAPHIC] [TIFF OMITTED] T3826.013

[GRAPHIC] [TIFF OMITTED] T3826.014

[GRAPHIC] [TIFF OMITTED] T3826.015

[GRAPHIC] [TIFF OMITTED] T3826.016

  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
